<html>
<title> - H.R. 69, ``ILLEGAL, UNREPORTED, AND UNREGULATED FISHING ENFORCEMENT ACT OF 2013''; H.R. 2646, ``REFI PACIFIC ACT''; AND H.R.</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
 H.R. 69, ``ILLEGAL, UNREPORTED, AND UNREGULATED FISHING ENFORCEMENT 
ACT OF 2013''; H.R. 2646, ``REFI PACIFIC ACT''; AND H.R.____, ``PIRATE 
                       FISHING ELIMINATION ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, April 3, 2014

                               __________

                           Serial No. 113-66

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      
                                  ______

                  U.S. GOVERNMENT PRINTING OFFICE 

87-535 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001








                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Rauul R. Labrador, ID                Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
    GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Glenn Thompson, PA                   Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Vance M. McAllister, LA              Peter A. DeFazio, OR, ex officio
Bradley Byrne, AL
Doc Hastings, WA, ex officio
                                 ------                                





















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, April 3, 2014..........................     1

Statement of Members:
    Bordallo, Madeleine Z., a Representative in Congress from 
      Guam, Prepared statement of................................     4
    DeFazio, Hon. Peter, a Representative in Congress from the 
      State of Oregon............................................     7
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     3
    Herrera Beutler, Hon. Jaime, a Representative in Congress 
      from the State of Washington...............................     9
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     8
    Sablan, Hon. Gregorio Kilili Camacho, a Representative in 
      Congress from the Commonwealth of the Northern Mariana 
      Islands....................................................     4

Statement of Witnesses:
    Balton, Ambassador David A., Deputy Assistant Secretary for 
      Oceans and Fisheries, Bureau of Oceans and International 
      Environmental and Scientific Affairs, Department of State..    10
        Prepared statement of....................................    12
        Questions submitted for the record.......................    13
    Kraft, Mike, Vice President, Corporate Social Responsibility, 
      Bumble Bee Foods...........................................    44
        Prepared statement of....................................    46
    Lagon, Mark P., Chair of the International Relations and 
      Security, MSFS Program, and Professor, Practice of 
      International Affairs, Georgetown University...............    37
        Prepared statement of....................................    39
    Neva, James Gerald, Manager, Port of Ilwaco, Ilwaco, 
      Washington.................................................    35
        Prepared statement of....................................    36
    Pettinger, Brad, Director, Oregon Trawl Commission...........    31
        Prepared statement of....................................    33
    Smith, Russell, Deputy Assistant Secretary for International 
      Fisheries, National Oceanic and Atmospheric Administration, 
      Department of Commerce.....................................    16
        Prepared statement of....................................    18
    Walsh, James P. ``Bud'', Davis Wright Tremaine, LLP..........    49
        Prepared statement of and letter submitted for the record    50

Additional Materials Submitted for the Record:

    Federal Law Enforcement Officers Association, Letter of 
      support for H.R. 69 and H.R.____ ``Pirate Fishing 
      Elimination Act''..........................................    71
    International Law Offices of San Diego, Peter H. Flournoy, 
      Letter submitted for the record............................    69
    List of documents submitted for the record retained in the 
      Committee's official files.................................    72
    Pew Charitable Trusts, Prepared statement of.................    69
                                     

  LEGISLATIVE HEARING ON: H.R. 69, TO STRENGTHEN ENFORCEMENT 
    MECHANISMS TO STOP ILLEGAL, UNREPORTED, AND UNREGULATED 
FISHING, TO AMEND THE TUNA CONVENTIONS ACT OF 1950 TO IMPLEMENT 
  THE ANTIGUA CONVENTION, AND FOR OTHER PURPOSES, ``ILLEGAL, 
UNREPORTED, AND UNREGULATED FISHING ENFORCEMENT ACT OF 2013''; 
   H.R. 2646, TO DIRECT THE SECRETARY OF COMMERCE TO ISSUE A 
FISHING CAPACITY REDUCTION LOAN TO REFINANCE THE EXISTING LOAN 
FUNDING THE PACIFIC COAST GROUNDFISH FISHING CAPACITY REDUCTION 
PROGRAM, ``REFI PACIFIC ACT''; AND H.R.____, TO PREVENT, DETER, 
  AND ELIMINATE ILLEGAL, UNREPORTED, AND UNREGULATED FISHING 
THROUGH PORT STATE MEASURES, ``PIRATE FISHING ELIMINATION ACT''

                              ----------                              


                        Thursday, April 3, 2014

                        House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 1324, Longworth House Office Building, Hon. John Fleming, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Southerland, Sablan, 
Garcia, and DeFazio (ex officio).
    Also Present: Representatives Herrera Beutler, Huffman and 
Hanabusa.
    Dr. Fleming. The subcommittee will come to order.
    The Chairman notes the presence of a quorum.
    Before I begin my statement, I ask unanimous consent that 
the Ranking Member of the Full Committee and ex officio member 
of the subcommittee, Mr. DeFazio, be allowed to make an opening 
statement, and that Mr. Huffman and Ms. Herrera Beutler be 
allowed to participate in the hearing and make an opening 
statement as well.
    However, they have not arrived. So unless there is some 
objection, we will allow them to provide an opening statement 
at such time as they arrive.
    And without objection, so ordered.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. Today the subcommittee will hear testimony on 
three pieces of legislation, H.R. 69, the Illegal, Unreported, 
and Unregulated Fishing Enforcement Act of 2013; H.R. 2646, the 
Revitalizing the Economy of Fisheries in the Pacific Act; and a 
discussion draft of a bill to implement the agreement on the 
port State measures to prevent, deter, and eliminate illegal, 
unreported and unregulated fishing, which is tentatively titled 
the ``Pirate Fishing Elimination Act.''
    Two of these bills deal with the issue of illegal fishing 
and how the United States can take action to eliminate the 
United States as a destination for illegally caught fish. These 
bills would implement measures supporting international efforts 
to stop not only the illegal fishing activities, but also 
eliminate the markets for these illegally caught fish.
    It is clear that illegal fishing is a worldwide problem. It 
is also clear that the United States needs to do its part to 
stop this activity. While I am not aware that there is a 
significant problem with foreign vessels poaching fish in the 
U.S. fisheries, I am aware that illegal fishing in high sea 
fisheries that U.S. fishermen participate in will affect the 
market price for U.S. fishermen that they can get for their 
fish.
    I am also aware that the illegal fishing on stocks in other 
countries can affect U.S. fisheries. As an example, I 
understand the illegal fishing of Russian crab has affected the 
U.S. market for crab and has reduced the price U.S. fishermen 
have been able to get for the sustainably managed U.S. crab.
    While I support U.S. efforts to stop illegal fishing, as we 
strive for compliance with international fishing rules, we need 
to make sure we are not putting an onerous burden on U.S. 
fishermen, processors and importers.
    In addition, we should take a careful look at the laws that 
are already on the books and determine where additional tools 
are necessary rather than enacting new laws that may overlap or 
conflict with existing authorities.
    I am also interested in hearing more about what species of 
fish are most likely to be harvested by IUU vessels and what 
nations appear to be the worst actors. Focusing on the worst 
nations and on the fisheries which are most likely to be 
affected by IUU fishing would seem to be an effective start to 
addressing this problem.
    Finally, the subcommittee has already held a number of 
hearings on the requirements of the Lacey Act that require U.S. 
citizens to know and understand foreign laws and regulations 
when buying or transporting fish, wildlife and wood products. I 
am concerned the legislation before us would magnify that 
unreasonable burden.
    The third bill, H.R. 2646, introduced by our colleague from 
Washington State, Ms. Herrera Beutler, would allow the West 
Coast groundfish fishery to refinance a loan which was taken 
out to reduce the capacity of the fleet in that fishery.
    At the time of the loan the repayment terms were thought to 
be reasonable, and the fleet willingly took on the 
responsibility. However, the costs of managing the fishery have 
changed and so have the prevailing interest rates. As I 
understand it, after the loan was taken out, changes in the 
management system for that fishery have imposed new costs on 
the fishermen, including a management fee of 3 percent on the 
value of all landings and a requirement that 100 percent of the 
vessels in the fishery carry at-sea observers at a cost of 
approximately $450 a day.
    These new fees were imposed in addition to the 5 percent 
fee on the value of all landings from the fishery to repay the 
loan. These new fees in addition to the burden of the loan 
repayment are threatening the economic viability of some 
vessels in the fleet.
    This legislation will allow the loan to be repaid over a 
longer time period and would reduce the interest rate to one 
more in line with today's interest rates. It would not negate 
the requirement that fishermen repay the loan or reduce the 
overall loan, but would allow the affected fishermen to afford 
the increased management costs and repay the loan in a timely 
manner.
    I look forward to hearing from today's witnesses on all 
three of these bills.
    [The prepared statement of Dr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
            Fisheries, Wildlife, Oceans and Insular Affairs
    Good afternoon. Today, the subcommittee will hear testimony on 
three pieces of legislation--H.R. 69, the Illegal, Unreported, and 
Unregulated Fishing Enforcement Act of 2013, H.R. 2646, the 
Revitalizing the Economy of Fisheries in the Pacific Act, and a 
discussion draft of a bill to implement the Agreement on Port State 
Measures to Prevent, Deter and Eliminate Illegal, Unreported and 
Unregulated Fishing--which is tentatively titled the Pirate Fishing 
Elimination Act.
    Two of these bills deal with the issue of illegal fishing and how 
the United States can take action to eliminate the United States as a 
destination for illegally caught fish.
    These bills would implement measures supporting international 
efforts to stop not only the illegal fishing activities, but also 
eliminate the markets for these illegally caught fish.
    It is clear that illegal fishing is a worldwide problem. It is also 
clear that the United States needs to do its part to stop this 
activity. While I am not aware that there is a significant problem with 
foreign vessels ``poaching'' fish in U.S. fisheries, I am aware that 
illegal fishing in high seas fisheries that U.S. fishermen participate 
in will affect the market price U.S. fishermen can get for their fish. 
I am also aware that illegal fishing on stocks in other countries can 
affect U.S. fisheries. As an example, I understand the illegal fishing 
of Russian crab has affected the U.S. market for crab and has reduced 
the price U.S. fishermen have been able to get for the sustainably 
managed U.S. crab.
    While I support U.S. efforts to stop illegal fishing, as we strive 
for compliance with international fishing rules, we need to make sure 
we are not putting an onerous burden on U.S. fishermen, processors, and 
importers.
    In addition, we should take a careful look at laws that are already 
on the books and determine where additional tools are necessary rather 
than enacting new laws that may overlap or conflict with existing 
authorities. I am also interested in hearing more about what species of 
fish are most likely to be harvested by IUU vessels and what nations 
appear to be the worst actors. Focusing on the worst nations and on the 
fisheries which are most likely to be affected by IUU fishing would 
seem to be an effective start to addressing this problem.
    Finally, this subcommittee has already held a number of hearings on 
the requirements of the Lacey Act that require U.S. citizens to know 
and understand foreign laws and regulations when buying or transporting 
fish, wildlife, and wood products. I am concerned that legislation 
before us would magnify that unreasonable burden.
    The third bill, H.R. 2646, introduced by our Colleague from 
Washington State, Mrs. Herrera Beutler, would allow the West Coast 
groundfish fishery to refinance a loan which was taken out to reduce 
the capacity of the fleet in that fishery. At the time of the loan, the 
repayment terms were thought to be reasonable and the fleet willingly 
took on the responsibility; however, the costs of managing the fishery 
have changed and so have the prevailing interest rates.
    As I understand it, after the loan was taken out, changes in the 
management system for that fishery have imposed new costs on the 
fishermen including a management fee of 3 percent on the value of all 
landings and a requirement that 100 percent of the vessels in the 
fishery carry at-sea observers--at a cost of approximately $450/day. 
These new fees were imposed in addition to the 5 percent fee on the 
value of all landings from the fishery to repay the loan. These new 
fees in addition to the burden of the loan repayment are threatening 
the economic viability of some vessels in the fleet.
    This legislation would allow the loan to repaid over a longer time 
period and would reduce the interest rate to one more in line with 
today's interest rates. It would not negate the requirement that 
fishermen repay the loan or reduce the overall loan, but would allow 
the affected fishermen to afford the increased management costs and 
repay the loan in a timely manner.
    I look forward to hearing from today's witnesses on all three of 
these bills.

                                 ______
                                 

    Dr. Fleming. At this time I would like to recognize the 
distinguished Ranking Member, Congressman Sablan, for any 
statement he would like to make.

    STATEMENT OF THE HON. GREGORIO KILILI CAMACHO SABLAN, A 
    REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH OF THE 
                    NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you. Thank you very much, Mr. Chairman, 
and welcome to all of our guests this morning.
    Mr. Chairman, at the onset I would like to thank Ms. 
Bordallo, my distinguished colleague from Guam, for introducing 
one of the bills before us for which I am an original co-
sponsor, the ``Illegal, Unreported, and Unregulated (the IUU) 
Fishing Enforcement Act of 2013.''
    While Ms. Bordallo has to necessarily be on Guam and could 
not be with us today, I ask unanimous consent to enter for the 
record her statements on the bill.
    Dr. Fleming. Without objection, so ordered.
    [The prepared statement on H.R. 69 of Ms. Bordallo 
follows:]
   Prepared Statement of Madeleine Z. Bordallo, a Representative in 
                           Congress from Guam
    I thank Chairman John Fleming and Ranking Member Kilili Sablan for 
calling this important legislative hearing to order. I appreciate that 
the Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs 
meets this afternoon to hear testimony regarding H.R. 69, the Illegal, 
Unreported, and Unregulated Fishing Enforcement Act of 2013, a bill I 
introduced on the first legislative day of the 2nd session of the 113th 
Congress.
    The United States demonstrates strong leadership in fisheries 
management both nationally and internationally. However, despite these 
efforts, over 70 percent of major global marine fish stocks are 
exploited or depleted, which is driven, in part, by the persistence of 
illegal, unreported, and unregulated (IUU) fishing. Illegal fishing 
threatens the economic and social infrastructure of fishing 
communities, and threatens the security of the United States and our 
allies around the world, by decreasing opportunities for legitimate and 
conscientious fishermen. Additional action is needed from Congress if 
we are to be successful in combating IUU fishing and the depletion of 
fish stocks worldwide.
    IUU fishing is estimated to have an annual global value of over $10 
billion, or between 10 percent and 22 percent of the annual reported 
global fish catch, severely undermining the U.S. fishing industry and 
fisheries management efforts in the United States and in other 
countries, according to studies by experts like Dr. David Agnew of 
Imperial College London. Unsustainable fishing practices by foreign 
fishing fleets adversely affect stocks that migrate between the U.S. 
Exclusive Economic Zone (the EEZ) and the high seas. This problem can 
be particularly acute in places like Guam and the Gulf Coast where the 
EEZ is vast and borders other EEZs.
    The loss of economic opportunity weakens our allies in the Pacific 
and exacerbates resource conflicts in the region. The Coast Guard 
estimates that over $1.7 billion is lost annually to IUU fishing in the 
Pacific Islands. In the Gulf Coast, illegal fishing of sharks, spurred 
by a demand from abroad, may account for more than half of U.S. 
commercial shark quotas.
    The United States' Pacific represents 43 percent of the entire 
United States EEZ. In particular, Guam, the Northern Marianas, Hawaii, 
and the other Pacific islands, host rich fisheries resources, including 
pristine reefs, diverse communities of reef fish, and large populations 
of sharks and valuable tuna; important economic and cultural assets for 
the islands and the United States. IUU fishing threatens these 
resources. There have been several incidents of foreign fishing vessels 
operating within the United States' EEZ with impunity--a significant 
national security and economic risk to our country. The Navy and Coast 
Guard have recognized the economic and security threats posed by 
illegal fishing in Oceania, and it is incumbent on the Administration 
and Congress to strengthen enforcement measures against IUU fishing.
    Increased enforcement increases stability among our allies in the 
Western Pacific and up and down our coasts. Many nations depend upon 
fishing as a vital component of their national economy. Protecting our 
fishermen from illegal fishing enhances economic opportunities and 
protects cultural and natural resources upon which our communities 
rely. IUU fishermen are ``free riders'' who benefit unfairly from the 
sacrifices made by U.S. fishermen and others for the sake of proper 
fisheries conservation and management. IUU fishing when it depletes the 
resources of small communities has the ability to create social 
instability, which causes further security problems in the region. We 
must do all that we can to help our allies avoid that from happening.
    On March 5, 2013, Admiral Sam Locklear, Commander of U.S. Pacific 
Command, testified before the House Armed Services Committee at an 
annual posture hearing. In response to a question about IUU fishing, he 
stated, ``Most of the nations, or most of the folks in Oceania--island 
nations do not have the capability to properly--to adequately monitor 
and understand what's happening in their economic zones. So the ability 
for them to be taken advantage of to their economic detriment is 
growing. The Coast Guard in the Pacific and the U.S. Navy in the 
Pacific work closely together to support, where we can, programs that 
allow us to help the nations monitor their economic zones for illegal 
fishing. It's not comprehensive.'' We must support our allies, but more 
can be done to enhance our ability to thwart IUU fishing.
    The Illegal, Unreported, Unregulated Fishing Enforcement 
Enhancement Act of 2013 further enhances the enforcement authority of 
NOAA and the U.S. Coast Guard to regulate IUU fishing. This bill would 
amend international and regional fishery management organization (RFMO) 
agreements to incorporate the civil penalties, permit sanctions, 
criminal offenses, civil forfeitures, and enforcement sections of the 
Magnuson-Stevens Fishery Conservation and Management Act. It would 
strengthen enforcement authority of NOAA and the U.S. Coast Guard to 
inspect conveyances, facilities, and records involving the storage, 
processing, transport and trade of fish and fish products, and to 
detain fish and fish products for up to 5 days while an investigation 
is ongoing.
    This bill will also implement the Antigua Convention, an important 
international agreement that provides critical updates to the 
principles, functions, and processes of the Inter-American Tropical 
Tuna Commission (IATTC) to manage fisheries in the eastern Pacific 
Ocean. The Antigua Convention modernizes the IATTC and increases its 
capacity to combat IUU fishing and illegal imports of tuna product. 
Without implementing legislation, the United States does not have the 
authorities necessary to satisfy its commitments under the Antigua 
Convention, including addressing IUU in the eastern Pacific Ocean.
    In addition, this bill makes technical adjustments allowing NOAA to 
more effectively carry out current IUU identification mandates, 
including extending the duration of time for identification of 
violators from the preceding 2 years to the preceding 3 years. This 
bill broadens data sharing authority to enable NOAA to share 
information with foreign governments and clarifies that all information 
collected may be shared with international organizations and foreign 
governments for the purpose of conducting enforcement. This bill would 
also establish an international cooperation and assistance program to 
provide technical expertise to other nations to help them address IUU 
fishing. This bill focuses on enhancing enforcement authority and does 
not authorize new funding or appropriations.
    I would like to thank my fellow subcommittee members, Mr. Sablan, 
Mr. Pierluisi, Mr. Faleomavaega, Ms. Hanabusa, and Mr. Lowenthal, for 
their co-sponsorship of H.R. 69. I also note that this bill has 
bipartisan support; Mr. Grimm has joined as a cosponsor, and just last 
month, I co-sponsored a briefing with Mr. Michael McCaul, Chair of the 
Committee on Homeland Security, where IUU experts outlined the 
realities and costs of IUU fishing. I look forward to continuing to 
work with my colleagues on both sides of the aisle to advance this 
important bill that will combat IUU fishing.

                                 ______
                                 

    Mr. Sablan. Thank you.
    The United States demonstrates strong leadership in 
fisheries management both nationally and internationally. 
Scientifically supported management standards are critical to 
the sustainability of our fisheries and, therefore, to the 
livelihoods of our fishermen.
    The U.S. fishermen have worked hard to meet the standards 
set forth in the Magnuson-Stevens Act, and their efforts are 
paying off as we are seeing critical stocks rebuilt around the 
country.
    But despite these efforts, nearly 90 percent of global 
marine fish stocks are fully exploited or depleted largely 
because of persistent IUU fishing. With an annual global value 
of as much as $23.5 billion, IUU fishing undermines the U.S. 
fisheries management efforts and its fishermen who are forced 
to compete for the same fish with people who do not play by the 
same rules.
    Unsustainable fishing practices by foreign fishing fleets 
adversely affect stocks that migrate between the U.S. exclusive 
economic zone and the high seas, and we will hear from our 
witnesses today. IUU fishing has been linked to human 
trafficking and drug running, making it a threat not just to 
our economies but to our security as well.
    The National Oceanic and Atmospheric Administration, NOAA, 
and the U.S. Coast Guard are doing their best to stop this 
illegal activity, but they can do better with our help. H.R. 69 
would provide the additional tools critically needed to help 
NOAA and the Coast Guard more effectively fight against IUU 
fishing.
    This bill would strengthen and improve enforcement 
authorities and align them under the MSA with more stringent 
penalties. It would also provide additional authority for the 
United States to identify and penalize nations that do not 
comply with the regional fisheries management organizations' 
recommendations that U.S. fishermen follow.
    These are just a few of the benefits prescribed in this 
important legislation we will discuss today.
    But trying to catch criminals in the act of illegal fishing 
on the vast ocean is extremely difficult, especially in an area 
like the Pacific Islands region which has an EEZ larger than 
the continent of the United States and Alaska combined.
    Resource limitations create another obstacle. U.S. 
underwater fisheries enforcement capacity for Guam and the 
Northern Mariana currently consists of a single small boat. For 
those reasons, the unnumbered discussion draft we will take up 
today that would implement the agreement on port State measures 
to prevent, deter and eliminate illegal, unreported, and 
unregulated fishing, or PSMA, is an important and necessary 
complement to H.R. 69.
    Parties to PSMA are bound to refuse port entry or services, 
including landing and transshipment of fish, to foreign flag 
vessels known to have engaged in IUU fishing. If these vessels 
have nowhere to land their catch, then the catch is worthless 
and there will be no incentive to continue fishing.
    While the United States already follows many of these 
procedures outlined in the PSMA, the U.S. ratification of the 
agreement will send a strong message to other fishing nations 
that we are serious about leading the way toward sustainable 
fisheries management.
    Finally, I would also like to voice my support for H.R. 
2646, a bill that I know is important to our committee's 
Ranking Member, Mr. DeFazio, as well as to my friend, Mr. 
Huffman. We will hear more about this legislation from the both 
of them.
    And I thank each of the witnesses for joining us today, and 
look forward to hearing from you.
    Thank you, Ambassador and Mr. Sullivan's stand-in, Mr. 
Smith.
    Dr. Fleming. I thank the gentleman, and perhaps we should 
adopt a rule today to just say ``NOAA'' and not try to----
    Mr. Sablan. Yes.
    Dr. Fleming. That is a very long word and it is hard for 
all of us to get it out in a complete sentence.
    At any rate, I thank the gentleman, the Ranking Member.
    At this time I would like to recognize the distinguished 
Ranking Member of the Full Committee, Mr. DeFazio for a 
statement he would like to make.

   STATEMENT OF THE HON. PETER DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Chairman, I very much appreciate your holding a hearing 
today on these three measures. We actually have before us in a 
bill that was introduced by our colleague, who is sitting on 
the dais, something that is probably the rarest of things and 
endangered in Washington, DC, which is a bicameral, my gosh, 
bipartisan bill that solves a very real problem. I congratulate 
the gentlelady for her introduction, and I am pleased to be a 
sponsor of the legislation.
    You already mentioned briefly so I will not be repetitive. 
The bottom line is the buyout on the West Coast, it kind of 
made me look at national marine fisheries in a little different 
way. I am starting to look at them like a payday lender. You 
know, first they charged an extortionate interest rate, which 
was two points above prime, despite the government's borrowing 
costs being much less.
    And, second, they did not establish a repayment mechanism 
for 18 months and kept running up the tab. I mean, the 
fishermen were supposed to pay a share of their landing costs 
to defray the loan, but this is like one of those catchy 
mortgage loans that put a lot of people underwater back in 
2008. And this is quite egregious. It is jeopardizing the 
livelihoods of many fishermen and women on the West Coast.
    And the other thing that is odd about it is in other cases, 
for instance, New England, they got a $35 million buyout for 
zero cost and no interest. But somehow we are being pegged at a 
usurious rate and were running up a bill on interest because we 
were not allowed to repay.
    The bill would rectify this, refinance the loan, extend the 
repayment period. The government would in the end come out 
whole, and in fact, I think would come out ahead because these 
people would continue to be able to work and pay taxes, and if 
we do not do this, many may well have to give up fishing.
    Then we also have, and already the gentleman, Mr. Sablan, 
mentioned it at some length, Congresswoman Bordallo's bill, and 
again, I will not be repetitive, but it would help us to deal 
with pirate fishing or IUU fishing, you know, illegal, 
unreported, and unregulated fishing if you want to be exact.
    And then the second bill, which is a bill in discussion 
draft form, and I would be happy to hear comments on it today 
for potential changes before we formally introduce, which 
Congresswoman Hanabusa and I drafted, which would use port 
State measures to prevent, deter, again, pirate fishing. And in 
a very, very effective way by denying people access to markets 
and doing it in a regular and predictable way to get at those 
who abuse the system.
    With that, Mr. Chairman, I would also thank--I am going too 
quickly here--the Congressman from California, Mr. Huffman, for 
his sponsorship on the bipartisan, bicameral REFI bill.
    Thank you, Mr. Chairman.
    Dr. Fleming. I thank the gentleman.
    Next the Chair recognizes Mr. Huffman for any statement he 
would like to make.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you very much, Mr. Chair, and I want to 
thank the Ranking Member as well for scheduling time in this 
hearing for this important bipartisan, bicameral bill and a 
sincere thanks to Representative Herrera Beutler for her 
leadership and for working with me and my staff on this. Thanks 
to my colleague, Peter DeFazio, as well.
    The health of the coastal economy in my district and many 
others represented on this committee is dependent, of course, 
on the success of our local fishermen and the jobs that they 
create. In my district, the groundfish fleet is a very 
important player in the local economy, especially around our 
small ports.
    Groundfish fishermen buy fuel. They buy gear, and the fish 
that they land support jobs at processing plants. In my 
district alone on any given year there are more than a dozen 
trawlers that contribute to over 100,000 metric tons of fish 
that are caught along the West Coast, and the value of that 
catch exceeds $80 million.
    Beyond the economic contribution provided by our groundfish 
fishermen, many are also playing a stewardship role on the 
health of our fisheries. The industry supported Catch Share 
Program that got started in 2011 has been very successful. It 
has substantially reduced the bycatch of non-target species.
    However, the viability of this industry, particularly for 
small boat fleets, is at risk. As of February 14 of this year, 
the West Coast ground fishery had paid over $20 million of the 
interest on that original Federal loan, but they had made very 
little progress on the principal balance.
    Presently, over $27 million is still owed of that original 
$35 million loan. Fishermen continue to diligently work to pay 
this loan back, but they, as the Chair noted, are facing new 
fees, and of course, they have rising fuel costs and other 
pressures.
    And that is why we have introduced this bipartisan REFI 
legislation. It makes perfect sense to refinance this decades 
old loan at today's low interest rates to help keep our 
fishermen in business. If they go under, it is important to 
note there will be nobody to pay back this loan because the 
loan payments are based upon their landings. If there are no 
landings and no money from those catches, this loan goes unpaid 
and everybody loses.
    Getting this commercial fishery back on its feet is just as 
important as the progress we have made to get it on more stable 
ecological and operational footing. So, Mr. Chair, this is a 
simple refinancing bill.
    Just as any other small business or homeowner would 
refinance in this current low interest climate, we need to 
provide that opportunity for this fishing fleet. It is a smart 
bill. It is going to keep these folks fishing so that they can 
create the jobs and provide the revenues that will help repay 
this loan to the Federal Government.
    And I want to thank again the committee for including this 
bill in the hearing and yield back the remainder of my time.
    Dr. Fleming. The gentleman yields his time, and the Chair 
now recognizes Ms. Herrera Beutler for any statement she would 
like to make.

 STATEMENT OF THE HON. JAIME HERRERA BEUTLER, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF WASHINGTON

    Ms. Herrera Beutler. Thank you, Chairman Fleming and 
Ranking Member Sablan and Ranking Member of the Full Committee, 
Mr. DeFazio.
    I appreciate the opportunity to advocate on behalf of 
revitalizing the economy of fisheries in the Pacific or the 
REFI Act. I would like thank Congressman Huffman for playing a 
critical role in the introduction of this legislation and 
several members here today, Ranking Member DeFazio and 
Congressman Young for their co-sponsorship, and it is not every 
day that you get both Mr. DeFazio and Mr. Young on the same 
piece of legislation, I would like to add.
    I am very pleased that Jim Neva was willing to make the 
trip across the country to testify. Jim has 20 years of 
experience managing fishing ports on the Washington coast, and 
most recently Jim managed the Port of Ilwaco, which serves as a 
lifeline to businesses and coastal communities in southwest 
Washington. So I am honored to have him here today.
    Mr. Chairman, the fishermen off the West Coast of Oregon, 
Washington, and California are struggling to sustain their 
businesses, as we have heard. Coastal communities in my 
district have not been immune to the economic downturn of the 
last half decade, and in fact, many of those who have endured 
some of the highest unemployment in the Nation deserve some 
relief, and H.R. 2646, the REFI Act will provide that relief.
    The West Coast groundfish fishery was declared an economic 
disaster in 2000 because of the overcapitalization and 
overfishing. In 2003, Congress authorized the buyback loans for 
the fishery to decrease the fishing pressure and support a 
Catch Share Program for the fishery.
    These loans helped eliminate overfishing by buying out the 
permits of fishermen who are willing to leave the fleet, and 
Congress was responding to a very real need. But since, we have 
learned that this program was set up in an unsustainable manner 
as Mr. DeFazio so aptly described it.
    Fishermen in the region have been diligently paying back 
their loans. That is a key point, plus interest, but at its 
current rate, it just unaffordable. So rather than watch these 
small businesses go out and default, we want them to pay it 
back. It is time to update the terms so the industry can 
continue to do what they do best.
    There are three aspects to this bill. It is going to 
decrease the ex-vessel rate, which is the minimum payment on 
each landing. It will allow a loan to be financed at current 
interest rates, and it extends the term for another 10 years.
    Mr. Chairman, this bill enjoys broad bipartisan support. 
The Pacific Fishery Management Council, our governing body, has 
noted that if we do not take action on these loans, economic 
casualties in the fishery are feared. So this is a tremendous 
opportunity to take that action, and I really appreciate your 
willingness to hear the REFI Act and for your support.
    With that I yield back.
    Dr. Fleming. The gentlelady yields back, and we thank her 
for her statement.
    We will now hear from our first panel of witnesses, which 
includes Ambassador David A. Balton, Deputy Assistant Secretary 
for Oceans and Fisheries, Bureau of Oceans and International 
Environmental and Scientific Affairs, Department of State; and 
Mr. Russell Smith, Deputy Assistant Secretary for International 
Fisheries, National Oceanic and Atmospheric Administration, 
otherwise known as NOAA, Department of Commerce.
    Your written testimony will appear in full in the hearing 
record. So I ask that you keep your oral statements to 5 
minutes as outlined in our invitation letter to you and under 
Committee Rule 4(a).
    Our microphones are not automatic. So be sure and press the 
button when you get ready to speak, and make sure the tip is 
close to your mouth.
    And also with respect to our lights, you will be under 
green light for the first 4 minutes, the yellow light for the 
last minute. When it turns red, we ask that you conclude your 
statement as quickly as possible so we can get right on to 
questions.
    And also just to note here, we expect votes any time. So 
when that happens we will adjourn briefly. I do not expect the 
vote series to be long, and we will be right back and we will 
finish up.
    So with that, Ambassador Balton, you are now recognized for 
5 minutes, sir.

   STATEMENT OF AMBASSADOR DAVID A. BALTON, DEPUTY ASSISTANT 
   SECRETARY FOR OCEANS AND FISHERIES, BUREAU OF OCEANS AND 
INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC AFFAIRS, DEPARTMENT 
                            OF STATE

    Ambassador Balton. Mr. Chairman, members of the 
subcommittee, thank you very much for the opportunity to 
testify.
    I will speak about two of the three measures under 
consideration today, namely, H.R. 69 and the draft bill 
tentatively titled ``The Pirate Fishing Elimination Act.''
    These bills would, among other things, provide authority to 
implement two significant international agreements in the field 
of fisheries. These agreements are the Antigua Convention and 
the Port States Measures Agreement. Ratification of these 
agreements will allow the United States to reinforce its 
leadership role at the international level with respect to 
oceans issues in general and marine fisheries in particular.
    These agreements have strong support from a broad range of 
U.S. stakeholders, including representatives of the U.S. 
fishing industry and the environmental and scientific 
communities. Many of these representatives participated 
actively in the negotiations that led to the adoption of these 
agreements.
    I would like to say a few words about each of the 
agreements and the bills that would implement them. Title 2 of 
H.R. 69 contains implementing legislation for the Antigua 
Convention. This treaty supersedes the 1949 treaty that created 
the Inter-American Tropical Tuna Commission, or IATTC. The 
United States signed this convention in 2003, and the Senate 
has already provided advice and consent to its ratification.
    The Antigua Convention brings the 1949 IATTC treaty up to 
date. It takes account of the many changes in international law 
in the field of fisheries that have occurred since 1949, as 
well as the changes that have occurred in fisheries management 
since that time.
    The Antigua Convention entered into force in 2010 and now 
has 21 parties. Although the United States could implement much 
of the Antigua Convention under existing statutory authority, 
certain changes in domestic law are needed before the United 
States can join this convention. H.R. 69 would make these 
changes.
    I will turn now to the Pirate Fishing Elimination Act draft 
bill, which would implement the Port State Measures Agreement. 
This treaty agreement is the first binding global instrument 
specifically designed to combat illegal, unreported, and 
unregulated, or IUU, fishing.
    The United States took a leadership role in the development 
of this agreement. We were among the first nations to sign the 
agreement when it was adopted in 2009. The President 
transmitted it to the Senate for advice and consent in 2011. 
The Senate Foreign Relations Committee recently held a hearing 
on this treaty and has already approved it.
    IUU fishing, as many have already said today, undermines 
efforts to conserve and manage shared fish stocks and threatens 
the sustainability of all fisheries. Estimates of global losses 
due to IUU fishing ranged from $10 billion a year to $23 
billion a year.
    Moreover, the very vessels and foreign companies involved 
in illegal fishing activities are often involved in human 
trafficking, drug trafficking, labor exploitation, and 
environmental degradation. The U.S. ratification of the Port 
State Measures Agreement will give us additional tools to 
address these challenges.
    Since IUU fisheries can operate anywhere, detecting 
activities at sea is difficult and expensive, but all fish 
caught at sea must ultimately come to port in order to enter 
the stream of commerce. The Port State Measures Agreement 
establishes standards and requirements for port States to 
ensure that IUU caught fish will not be landed, transshipped, 
packaged or processed in their ports.
    Timely ratification would, again, underscore the commitment 
of the United States to strengthening efforts at the global and 
national levels to detect, deter, and eliminate IUU fishing.
    In closing, I would simply reiterate the importance of 
these agreements to advancing U.S. economic interests and 
fisheries management objectives at the international level. We 
look forward to working with committee staff as the legislation 
moves forward.
    And thank you very much, once again. I am happy to answer 
any questions that you may have.
    [The prepared statement of Ambassador Balton follows:]
  Prepared Statement of Ambassador David A. Balton, Deputy Assistant 
              Secretary of State for Oceans and Fisheries
    Mr. Chairman and members of the subcommittee, I am Ambassador David 
Balton, Deputy Assistant Secretary of State for Oceans and Fisheries. I 
am pleased to testify before you today on H.R. 69 and the draft bill 
titled the ``Pirate Fishing Elimination Act.''
    The agreements that would be implemented by these bills are the 
Antigua Convention and the Port States Measures Agreement. These 
international agreements advance our international goals and 
objectives, including broad foreign policy objectives, and promote 
responsible and sustainable use of our oceans resources. The agreements 
represent significant progress in protecting U.S. interests, advancing 
our international policies and priorities to conserve and manage shared 
living marine resources, to protect the broader marine environment from 
the effects of destructive fishing practices, and to prevent illegal 
fishing activities from undermining our global and regional efforts 
toward these ends. Both of these agreements have strong support from a 
broad range of stakeholders, including representatives of the U.S. 
fishing industry and the environmental and scientific communities, many 
of whom participated actively in the negotiations.
H.R. 69 and the Antigua Convention
    H.R. 69 contains implementing legislation for an agreement called 
the Antigua Convention, which updates and is to supersede the 1949 
Convention establishing the Inter-American Tropical Tuna Commission 
(IATTC). In 2003, with invaluable assistance from the National Marine 
Fisheries Service (NMFS) of the National Oceanic and Atmospheric 
Administration, the Department of State led the negotiation of the 
Antigua Convention and strongly supports the result of those 
negotiations. The United States signed the Convention on November 14, 
2003, and the Senate provided advice and consent to ratification on 
November 17, 2005.
    The negotiation and adoption of the Antigua Convention allowed the 
United States and the other participating countries to modernize the 
original Convention that established the IATTC in 1949 to reflect the 
evolution of the practices of the IATTC and the international community 
in managing highly migratory fish stocks, including moving from 
managing just target species to incorporating some of the broader 
effects of fishing on the marine ecosystem in management decisions.
    The Antigua Convention also incorporates important changes in 
international law governing the conservation and management of living 
marine resources that have taken place since 1949, and provides for 
membership in the IATTC of both the European Union and Taiwan. In 
particular, the Antigua Convention incorporates many of the elements of 
the 1995 United Nations Fish Stocks Agreement, including: coverage of 
virtually all highly migratory fish species in the Convention Area, a 
precautionary approach to conservation and management of the species 
covered, provisions for conservation measures for non-fish species 
affected by fishing operations for tunas, enhanced provisions for 
monitoring, surveillance and enforcement, and other measures. The 
United States is a party to the United Nations Fish Stocks Agreement--
we were the third country to ratify that Agreement, which now has 81 
parties.
    The Antigua Convention entered into force in 2010 and now has 21 
parties. The United States remains a Member of the IATTC by virtue of 
our being party to the 1949 Convention. Although the United States 
could implement much of the Antigua Convention under existing statutory 
authority, it is envisaged that certain changes in domestic law are 
needed before the United States can deposit its instrument of 
ratification. We look forward to working with committee staff on this 
issue.
``Pirate Fishing Elimination Act'' Draft Bill and the Port State 
        Measures Agreement
    The Pirate Fishing Elimination Act draft bill contains implementing 
legislation for the Agreement on Port State Measures to Prevent, Deter 
and Eliminate Illegal, Unreported and Unregulated Fishing (the Port 
State Measures Agreement). This is a global agreement, and is in fact 
the first binding global agreement specifically intended to combat 
illegal, unreported, and unregulated--or IUU--fishing. The United 
States signed the Port State Measures Agreement on November 22, 2009. 
The President transmitted the Agreement to the Senate for advice and 
consent November 14, 2011.
    IUU fishing undermines efforts to conserve and manage shared fish 
stocks and threatens the sustainability of all fisheries as well as 
other living marine resources taken as bycatch. Estimates of global 
losses due to IUU fishing range from $10 to $23 billion each year.\1\ 
The large number of developing States that depend on fisheries for food 
security and export income are particularly vulnerable. A secondary 
benefit to ratification of the Port State Measures Agreement and the 
other treaties under consideration is that it will give the United 
States additional tools to address illegal activities that are often 
intertwined with IUU fishing, including drug and human trafficking, 
labor exploitation, environmental degradation, and organized crime.
---------------------------------------------------------------------------
    \1\ Review of Impacts of Illegal, Unreported and Unregulated 
Fishing on Developing Countries (Marine Resources Assessment Group Ltd, 
London, United Kingdom, June 2005; http://transparentsea.co/images/5/
58/Illegal-fishing-mrag-report.pdf).
---------------------------------------------------------------------------
    Since IUU fishers can operate anywhere, detecting activities at sea 
is difficult and expensive. But, in order to sell or trade their 
illegal catch, they ultimately need to bring the fish to a port for 
landing or transshipment. The Port State Measures Agreement establishes 
standards and requirements for port States to ensure IUU-caught fish 
will not be landed, transshipped, packaged, or processed in their 
ports.
    Here again, the Department of State and NMFS took a leadership role 
in the development of this Agreement, hosting and chairing the initial 
informal meetings that led to the Agreement to engage in formal 
negotiations toward a legally binding instrument. Timely ratification 
would again underscore the commitment of the United States to 
strengthening efforts at the global and national levels to detect, 
deter and eliminate IUU fishing. We look forward to working with 
committee staff.
Conclusion
    In closing, I would simply reiterate the importance of these 
agreements to advancing U.S. economic interests and fisheries 
management objectives at the international level.
    Thank you very much. I am happy to answer any questions you may 
have.

                                 ______
                                 

    Questions Submitted for the Record by Chairman John Fleming to 
                       Ambassador David A. Balton
    Question. Mr. Kraft notes in his testimony that fishing vessels 
flagged in Korea, Taiwan, China, and Belize are the biggest culprits. 
If we already know this, what is being done to get these countries to 
address the problems that are apparently a problem within those 
countries?

    Answer. In addition to the certification process under the 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act (MSRA) that is managed by the Department of Commerce's National 
Oceanic and Atmospheric Administration (NOAA), the Department of State 
(State), in coordination with NOAA, conducts consultations with foreign 
affairs and fisheries representatives from countries and entities who 
are suspected of illegal, unreported, and unregulated (IUU) fishing. We 
do this primarily through fora such as Regional Fisheries Management 
Organizations (RFMOs) in which we participate, which have procedures 
for monitoring compliance and addressing issues as they are identified. 
That process can also include bilateral consultations with a specific 
member of the organization in question. For example, if we were 
concerned about a fellow member of the Western and Central Pacific 
Fisheries Commission (WCPFC), we would conduct bilateral consultations 
on the margins of WCPFC meetings to discuss how they can work to better 
comply with various WCPFC conservation and management measures, which 
are legally binding commitments and have been implemented with the 
intent of preventing and deterring IUU fishing. The United States also 
works within the various RFMOs to take action against both members and 
non-members whose vessels undermine these binding rules. Through U.S. 
leadership, RFMOs are working to put in place schemes that impose a 
range of multilateral actions against flag States that break the 
rules--including loss of fishing rights or trade restrictions.
    All of the RFMOs maintain lists of specific vessels found to have 
engaged in IUU fishing, and the United States and other RFMO members 
apply a range of sanctions against listed vessels, including keeping 
them from entering ports, accessing port services, or landing any of 
their catch and prohibiting imports of fish caught by these vessels. 
The heart of the Port State Measures Agreement is to take these 
measures and make them universal, so that all port States, not just the 
members of a particular RFMO, can take action against these IUU 
vessels.

    Question. For years, the committee has heard concern about the IUU 
harvest of Russian crab. This was a real-world example of the effect of 
IUU fishing on the United States. Why was Russia not identified as an 
IUU nation in the latest report to Congress?

    Answer. We defer to the Department of Commerce for a response to 
the question of why Russia is not listed in the most recent report to 
Congress as they are the agency responsible for preparing that report. 
We note, however, that we have repeatedly raised the issue of illegal 
crab harvests with Russia in our bilateral engagements for many years. 
Within the U.S.-Russia Intergovernmental Consultative Committee (ICC), 
the bilateral forum for cooperation on fisheries issues, we have been 
working to develop an agreement with Russia to address this and other 
issues related to IUU fishing. Efforts to advance and conclude this 
agreement have recently been complicated by events in Ukraine.

    Question. Mr. Kraft's testimony notes that the Port States Measures 
Agreement is modeled after the U.S. domestic IUU fishing laws. If the 
Agreement is modeled after existing U.S. law, why is this legislation 
necessary? What specific provisions of the Agreement are not currently 
covered by existing law? What specific provisions in the draft 
legislation would add additional authorities or requirements that are 
not already in U.S. law?

    Answer. We understand that the Department of Commerce has also 
received these questions. We defer to Commerce for an appropriate 
response to these questions.

    Question. The Nicholson Act allows foreign fishing vessels to land 
fish in limited ports in the territories. How will the legislation 
affect fisheries trade at these ports? Is there concern that IUU 
vessels are using these ports to introduce IUU fish into the U.S. 
seafood market?

    Answer. We understand that the Department of Commerce has also 
received these questions. We defer to Commerce for an appropriate 
response to these questions.

    Question. Mr. Walsh notes that the Nicholson Act prohibits foreign-
flag vessels from landing fish in almost all U.S. ports, but that there 
is an exemption for fish caught under a treaty which could allow such 
landings by foreign-flag vessels. Can you tell us how many of these 
treaties exist and what fisheries and regions these treaties affect? 
Can you tell us the extent of foreign-flag vessels that these treaties 
would allow to access U.S. ports? Do these treaties limit the vessels 
that have access to U.S. ports and do we know exactly which vessels are 
authorized to access U.S. ports under the treaty?

    Answer. The Treaty Between the Government of the United States of 
America and the Government of Canada on Pacific Coast Albacore Tuna 
Vessels and Port Privileges (``Treaty'') is the subject of the 
exemption included in the Nicholson Act for foreign-flagged vessels to 
land fish in U.S. ports. This treaty relates to the albacore troll 
fishery off the west coasts of California, Oregon, and Washington in 
the United States and British Columbia in Canada. Annex B of the Treaty 
elaborates specific ports in the United States and Canada in which 
foreign vessels are allowed to land fish taken in the albacore troll 
fishery. Pursuant to the 2013 fishing regime under the Treaty, no more 
than 45 Canadian albacore troll vessels were allowed to land fish in 
the specified ports. The 2014-2016 regime will remain at those levels.

    Question. Under the Port States Measures Agreement, is there a 
dispute mechanism for a country or a vessel to dispute being labeled as 
an IUU vessel or country? A recent article noted that Korean fishermen 
were accusing the European Union of using a double standard when 
identifying vessels and countries on its IUU list. How can this type of 
dispute be resolved under the Agreement?

    Answer. Unlike the High Seas Driftnet Fishing Moratorium Protection 
Act, neither the Port State Measures Agreement nor Representative 
DeFazio's draft bill entitled ``Pirate Fishing Elimination Act'' 
provide for the identification of a nation as engaged in IUU fishing. 
They do call for restrictions, with certain exceptions, on port entry 
and access to port services for foreign vessels that have engaged in 
IUU fishing, particularly vessels included on the IUU fishing vessel 
list of an RFMO. Where the laws of the port State provide for potential 
recourse to the owner, operator, master, or representative of a vessel 
that has been the subject of a denial of port entry, denial of use of a 
port, an inspection, or port State actions following an inspection, and 
information about such recourse is public and requested in writing to 
the port State, the Agreement requires the port State to provide such 
information. In addition, Parties to the Agreement are bound by the 
rather common dispute settlement provisions in Part 7 of the Agreement. 
Finally, each of the RFMOs that have established an IUU fishing vessel 
list has a process to introduce evidence of IUU fishing activity, and 
for countering that information, before a vessel is placed on an IUU 
fishing vessel list. Likewise, each of these RFMOs also has a process 
for removing vessels from the list.

    Question. The draft Port States Measures implementing legislation 
would allow enforcement agents to conduct search and seizures with or 
without warrants. Why is this necessary?

    Answer. We understand that the Department of Commerce has also 
received this question. We defer to Commerce for an appropriate 
response to this question.

    Question. The bill would also allow the Secretary of Commerce to 
use personnel from almost any Federal or State agency (as long as there 
is an agreement in place) to enforce this Act. It also gives these new 
enforcement officers the ability to conduct search and seizures and 
enforce any law of the United States. This seems to be a huge expansion 
of enforcement authorities. Why is this necessary?

    Answer. We understand that the Department of Commerce has also 
received this question. We defer Commerce for an appropriate response 
to this question.

    Question. Mr. Walsh's testimony raises a concern that under the 
legislation being considered today, even a minor violation of the 
Magnuson-Stevens Act could result in that vessel being labeled as an 
IUU vessel by another country. Is this an accurate reading of the 
legislation? If so, that may be overly inclusive. What can we do to fix 
this legislation so that only egregious violations of the Magnuson-
Stevens Act are considered to be serious enough for the vessel to be 
considered an IUU vessel?

    Answer. We understand that the Department of Commerce has also 
received these questions. We defer to Commerce for an appropriate 
response to this question.

    Question. Mr. Walsh also notes in his testimony that foreign 
countries could use the threat of an IUU label as a means of extracting 
fines from U.S. vessels. Is there something the vessel owner could do 
or the U.S. Government could do to dispute an unjustified IUU label for 
a U.S. vessel?

    Answer. The Port State Measures Agreement does not provide for the 
establishment of an IUU fishing vessel list. If officials of a port 
State Party to the Agreement threatened to falsify the results of an 
inspection report as a means of extracting money from U.S. vessels, the 
vessels' owners might be able to seek recourse under the laws of the 
port State. In addition, Parties to the Agreement are bound by the 
dispute settlement provisions in Part 7 of the Agreement which would 
allow the U.S. Government to seek redress.

    Question. Current law appears to identify nations rather than 
vessels which are involved in IUU fishing practices. Yet the High Seas 
Driftnet Fishing Moratorium Protection Act allows for the denial of 
port privileges to vessels. Is this a disconnect that needs to be 
addressed?

    Answer. We understand that the Department of Commerce has also 
received this question. We defer Commerce for an appropriate response 
to this question.

    Question. The High Seas Driftnet Fishing Moratorium Protection Act 
already includes authority for the Secretary of the Treasury to deny 
entry ``to any place in the United States and to the navigable waters 
of the United States'' to any vessel conducting large-scale driftnet 
fishing or illegal, unreported, or unregulated fishing beyond the 
exclusive economic zone of any nation. Why is additional legislation 
necessary?

    Answer. We understand that the Department of Commerce has also 
received this question. We defer to Commerce for an appropriate 
response to this question.

    Question. Mr. Lagon notes in his testimony that labor practices and 
human trafficking are a problem for some foreign fishing fleets. Under 
the legislation being considered today and under existing statutory 
authorities, could labor practices be a criteria for labeling a vessel 
as an IUU vessel? If so, how could a U.S. importer possibly know 
whether fish he was buying from a foreign processor had been purchased 
from a vessel that had unfair labor practices?

    Answer. IUU fishing is by definition a clandestine activity. As 
such, IUU fishing vessels often engage in other criminal activity, 
including labor abuses, human trafficking and trafficking of wildlife 
or drugs. But these other activities are not themselves IUU fishing, 
either according to the internationally agreed terms contained within 
the Port State Measures Agreement or existing domestic statutes. 
Nonetheless, the Port State Measures Agreement can be an effective tool 
to combat labor abuses and trafficking--as well as IUU fishing--through 
the increased scrutiny it will put on foreign fishing vessels seeking 
access to port. A key part of the Agreement establishes minimum 
standards for nations to inspect a certain proportion of foreign 
fishing vessels in their ports and sets out how those inspections are 
to be conducted. Any information these inspections turn up about other 
criminal activity will be invaluable for port States to be able to act 
against it.

    Question. Mr. Lagon notes in his testimony that there is a problem 
with Mexican fishing vessels fishing in U.S. waters. This is illegal 
under current law so what is being done by NOAA and the State 
Department to address this issue? What additional remedies would these 
bills give enforcement agents that do not currently exist?

    Answer. The problem of Mexican vessels fishing in U.S. waters is 
primarily limited to small, open-hulled speedboats (``lanchas'') that 
cross into the U.S. waters from Mexico in the Gulf of Mexico. This is a 
longstanding issue that State, NOAA and the U.S. Coast Guard raise with 
our Mexican counterparts on a regular basis. NOAA is the lead 
enforcement agency for the enforcement of the Magnuson-Stevens 
Fisheries Conservation and Management Act, which these lancha 
incursions violate. The Coast Guard performs the majority of at-sea 
enforcement activities in coordination with NOAA and has numerous 
interactions with such vessels each year. Whenever lanchas are 
successfully interdicted in U.S. waters the vessel, catch and gear are 
seized and escorted to Coast Guard Station Corpus Christi; some are 
able to avoid interdiction and run back into Mexican waters. Our 
cooperation with Mexican authorities is good and we continue to work 
with them to seek a long-term solution to this problem. As noted, this 
activity is already illegal and we don't expect that the bills 
currently under consideration would affect this particular aspect of 
our enforcement efforts.

                                 ______
                                 

    Dr. Fleming. Thank you, Ambassador Balton.
    And now the Chair recognizes Mr. Smith for 5 minutes.

  STATEMENT OF RUSSELL SMITH, DEPUTY ASSISTANT SECRETARY FOR 
   INTERNATIONAL FISHERIES, NATIONAL OCEANIC AND ATMOSPHERIC 
             ADMINISTRATION, DEPARTMENT OF COMMERCE

    Mr. Smith. Thank you, Mr. Chairman.
    Good afternoon, Mr. Chairman, Ranking Member Sablan, and 
members of the committee, other Members of Congress. Thank you 
for the opportunity to testify before you today.
    My name is Russell Smith. I am the Deputy Assistant 
Secretary for International Fisheries at NOAA.
    Marine fish and fisheries are vital to the prosperity and 
cultural identity of coastal communities in the United States. 
They play an enormous role in the U.S. economy. To ensure the 
long-term benefits of fishery resources, NOAA relies on clear 
science-based rules, fair enforcement, and shared commitment to 
sustainable management.
    The application of these standards into federally managed 
fisheries has resulted in significant progress in ending 
overfishing and rebuilding our Nation's fisheries.
    As a global leader in sustainably managed fisheries, the 
United States continues to translate our domestic fisheries 
management practices into international norms. Working in 
collaboration with the Department of State, the U.S. Coast 
Guard and other parts of the U.S. Government, NOAA works to 
ensure that global fish stocks, including those that United 
States shares with others, are also sustainably managed.
    One of the great challenges of these efforts is illegal, 
unreported or unregulated fishing. IUU fishing is a global 
problem that threatens the ocean ecosystems and impacts 
fisheries, food security, and coastal communities around the 
world.
    Experts estimate that global value of economic losses from 
IUU fishing ranges between $10 and $23 billion. By 
circumventing conservation and management measures, IUU fishing 
undercuts the sustainability of international and U.S. 
fisheries and delivers illegally caught product to global 
markets that then unfairly compete with legally harvested fish.
    It is imperative that the United States takes steps to 
eliminate the economic incentives for engaging in IUU fishing 
by closing our market to these products. Although the 
Administration has not yet taken a position on H.R. 69, the IUU 
Fishing Enforcement Act, it looks forward to working with 
Congress to find ways to achieve the objectives of the Act, 
including by strengthening international conservation and 
management of fish stocks and combating IUU fishing.
    Title I of the bill would harmonize enforcement provisions 
among various statutes that implement regional fisheries 
conservation and management and other international fisheries 
agreements to which the United States is a party. This could 
provide a more consistent enforcement response to violations of 
any of the applicable statutes and ensure that the penalties 
that may be assessed are large enough to deter violations and 
are not merely a cost of doing business.
    H.R. 69 would also provide new enforcement tools designed 
to enhance the agency's ability to detect imports of fish and 
fish products that were harvested or imported illegally and 
would strengthen the ability of the United States to address 
fishing activities and concerns by vessels flagged to foreign 
nations.
    H.R. 69's provisions also enhance our international 
cooperation and assistance activities and enhance our ability 
to share data to combat IUU fishing and improve fisheries 
management under circumstances that protect against unintended 
or unauthorized disclosure.
    Finally H.R. 69 provides the authorities needed to 
implement the Antigua Convention, which will improve management 
of tuna and tuna-like species in the Eastern Pacific Ocean. We 
support the efforts of this committee to adopt legislation 
providing additional authorities to support the U.S. leadership 
in efforts to sustainably manage fisheries and prevent, deter, 
and eliminate IUU fishing.
    The Administration also has no position on the Pirate 
Fishing Elimination Act at this point, which would allow the 
United States to implement the provisions of the Port State 
Measures Agreement. This agreement is the first binding global 
instrument specifically focused on combating IUU fishing. It 
recognizes that all fish must pass through a port to get to the 
market, and that port States can take cost effective measures 
to combat IUU.
    We have had experience with the implementation of most of 
the substantive measures in the agreement, as most are already 
authorized under U.S. law, albeit in a more limited context. 
Ratification and implementation of the Port States Agreement by 
the United States will demonstrate strong leadership in the 
global battle against IUU fishing and position our Nation to 
encourage ratification and implementation by other countries.
    While the Administration has also not taken a position on 
H.R. 2646, my understanding is that if enacted, this 
legislation would direct the Secretary of Commerce to issue a 
fishing capacity reduction loan to refinance the existing loan 
funding the Pacific Coast Groundfish Fishing Capacity Reduction 
Program.
    In 2003, Congress authorized a $46 million buyback program 
which permanently removed 91 vessels and 239 permits for 450.7 
million from the groundfish trawl fishery and associated 
ancillary fisheries of Dungeness crab and pink shrimp off the 
California, Oregon and Washington coasts.
    We understand that the buyback payments and other mandatory 
payments are a substantial portion of the industry's 
operational costs, perhaps making it difficult for the fishery 
to continue to operate. As such, NOAA is supportive of the 
purpose of this bill, ``to conserve the West Coast groundfish 
fishery and the coastal economies in California, Oregon and 
Washington that rely on it.''
    NOAA would be glad to work with the committee and industry 
to ensure the buyback program is as efficient as possible.
    [The prepared statement of Mr. Smith follows:]
Prepared Statement of Russell F. Smith III, Deputy Assistant Secretary 
     for International Fisheries, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce
Introduction
    Good morning Mr. Chairman and members of the committee. I am 
Russell Smith, Deputy Assistant Secretary for International Fisheries 
at the National Oceanic and Atmospheric Administration (NOAA), within 
the Department of Commerce. Thank you very much for the opportunity to 
come before you today to discuss several pieces of legislation pending 
before the committee.
    Before I address the bills being considered by the committee, I 
wish to provide some context about the importance of marine fish and 
fisheries to the U.S. economy and culture. Marine fish and fisheries, 
such as salmon in the Pacific Northwest and cod in New England, have 
been vital to the prosperity and cultural identity of coastal 
communities in the United States. U.S. fisheries play an enormous role 
in the U.S. economy. Commercial fishing supports fishers and fishing 
communities, and provides Americans with a sustainable, healthy food 
source. The seafood industry in the United States--harvesters, seafood 
processors and dealers, seafood wholesalers and seafood retailers, 
taking into account imports and multiplier effects--generated $129 
billion in sales impacts and $37 billion in income impacts, and 
supported 1.2 million jobs in 2011.\1\ Recreational fishing also makes 
significant contributions to employment and the economy in the United 
States. Recreational fishing generated an estimated $56 billion in 
sales impacts, $18 billion in income impacts, and supported 364,000 
jobs in 2011.\2\ Subsistence fishing provides an essential food source 
and is culturally significant for indigenous peoples.
---------------------------------------------------------------------------
    \1\ See Fisheries Economics of the U.S. 2011. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2011.
    \2\ Sabrina J. Lovell, Scott Steinback, and James Hilger. 2013. The 
Economic Contribution of Marine Angler Expenditures in the United 
States, 2011. U.S. Dept. Commerce, NOAA Tech. Memo. NMFS-F/SPO-134, 188 
p.
---------------------------------------------------------------------------
    To ensure the long-term availability of these resources for the 
American people, NOAA relies on clear, science-based rules, fair, 
effective and consistent enforcement, and a shared commitment to 
sustainable management. Much of this work occurs under the Magnuson-
Stevens Fishery Conservation and Management Act (Magnuson-Stevens Act), 
which sets forth standards for the conservation, management and 
sustainable use of our Nation's fisheries resources. The application of 
these standards has resulted in a Federal fishery management system 
that has made very significant progress in ending overfishing and 
rebuilding our Nation's fisheries.
    The United States is now the world's largest importer of 
seafood.\3\ In 2011, seafood imports contributed 176,000 jobs, $48.4 
billion in sales impacts, and $14.8 billion in value added impacts.\4\ 
As such, the United States is in a unique position to support 
sustainable fisheries around the world while providing a level playing 
field for our domestic fishermen. To achieve this, it is imperative 
that the United States take steps to eliminate the economic incentives 
for engaging in illegal, unreported, or unregulated (IUU) fishing by 
closing our market to products from those IUU fisheries. Working in 
collaboration with the Department of State and the U.S. Coast Guard, 
NOAA engages in international fisheries fora, such as Regional 
Fisheries Management Organizations (RFMOs), to ensure that shared fish 
stocks are sustainably managed, including by ensuring that management 
is based on the best available science. As the United States is a 
leader in sustainably managing fisheries, we regularly draw from our 
domestic experience and convince RFMOs to apply, in the waters under 
their jurisdiction, management measures comparable to those applied in 
U.S. waters.
---------------------------------------------------------------------------
    \3\ See February 2014 U.N. Food and Agriculture Organization FACT 
SHEET: International fish trade and world fisheries at ftp://ext-
ftp.fao.org/FI/Data/cofi_ft/COFI_FT_Factsheet.pdf.
    \4\ 4 See Fisheries Economics of the U.S. 2011, at 7.
---------------------------------------------------------------------------
    One of the greatest challenges to our international efforts to 
ensure the sustainable management of global fisheries is combating IUU 
fishing. IUU fishing is a global problem that threatens ocean 
ecosystems and impacts fisheries, food security, and coastal 
communities around the world. Experts estimate global economic losses 
from IUU fishing range between $10 and $23.5 billion.\5\ By 
circumventing conservation and management measures, companies and 
individuals engaging in IUU fishing cut corners and lower their 
operating costs, impacting not just target species, but also species 
taken as bycatch, as well as marine habitat. As a result, their 
illegally caught products provide unfair competition for law-abiding 
fishermen and seafood industries in the marketplace, and can undercut 
the sustainability of international and U.S. fisheries.\6\
---------------------------------------------------------------------------
    \5\ Agnew D.J., J. Pearce, G. Pramod, T. Peatman, R. Watson, et al. 
(2009). Estimating the worldwide extent of illegal fishing. PLoS ONE, 
4(2): e4570.
    \6\ United Nations Office of Drugs and Crime. Issue Paper--
Transnational Organized Crime in the Fishing Industry, http://
www.unodc.org/documents/human-trafficking/Issue_Paper_-
_TOC_in_the_Fishing_Industry.pdf. 2011.
---------------------------------------------------------------------------
H.R. 69--Illegal, Unreported, and Unregulated Fishing Enforcement Act 
        of 2013
    The Administration has not taken a position on H.R. 69, the 
Illegal, Unreported, and Unregulated Fishing Enforcement Act of 2013. 
However, NOAA has and will continue to strive to achieve the objectives 
of the Act, namely strengthening the international conservation and 
management of fish stocks and combating IUU fishing.
    Title I of the bill's provisions would harmonize the enforcement 
provisions amongst the statutes that implement regional fisheries 
conservation and management and other international fisheries 
agreements to which the United States is a party. In some cases, the 
enforcement provisions of these laws have not been updated in several 
decades. It would incorporate the enforcement provisions of the 
Magnuson-Stevens Act by reference, providing more consistent 
enforcement across all of the statutes to which it applies and increase 
penalties that can be applied proportionally to effectively deter 
illegal conduct and reflect the damage to the ecosystem from IUU 
activities. Differences among the various statutes implementing our 
international fisheries agreements create inconsistencies in how IUU 
fishing situations can be investigated and prosecuted depending upon 
which international agreement is involved. NOAA also supports enactment 
of stronger enforcement provisions to provide a fuller complement of 
administrative, civil judicial, and criminal enforcement remedies that 
could be used as appropriate to address IUU violations. Having the 
ability to seek civil judicial or criminal sanctions, in addition to 
administrative sanctions, would enable the United States to respond 
more appropriately to violations of differing levels of severity and 
would strengthen our enforcement efforts in the international arena.
    In addition, the bill authorizes new enforcement tools related to 
detecting imports of fish and fish products that were harvested or 
imported illegally. Similarly, it also increases information sharing 
and coordination among the agencies involved in international fisheries 
enforcement. The bill would also authorize new enforcement and 
rulemaking authorities.
    Current law only authorizes the identification of a nation for IUU 
fishing if two or more of its fishing vessels have engaged in IUU 
fishing within the specified time period. H.R. 69 would expand the 
timeframe that NOAA can consider in our identification process to 3 
years. Expanding the time period to 3 years would also enhance the 
agency's ability to identify countries for bycatch of finfish and 
protected species.
    H.R. 69 also provides the authorities to implement legislation for 
the Convention for the Strengthening of the Inter-American Tropical 
Tuna Commission (Antigua Convention). The Antigua Convention is an 
international agreement that provides updates to the mandate and 
functions of the Inter-American Tropical Tuna Commission (IATTC), which 
manages tunas and other highly migratory species in the eastern Pacific 
Ocean. The convention which created the IATTC, and which is being 
updated by the Antigua Convention, was adopted in 1949. As a result of 
strong U.S. leadership, the Antigua Convention contains modern 
principles and reflects the duties and responsibilities of nations to 
cooperate toward ensuring the sustainable management of shared 
fisheries resources and to conserve marine ecosystems on which 
sustainable fisheries depend.
    H.R. 69's provisions also authorizes the sharing of fisheries data 
to combat IUU fishing and improve fisheries management. NOAA is 
concerned with the sustainability of foreign fisheries that supply our 
market and support jobs within the U.S. market. Since many fish stocks 
move within and beyond national jurisdictions, and since such a large 
proportion of all seafood is traded internationally (nearly 40 percent, 
per FAO), NOAA must work in cooperation with our international partners 
to help ensure that these fisheries are sustainable. Our international 
cooperation and assistance activities have multiple benefits. We work 
on building relationships with our international partners to support 
strong management and enforcement regimes that ultimately support our 
U.S. seafood interests and more generally bolster our own economic 
well-being.
    I would like to share a case I find particularly interesting to 
help showcase the work we do to combat IUU fishing. In 2011, a number 
of individuals and companies in the Gulf of Mexico region were 
sentenced for engaging in a large scale seafood smuggling enterprise. 
In this scheme, the defendants conspired to illegally import and sell 
fraudulently labeled Vietnamese catfish as grouper or other more 
valuable species. They did this to avoid Federal import tariffs 
associated with Vietnamese catfish, which would have been approximately 
$9.3 million in this case, and because the market price of grouper is 
much higher, generally more than double, that of Vietnamese catfish. 
The defendants illegally imported more than 10 million pounds, or $15.5 
million worth of frozen fish fillets. These illegal activities, and 
those like it, displace legitimate, legally produced domestic fish 
product and create an uneven playing field in the U.S. market. Our 
criminal prosecution of the defendants supported the interests of our 
domestic fishermen and highlights the importance of having access to 
the enforcement tools necessary to combat IUU fishing.
    I applaud the efforts of this committee in highlighting the problem 
of IUU fishing. We look forward to working with the committee to 
address IUU fishing.
Port States Agreement
    The Administration has not taken a position on the Pirate Fishing 
Elimination Act, which authorizes implementation of the Agreement on 
Port State Measures to Prevent, Deter, and Eliminate Illegal, 
Unreported and Unregulated Fishing (Port State Measures Agreement). The 
Port State Measures Agreement is the first binding global instrument 
focused specifically on combating IUU fishing. It recognizes that all 
fish must pass through a port to get to market and that port States can 
take cost-effective measures to combat IUU fishing. IUU fishing 
deprives law-abiding fishermen and coastal communities around the world 
of up to an estimated $23.5 billion of seafood and seafood products 
every year,\7\ and undermines efforts to monitor and sustainably manage 
fisheries. It also threatens the food security of some of the poorest 
countries in the world as well as in the United States and interferes 
with the livelihood of legitimate fishers around the world. Seafood 
caught through IUU fishing enters the global marketplace through ports 
all around the world. Preventing that fish from entering the stream of 
commerce requires an international solution and the cooperation of 
countries throughout the world.
---------------------------------------------------------------------------
    \7\ Agnew D.J., J. Pearce, G. Pramod, T. Peatman, R. Watson, et al. 
(2009). Estimating the worldwide extent of illegal fishing. PLoS ONE, 
4(2): e4570.
---------------------------------------------------------------------------
    The Port States Agreement is recognized within the international 
community as a landmark in the effort to combat IUU fishing. The United 
States was a primary participant in its negotiation and was one of the 
first countries to sign it. We took a leadership role because we 
recognized how important taking these measures are for nations that 
want to ensure that product entering their ports has been legally 
harvested and is safe for consumers. We have had experience with the 
implementation of most of the substantive measures in the agreement as 
most are already authorized under U.S. law, albeit in a more limited 
context.
    The Agreement has already had significant impact on efforts to 
combat IUU fishing, influencing the adoption of similar measures by 
various RFMOs and providing a model for nations, developing nations in 
particular, to follow in establishing or strengthening dockside 
inspection programs. However, the full effect of the Port States 
Agreement as a tool to combat IUU fishing will not be realized until 
its entry into force, which requires ratification by 25 nations or 
regional economic integration organizations. So far, 10 have done so. 
Ratification, and implementation, of the Port States Agreement by the 
United States will demonstrate strong leadership in the global battle 
against IUU fishing and will position the United States to encourage 
ratification and implementation by other countries.
    The Agreement sets forth minimum standards for the conduct of 
dockside inspections and training of inspectors and, most 
significantly, requires parties to restrict port entry and port 
services for foreign vessels known or suspected of having been involved 
in IUU fishing, particularly those on an RFMO IUU fishing vessel list. 
These minimum standards would increase the risks and costs associated 
with IUU fishing activities and help to ensure that IUU fish and fish 
products do not enter into global trade. Implementation of the Port 
States Agreement will ultimately benefit U.S. fishermen, seafood 
buyers, and consumers by preventing IUU vessels from entering our ports 
and diluting the market with illegal product.
    The Port States Agreement has four primary sets of obligations that 
Parties are required to apply vis-a-vis foreign flagged fishing vessels 
(including support vessels) seeking entry to a Party's port and these 
are reflected in the legislation that was transmitted to Congress:

    <bullet> Parties are required to designate ports to which foreign 
            flagged vessels may seek entry, to require that certain 
            information be collected and considered, and to establish a 
            process for granting or denying port entry and/or the use 
            of port services to foreign flagged fishing vessels;
    <bullet> Parties must maintain the capacity to conduct dockside 
            vessel inspections in the designated ports and adhere to 
            minimum standards for the conduct of inspections and the 
            training of inspectors. A sufficient number of inspections 
            must be conducted to satisfy the objective of the 
            Agreement;
    <bullet> Subject to certain limited exceptions, Parties must deny 
            port entry and the use of port services to vessels that 
            have been engaged in IUU fishing, including as indicated by 
            inclusion of the vessel on an RFMO IUU Vessel list. 
            Importantly, the limited exceptions include allowing port 
            entry exclusively for enforcement purposes or in the event 
            of force majeure; and,
    <bullet> Parties are required to share information, including 
            inspection results, with the flag States and, as 
            appropriate, other relevant Parties and entities, as well 
            as to take follow-up actions as requested by the flag State 
            when evidence of IUU fishing is found during the course of 
            an inspection.

    NOAA would be the lead agency for U.S. implementation of the Port 
States Agreement. Primary responsibility to carry out its obligations, 
particularly those related to vessel inspections, will fall on NOAA's 
National Marine Fisheries Service (NMFS), Office of Law Enforcement, in 
collaboration with the U.S. Coast Guard, which has Captain of the Port 
authority for the United States. Importantly, the minimum standards set 
by the Port States Agreement track closely to what the United States 
already does. Under the Port States Agreement, these best practices 
would become common practice around the world, thereby effectively 
closing the so-called ports of convenience that IUU fishing operators 
use to land their fish and support their activities. As a global leader 
in sustainable fishing practices, and the third largest importer of 
seafood in the world, the United States has a responsibility to ensure 
the fish we import is caught legally. The United States also has a 
responsibility to protect our domestic fishermen from unfair 
competition and ensure consumer confidence in the seafood supply by 
keeping illegal product out of the market. The Port State Measures 
Agreement marks a significant step forward on both of these counts.
    The United States, with our strong legal frameworks, experience in 
effective port management and robust fisheries law enforcement, has 
been assisting developing nations in their preparations for 
implementation of the Agreement. NOAA has most recently assisted 
Indonesia in its development of training curriculum for fisheries 
inspectors who will carry out inspections under the Agreement. 
Additionally, the United States has strongly promoted the adoption of 
measures in RFMOs that strengthen port related measures, in accordance 
with the Agreement. These efforts promote the success of the Agreement 
and thereby reduce the amount of IUU product entering our domestic 
markets.
H.R. 2646, Revitalizing the Economy of Fisheries in the Pacific Act
    The Administration also has not taken a position on H.R. 2646. If 
enacted, I understand that this legislation would direct the Secretary 
of Commerce to issue a fishing capacity reduction loan to refinance the 
existing loan funding the Pacific Coast groundfish fishing capacity 
reduction program. The Administration is still reviewing the bill for 
policy impacts and consistency with Federal credit reform requirements.
    In January of 2011, the West Coast groundfish fishery transitioned 
from a derby fishery, with fleet-wide quotas and trip limits, to a 
catch share program with individual quotas that promote individual 
flexibility and accountability. This catch share program has been 
largely successful from a conservation perspective, with fishermen 
staying within annual catch limits and reducing bycatch of overfished 
species. Results from 2012 indicate a substantial reduction in the 
amount of bycatch and catch of unwanted species; it remains lower than 
the two prior years structured under trip-limit management. At the same 
time, results show that the groundfish fleet was able to catch a 
greater percentage--29 percent--of their non-whiting target species, 
which is up from 24 percent in 2011. This result highlights the 
increased diversity of the landings and the fishermen's ability to 
target new areas and markets. NMFS is pleased with the conservation 
results seen in this fishery, and we are also sensitive to the concerns 
of fishermen about the impacts of the new program with regard to their 
costs to participate.
    NMFS is supportive of the underlying rationale contained in the 
purpose of the bill, which is to ``conserve the West Coast groundfish 
fishery and the coastal economies in California, Oregon, and Washington 
that rely on it.'' NMFS would be glad to work with the committee on 
ways to best achieve this.
Conclusion
    We look forward to working cooperatively with the subcommittee on 
how best to address the issues and achieve the goals that are being 
discussed here today. I will be happy to answer any questions.

                                 ______
                                 

    Dr. Fleming. I am sorry, Mr. Smith, but we have gone over 
time, and your entire statement will be submitted for the 
record, and so we thank you.
    And we certainly are anxious to ask questions and really 
get to the bottom of all of this and talk about three very 
interesting bills.
    At this point we will begin questioning of witnesses, and 
members are, of course, limited to 5 minutes for their 
questions as well. We may have another round, and certainly we 
have a whole other panel we are going to go to as well, and we 
are still waiting to see what the Floor action is about and 
when we will be voting.
    I now recognize myself for 5 minutes.
    This is to either or both gentlemen, whoever feels best 
qualified to answer the questions.
    Several of today's witnesses used the statistic that IUU 
fishing accounts for between $10 and $23 billion per year. 
Presumably IUU vessels are targeting high value fish species. 
How is it that we cannot identify the specific vessels that are 
targeting these fisheries and/or countries where the fish are 
entering the market?
    Ambassador Balton. Thank you, Mr. Chairman.
    I can start. In fact, IUU fishing at some level probably 
exists in virtually every fishery around the world. No fishery 
has 100 percent compliance rate, but I think what you are 
getting at is where are the biggest problems, and the truth is 
that we do have a better sense of where the real problems are 
now.
    At the international level, a series of regional fishery 
management organizations have been in the process of 
identifying vessels engaged in IUU fishing, and indeed, a 
feature of our lives these days are lists of IUU vessels, 
vessels that have committed IUU fishing or fishing-related 
activities.
    And, indeed, the Port State Measures Agreement requires 
port States to take action against such vessels primarily by 
refusing to allow them to land, transship, package or process 
their fish in their ports.
    Mr. Smith. So if I might add to Ambassador Balton's 
comments, one of the things that we should keep in mind is the 
United States imports over 90 percent of its seafood. So much 
of the fish that is coming into our markets is landed in other 
ports where there are not some of the same safeguards against 
the landing of IUU fish that we have in our markets.
    So it is difficult for us to always ensure that what is 
coming into our markets has not been caught illegally. We do 
have some indications. We do take a number of steps, including 
based on where we purchase our fish, our work within the RFMOs 
to encourage compliance.
    Dr. Fleming. But again, back to my base question, why do we 
not have better information as to the source, the origin of 
these ships, the countries and so forth?
    Is it just very difficult and we do not have the technology 
to determine this?
    Mr. Smith. So it is difficult because we have the vast 
oceans, and we only have limited control over these vessels. As 
Mr. Balton pointed out, we do have----
    Dr. Fleming. Well, let me give you a specific example. For 
years the committee has heard concern about the IUU harvest of 
Russian crab. This was a real world example of the effect of 
IUU fishing on the United States.
    Why was Russia not identified as an IUU nation in the 
latest report to Congress?
    Mr. Smith. Because based upon the criteria set out in the 
High Seas Driftnet Fisheries Enforcement Act, we were not able 
to identify Russia. We are trying to find other ways and we 
were trying to find other ways to work with Russia to address 
this issue, and we have, in fact, done some collaboration to 
stop shipments that are coming from Russia to the United States 
of IUU crab.
    But with respect to identifying them under the High Seas 
Driftnet Fisheries Enforcement Act, they did not meet the 
criteria.
    Dr. Fleming. OK. The Nicholson Act allows foreign fishing 
vessels to land fish in limited ports in the U.S. territories. 
How would the legislation affect fisheries trade at these 
ports?
    Ambassador Balton. The legislation, if passed, would 
broaden the authorities to ensure that we have controls in 
place with respect to all U.S. ports where foreign vessels are 
allowed to land fish.
    You were right that the Nicholson Act generally prohibits 
foreign fishing vessels and some foreign transport vessels from 
landing fish in most U.S. ports, but there are some exceptions. 
There also are other categories of vessels that could be 
carrying fish or are otherwise involved in IUU fishing problems 
that are not expressly covered in U.S. law. The draft bill 
under consideration before the subcommittee would close these 
loopholes.
    Dr. Fleming. OK. All right. Thank you.
    My time is just about out. I will yield to the Ranking 
Member, Mr. Sablan, for 5 minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    Mr. Smith, my apologies, sir, for not getting your name 
right the first time and for not pronouncing NOAA correctly.
    [Laughter.]
    Mr. Sablan. But welcome.
    Mr. Ambassador, in the Northern Marianas I hear from my 
fishermen all the time that fish are getting smaller and 
smaller in order to catch. A lot of this is because of IUU 
fishing.
    How would the legislations before us today help my 
fishermen ensure that their catch is not being stolen by 
foreign fleets?
    Ambassador Balton. Generally speaking, U.S. vessels must 
meet higher standards in engaging in fisheries than some of 
their foreign competitors. The effect of the Port State 
Measures Agreement and the legislation that would implement it 
would have the effect of leveling the playing field and giving 
legitimate U.S. fishers, including in the Northern Mariana 
Islands, the same terms and conditions as their foreign 
competitors.
    So that is the basic idea in fighting IUU fishing. In 
particular, the Port State Measures Agreement seeks to 
undermine the efforts of IUU fishers by denying them entry in 
port into the stream of commerce for their fish.
    Mr. Sablan. I will take that response for now.
    But, again, Ambassador, would you please discuss the 
importance of the United States taking a leadership role in the 
port State measures to encourage other countries, many of which 
import fish to the United States--90 percent of our fish are 
imported--so to help cutoff markets for illegally harvested 
fish?
    Ambassador Balton. Thank you, sir.
    In fact, the United States did take a leadership role in 
the negotiation of the agreement. I actually led the very first 
meeting to produce the first draft of this agreement, and I was 
the vice chair of the negotiations that yielded it. We were 
among the first nations to sign it as well.
    But until we ratify the agreement, we cannot maximize the 
leverage we have with respect to other governments to ensure 
that they live up to the commitments of it. That is why it is 
so vital for us to join the agreement now.
    Mr. Sablan. Thank you, Ambassador.
    Mr. Smith, in the Pacific, bluefin tuna are highly prized 
and subject to heavy fishing pressure, both legal and illegal. 
With stocks at less than 4 percent of their historic levels, it 
is a real possibility that this species could become extinct at 
least in a commercial sense within our lifetime.
    So how would H.R. 69, an implementation of the Port State 
Measures Agreement, help conserve Pacific bluefin?
    Mr. Smith. Thank you, Mr. Sablan.
    And, yes, bluefin in the Pacific are in the trouble, and we 
need to address their health. I think that both bills, to the 
extent that there is IUU fishing going on, help to remove the 
economic incentive by eliminating markets for illegally 
harvested bluefin, and by when it is coming into the United 
States and is detected, allowing us to take stronger action 
against those that are illegally importing it.
    Mr. Sablan. And maybe we could increase that one boat and 
have a little bit more presence. Coast Guard presence also may 
help.
    But you know, we have also seen crabbers in Alaska, 
shrimpers in the Gulf of Mexico, and fishermen across the 
country have the prices they get for their fish undercut by 
intentionally mislabeled and illegally caught seafood imported 
from overseas. So do you think we have a responsibility to 
ensure the legality and authenticity of fish sold in the United 
States?
    Mr. Smith?
    Mr. Smith. Thank you, Mr. Sablan.
    And yes, we have in place a number of mechanisms for 
ensuring that there is no seafood fraud, that we do as well as 
we can to ensure that the catch that is being sold here has 
been legally harvested. H.R. 69 and the Port State Measures Act 
will give us additional tools with which we can address these 
important issues.
    Thank you.
    Mr. Sablan. Thank you.
    Mr. Chairman, I am out of time. I yield back.
    Dr. Fleming. The gentleman yields back.
    The Chair now recognizes Mr. DeFazio, Ranking Member of the 
Full Committee for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Smith, you were talking about H.R. 2646 at the end of 
your statement there, and I believe you said something to the 
extent of perhaps making it difficult for the economic 
viability of the industry, the current terms, and then 
something about supporting in concept.
    What reservations or concerns does the Administration have 
that they cannot wholly endorse this legislation?
    Mr. Smith. I do not think that we have any reservations 
about the ideas behind the legislation or what it needs to 
achieve. We simply have not had the time to go through our 
process of reviewing and commenting on the legislation.
    I believe that even in our initial look at it, there are 
perhaps some suggestions that we would have for drafting, and I 
believe that our staff has spoken with your staff about those 
suggestions, but as a basic point, we support the objective of 
the legislation, what the legislation is trying to achieve.
    Mr. DeFazio. OK. Well, you have the principal author of the 
bill here and myself and Mr. Huffman. We would be happy to 
entertain any suggestions, but it is our hope that the 
committee will consider this legislation in the very near 
future and send it to the Floor. So we need to do this on an 
expedited basis.
    I mean, some of these people are just barely hanging on, 
and for a lot of people the difference in the percent of their 
landings, the value that they will have to pay does not sound 
like a lot, but to them it is a difference between whether they 
stay in the business or not, and it would be a shame to drag 
this out and not save people this year as soon as possible.
    And you are and do agree that the only way forward is, in 
fact, a legislative fix? Because we have tried numerous times 
and have asked the previous Administration and this one to look 
at administrative fixes, but apparently there are none.
    Mr. Smith. Yes, sir. We do not believe that there are any 
ways that we can administratively change this law. We need new 
legislation.
    Mr. DeFazio. OK. Now, as I understand, and I assume you are 
going to be reluctant to answer this, but you worked on 
international environmental policy in the USTR's office. I have 
had the pleasure of meeting with the USTR in a number of venues 
to express strong concerns about the TPP and one of my many, 
many concerns about that agreement relates to the environmental 
section.
    You know, it seems to me that we are talking here about the 
IUU fishing, and we seem to be all on the same page there and 
wanting to have the best, most comprehensive measures, whether 
it is port State or mid-ocean, to prevent this.
    Do you think that the language that has been published 
publicly regarding the environmental compliance section is 
adequate to meet those concerns about illegal fishing?
    Mr. Smith. So thank you for the question, sir.
    I am not really in a position to comment specifically on 
that.
    Mr. DeFazio. OK.
    Mr. Smith. On that language that has been tabled.
    Mr. DeFazio. You take the Fifth on that one?
    Mr. Smith. I will say though that consistently we have 
taken the position that trade and environment need to be 
mutually supportive; that our trade agreements need to have 
strong environmental commitments to ensure that increased trade 
does not undermine environmental protections and that those 
strong commitments include the need to have commitments by the 
parties to enforce their environmental law.
    And we have taken the position that those commitments need 
to be enforceable through the trade agreement based upon the 
same terms as other commitments made in the trade agreements. 
So the same dispute resolution mechanism needs to apply.
    So I think that the position of the Administration is that, 
yes, strong environmental provisions are needed and that 
including covering things such as IUU fishing and stopping 
shark finning are appropriate.
    Mr. DeFazio. OK. Thank you.
    Thank you, Mr. Chairman.
    Dr. Fleming. I thank the gentleman.
    Do we have a motion?
    Mr. Sablan. Yes, Mr. Chairman. If I may, I ask unanimous 
consent that Congresswoman Colleen Hanabusa be allowed to 
participate in the subcommittee hearing today.
    Dr. Fleming. Without objection, so ordered.
    Mr. Sablan. Thank you.
    Dr. Fleming. The Chair now recognizes Mr. Huffman for 5 
minutes.
    Mr. Huffman. Mr. Chair, I will waive at this time.
    Dr. Fleming. Then the Chair recognizes Ms. Hanabusa if she 
has questions.
    Do you have? OK.
    Ms. Hanabusa. Thank you, Mr. Chair, and thank you, members 
of the committee, for agreeing to allow me to participate 
today.
    Either Ambassador or Mr. Smith, the Port State Measures 
Agreement, as I understand it, is modeled after current U.S. 
practice, and given that, how do we expect the U.S. 
ratification to affect IUU fishing?
    And also, can you elaborate on our efforts to assist other 
States in achieving the standards under the Port State Measures 
Agreement?
    Ambassador Balton. Thank you very much, Madam Hanabusa.
    I will put it this way. The Port State Measures Agreement 
is at heart an effort to bring other countries up to U.S. 
standards when it comes to denying entry to IUU fish in our 
ports. The United States already does most everything the 
agreement calls for.
    We do think that there is legislation necessary to close 
some gaps in our domestic authorities, but the big picture is 
that we are not a major port of entry for illegally harvested 
fish. Those tend to come to land in other countries. By 
ratifying the agreement, we will be in a much better position 
to encourage other countries, in effect, to do what we do.
    And, yes, we already do help them in this way, both 
bilaterally and also through multilateral organizations, such 
as the food and agriculture organizations.
    Ms. Hanabusa. I guess the question is that what we really 
want all the other States to do is to come up to the U.S. 
standard.
    Ambassador Balton. Yes.
    Ms. Hanabusa. But I am pretty sure you have heard it from 
many of our U.S. fishermen who comply, is the fact that the 
others are engaged in IUU and that what then goes into maybe 
more Mr. Smith's area, is that then that affects, of course, 
things like catch shares and quotas and so forth because you 
are having this IUU problem.
    So I guess it comes back to the same question, which is how 
is it that you are going to be able to bring others up when 
they know what the standards are? They can comply with it if 
they want, but countries are choosing to engage in IUU.
    So how is it that by having this agreement we are actually 
going to see a change when we have not seen one to date?
    Ambassador Balton. All fish caught at sea must ultimately 
come to port in order to enter the stream of commerce. This 
agreement, if widely ratified and properly implemented, will 
prevent that from happening on a large scale, and that will 
deprive IUU fishers of the economic benefit of what they do.
    And that should, right, redound to the benefit of 
legitimate fishers, including here in the United States.
    Ms. Hanabusa. I have a question about, I think in the Shark 
Conservation Act of 2010, NOAA provided a new definition of IUU 
fishing based on not only actions of particular fishing vessels 
but also on actions of the ``flag States,'' in other words, the 
countries themselves.
    And how is NOAA using the new definition of IUU in 
developing that biannual report that you are going to be 
sending to Congress or any of the other capacities?
    In other words, how are you using that, Mr. Smith?
    Mr. Smith. So thank you for the question.
    The report coming up in 2015 will be the first time that we 
will be using that definition, and obviously we will be looking 
beyond whether individual vessels are engaged in IUU fishing to 
see what it is the countries are doing to try and address it, 
how they are trying to deal with systemic issues, and that was 
the intent of expanding the definition.
    Ms. Hanabusa. And I guess we still always come back to the 
same question at the end, which is: all right, we have maybe 
agreement, we have these standards, but nothing is good unless 
there is an enforcement provision in it.
    So the enforcement that we are looking at for the whole IUU 
area is basically that they are going to have difficulties 
coming into, for example, our ports, which I think you said 
earlier we are not the problem? But is that going to be it?
    Because I think the question we have always had, especially 
in the Pacific, has always been our Coast Guard does a great 
job on our fishing vessels, but who is doing everybody else?
    So, we have the greatest policing mechanism in the country 
that is not violating any treaties or is not violating or 
engaging in IUU, but what about the countries that are?
    I guess I am having difficulty understanding how it is just 
going to work by saying you are not going to have access to our 
ports.
    Mr. Smith. I think we are trying to create multiple levels 
of enforcement here and of obligation here. By bringing the 
Port State Measures Agreement into force and creating an 
obligation on countries to keep this food out of their ports, 
that is one level of obligation.
    We have measures in the RFMOs, and, yes, in some cases 
those have been difficult to enforce, but that is a second 
level of obligation that we have created in a mechanism for 
enforcement.
    And then we do have the High Seas Driftnet, which is our 
own tool.
    Dr. Fleming. The gentlelady's time is up.
    We are going to vote in a moment, but we will take one more 
set of questions. Ms. Herrera Beutler, for 5 minutes.
    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    And this is for Mr. Smith kind of following up on what Mr. 
DeFazio mentioned, reservations. It is not easy to get a 
bipartisan bill out of both houses, and this one is moving in 
large part because we all recognize our fishing communities are 
hurting, and here is a way both to ensure that the loan program 
is repaid rather than having mass defaults, and, yes, it does 
change some of the bookkeeping, but we believe we are not going 
to just recoup the original loan, but the government is going 
to recoup interest. So it should not cost the taxpayer 
anything.
    And it is going to provide a much needed life preserver to 
these fishing communities, these coastal communities. So I 
guess I would say, you know, considering that the Pacific 
Fishery Management Council has recommended to you all to 
support this, what is the reservation?
    Mr. Smith. So thank you for the question.
    I do not believe it is reservations as to the objectives, 
as to the potential need for this. I think we have only not had 
the opportunity to go through our process of reviewing the 
piece of legislation and signing off on it.
    Ms. Herrera Beutler. I apologize. I thought you said you 
submitted some reservations to Mr. DeFazio's staff.
    Mr. Smith. I think we submitted some comments on the 
legislation.
    Ms. Herrera Beutler. OK.
    Mr. Smith. But not reservations to the legislation.
    Ms. Herrera Beutler. OK.
    Mr. Smith. But comments on how to make the legislation work 
as we believe it is intended to work. So there were, shall we 
say, technical corrections.
    Ms. Herrera Beutler. So you have reviewed it a little bit 
and it is mostly just technical.
    Mr. Smith. Right. What we have seen so far is technical, 
but I have to say we have not gone through the Administration's 
process for getting clearance to say we support the 
legislation.
    Ms. Herrera Beutler. So separate from speaking for the 
Administration having not gone through the process, in your 
professional opinion do you believe this legislation if enacted 
would provide some economic relief for these fishermen?
    Mr. Smith. I am not sure I have that separate personality, 
but again, I think this is a useful tool and we want to work 
with Congress to get it right and get these fishermen really--
--
    Ms. Herrera Beutler. I guess I am a little nervous because 
it is moving, and it is moving in the Senate. It is moving in 
the House, and you know how long it takes a bill to become an 
actual law. So that is part of why the Chairman has agreed to 
hear it today, because we need it to move.
    So I guess we would urge that review to happen as quickly 
as possible if you want to have input into it as it moves 
through the process.
    Mr. Smith. We look forward to working with you soon.
    Ms. Herrera Beutler. Thank you.
    Mr. Smith. Very soon.
    Ms. Herrera Beutler. With that I yield back. Thank you, Mr. 
Chairman.
    Dr. Fleming. The gentlelady yields back.
    We are going to recess for votes. We should be only 20 
minutes. We want Panel I to stay because we have one other 
member who will return with us, if you would be patient with 
us, and have the second panel ready to go as soon as we get 
back.
    With that we are recessed.
    [Recess.]
    Dr. Fleming. Well, the committee comes to order.
    And we thank our Panel I for sticking around. We have one 
more member who would like to ask questions, and therefore, the 
Chair recognizes Mr. Southerland for 5 minutes.
    Mr. Southerland. Thank you, Mr. Chairman. I appreciate it, 
and I want to thank Ambassador Balton and Mr. Smith. Thank you 
both for being here.
    I have a quick question or two, Mr. Smith, if I could. 
Obviously, these rogue individuals that come in and pull from 
our fisheries, I am just curious. I live on the Gulf of Mexico. 
So, you know, I live on the water, and there is a constant 
battle regarding the total allowable catch from different 
industry groups whether it is commercial fishing, whether it is 
boats for hire, charter fishing, or whether it is recreational 
fishing.
    Let's say when you have a boat that has been captured and 
that catch has been taken, sometimes I am sure large amounts of 
fish, is that counted against a commercial total allowable 
catch (TAC) or is that counted against the recreational 
percentage that they are allowed to catch?
    I mean, it clearly has been taken out of the fishery as far 
as the stock, and so we are told oftentimes that, Mr. Chairman, 
that is a very delicate fishery or the fisheries are very 
delicate and so, therefore, it has to count against somebody.
    Do you know the answer to that question?
    Mr. Smith. Thank you, sir.
    I am afraid I do not, but I would be happy to inquire 
further if you would like.
    Mr. Southerland. That would be great. If you could do that, 
that would be extremely helpful. I have asked that question 
several times and never got an answer. So if you could do that, 
I would appreciate it.
    And then I also want to ask: the draft Port State Measures 
implementing legislation would allow enforcement agents to 
conduct search and seizures with or without warrants. Why is 
this necessary?
    Mr. Smith. I think that is an investigative tool that is 
used in a number of different situations. It is a common 
investigative tool.
    There are times when you are afraid that if you have to go 
through the process of getting a warrant, evidence would be 
destroyed, I would imagine. It would probably be better though 
if I also inquired further as to the specific reasons for why 
we might want such provisions.
    I do note that this bill is not the Administration bill. It 
was authored by Mr. DeFazio and others. It has some of the 
objectives that we would like, but if you would like further 
information, I would be happy to----
    Mr. DeFazio. If the gentleman would yield, actually you do 
have that authority under the Magnuson Act for domestic 
fisheries. So it just mirrors the existing Magnuson Act.
    Thank you.
    Mr. Southerland. I thank the gentleman.
    The last question, the bill would also allow the Secretary 
of Commerce to use personnel from almost any Federal-State 
agency as long as there was an agreement in place to enforce 
this Act. It also gives the new enforcement officers the 
ability to conduct search and seizures and enforce any law of 
the United States.
    This seems to be a huge expansion of enforcement 
authorities, and I guess my question is similar. Why is this 
necessary?
    And I do not know if the answer is the same as the one that 
the gentleman just gave.
    Mr. Smith. I understand that at least with respect to the 
use of interagency agreements, it is the same. We have 
agreements with all of the coastal States except North 
Carolina, and that it is an important tool for us to accomplish 
our duties.
    We also have agreements, for example, on the border with 
Customs agents so that we can work together with them to 
fulfill our obligations.
    Mr. Southerland. Mr. Chairman, I yield back.
    Dr. Fleming. The gentleman yields back.
    Panel I, you are now dismissed. We thank you for your 
testimony today. We thank you for your patience remaining with 
us a little bit longer.
    And I would ask that Panel II step forward.
    OK. I want to welcome our second panel today and to 
introduce Mr. Brad Pettinger, Director, Oregon Trawl 
Commission; Mr. James Gerald Neva, Manager, Port of Ilwaco. Am 
I saying that right?
    Mr. Neva. Ilwaco.
    Dr. Fleming. OK. Good guess, huh?
    Washington; Ambassador Mark Lagon, Chairman of the 
International Relations and Security, MSFS Program, and 
Professor in the Practice of International Affairs, Georgetown 
University; Mr. Mike Kraft, VP, Corporate Social 
Responsibility, Bumble Bee Foods; and Mr. James P. ``Bud'' 
Walsh, Davis Wright Tremaine, LLP.
    As I am sure you heard earlier in the instructions, your 
testimony will appear in full in the hearing record. So we ask 
that you keep your oral statements to 5 minutes, according to 
Committee Rule 4(a).
    Our microphones are not automatic. So please press the 
button when you speak and make sure the tip is close enough we 
can hear you, and you will be under the 5-minute light. It will 
be green for the first 4 minutes, then yellow for the last 
minute. When it turns red, please go ahead and conclude your 
comments.
    Mr. Pettinger, you are now recognized for 5 minutes, sir.

 STATEMENT OF BRAD PETTINGER, DIRECTOR, OREGON TRAWL COMMISSION

    Mr. Pettinger. Thank you, Mr. Chairman, members of the 
committee.
    My name is Brad Pettinger, and I am the Director of the 
Oregon Trawl Commission.
    The Oregon Trawl Commission is part of a unified coalition 
that represents virtually every trawl permit holder from the 
West Coast.
    I would also like to thank Congresswoman Herrera Beutler, 
Congressman DeFazio, and Congressman Huffman, as well as all of 
the legislation's co-sponsors, for their leadership on this 
important issue.
    The original industry-funded buyback loan was authorized by 
Congress in 2003, and it retired 91 trawl permits from the 
fishery. The Federal buyback program was sought by the fleet 
after the Pacific Council identified capacity reduction as its 
number one priority in its groundfish strategic plan, but was 
unable to come up with a workable solution at the council 
level.
    The current loan has a 30-year term, a fixed year interest 
rate of 6.97 percent, and an annual fee equal to 5 percent of 
the value of the vessel's landed catch. Unfortunately, once the 
law was passed, there was a delay of 18 months to develop and 
implement the regulations to collect payments. This delay 
resulted in, through no fault of the industry, an additional 
$4.23 million in accrued interest being added to the loan.
    Over the last 8 years, the industry has struggled to keep 
pace with the interest and principal obligation of the loan in 
large part due to the additional interest tacked onto the loan 
at the outset.
    As of February 2014, the groundfish fishery had paid back 
$20.74 million, but still owes almost as much as originally 
borrowed. If regulations to collect the payment fees were 
implemented in a timely manner when the Groundfish Fishing 
Capacity Reduction Program was established in 2003, 
calculations show that the groundfish fishery would owe $19 
million today versus the actual balance of $27.6 million, a 
difference of over $8.5 million.
    And those last figures are a correction from my written 
testimony because I found an error in the written testimony.
    As some of you may know, the management of the West Coast 
groundfish trawl fishery changed dramatically in 2011. A trawl 
individual quota program was implemented because the management 
system at that time did not have the tools available to 
properly manage the fishery. This new Catch Share Program has 
resulted in a significant decrease of bycatch and discards and 
allows for increased flexibility and personal accountability 
for fleet members.
    However, with these benefits, there are also additional 
costs. In order to facilitate personal accountability, 100 
percent human observer coverage is required for every fishing 
trip. The current government reimbursement is set to expire in 
the near future, and the industry will be responsible for 
covering 100 percent of the cost associated with these 
observers.
    In addition to the observer cost, the industry is now also 
subject to a 3 percent cost recovery fee collected by the 
National Marine Fishery Service for management of the catch 
share fishery. These fees are in addition to the 5 percent 
buyback loan payment and any State ad valorem landing taxes. In 
all, these costs are approaching 18 percent of a fishing 
business' gross revenues on an annual basis. This is not 
sustainable.
    We cannot control management costs, and we have been 
unsuccessful in accelerating regulatory relief. Thus, there is 
an urgent need to refinance the current buyback loan. The 
industry is not seeking full forgiveness as fisheries in other 
parts of the countries have, successfully in some cases, but is 
seeking to take advantage of better interest rates and loan 
terms in order to give the industry a fighting chance to pay 
the loan back while keeping their businesses viable in light of 
all the other costs we face.
    The current legislation extends the term of the loan to 45 
years, reduces the interest rate to the current Treasury rate, 
and caps the annual payments to 3 percent versus the current 5 
percent.
    The legislation has bipartisan support in both houses, as 
well as strong support from affected permit holders in all 
three West Coast States. It would ensure that the American 
taxpayers are paid back in full and that some measure of 
economic relief is provided to an industry that provides 
healthy food to consumers and jobs to our coastal communities.
    We are not asking for a bailout, nor are we trying to walk 
away from our obligations. All that we ask is an opportunity to 
meet that obligation under vastly changed economic conditions 
and more favorable market terms for borrowing.
    We ask that the committee move this bill forward as quickly 
as possible. Thank you, and I will be happy to answer any 
questions.
    [The prepared statement of Mr. Pettinger follows:]
Prepared Statement of Brad Pettinger, Director, Oregon Trawl Commission
    Mr. Chairman, members of the committee, my name is Brad Pettinger 
and I am the Director of the Oregon Trawl Commission, an Oregon State 
commodity commission that represents every trawl permit holder in the 
State of Oregon. Our members participate in the Oregon pink shrimp 
fishery as well as the federally managed groundfish fishery off the 
West Coast. Together with other fishery and environmental organizations 
from the three West Coast States, the Oregon Trawl Commission has been 
helping to lead a unified effort to refinance the trawl buyback loan 
for the last several years. Virtually every groundfish trawl permit 
holder on the West Coast is represented by this coalition and we are 
all strongly supportive of this effort. I would like to thank 
Congresswoman Herrera-Beutler as well as Congressman DeFazio and the 
other co-sponsors of the bill for their leadership on this critically 
important issue for the West Coast trawl groundfish industry.
Background
    In 2000 the Secretary of Commerce declared a commercial fishery 
failure in the West Coast groundfish fishery due to low stock 
abundance, a severely overcapitalized fleet and concerns about several 
species of rockfish, which had been overfished historically by foreign 
fleets. The Pacific Fishery Management Council acknowledged the 
overcapacity problem by identifying ``capacity reduction'' as its 
number one priority in its Groundfish Strategic Plan. When the Council 
was unable to achieve a workable solution to reduce capacity, the 
industry took it upon themselves to approach Congress with a plan to 
reduce capacity through an industry-funded buyback loan.
Capacity Reduction Program
    Section 212 of the Department of Commerce and Related Agencies 
Appropriations Act, 2003 (title II of division B of Public Law 108-7; 
117 Stat. 80) was enacted to establish a Pacific Coast groundfish 
fishing capacity reduction program, also known as a buyback program, to 
remove excess fishing capacity. In 2003, Congress authorized the 
$35,700,000 buyback loan, creating the Pacific coast groundfish fishing 
capacity reduction program through the National Marine Fisheries 
Service finance program with a term of 30 years. The interest rate of 
the buyback loan was fixed at 6.97 percent and is paid back based on an 
annual ex-vessel landings fee of 5 percent (this is off the gross 
revenue that a fishermen is paid by the fish buyer for his fish).
    The buyback program resulted in 91 trawl groundfish permits being 
``bought out'' of the fishery. The 91 permits were associated with 
approximately 46 percent of the groundfish trawl landings at that time. 
In addition, 36 crab permits and 85 shrimp permits that were associated 
with the bought out trawl permits were also retired.
Buyback Loan Fees and Accrued Interest
    Unfortunately, once the law was passed, there was a delay in the 
promulgation of the regulations setting up the process for fee 
collection. This delay resulted in $4,234,730 in accrued interest 
before the fleet began paying back on the loan. This $4.23 million was 
tacked onto the loan through no fault of the industry members. Eighteen 
months passed between when the groundfish capacity reduction program 
was initiated in 2003 and when the fee collection procedures were 
established and implemented in 2005. Over the last 8 years the industry 
has struggled to keep pace with the interest and principal obligation 
of the loan due to previously declining fishery values and the added 
interest that was tacked on at the beginning of the loan. Until 
recently we had made no progress on paying down the principal.
    In fact, as of February 14, 2014, the groundfish fishery had paid 
$20,746,810, but still owed $27,664,619--which is only $764,099 less 
than what was originally borrowed ($28,428,718). See Attachment 1.
    If regulations to collect the payment fees were implemented in a 
timely manner when the capacity program was established in 2003, 
calculations completed by the Fishermen's Marketing Association based 
on PacFIN data (compiled by Pacific States Marine Fisheries Commission) 
show that the groundfish fishery would owe $16,942,890 today versus the 
actual balance of $27,664,619--a difference of over $10.5 million 
dollars! See Attachment 2.
The Current Trawl Groundfish Fishery
    In 2011 the management of the West Coast groundfish fishery changed 
dramatically. A trawl individual fishing quota program was implemented. 
An individual fishing quota program is a type of catch-share program 
where individual accountability is a cornerstone of management. The 
trawl IQ program includes 100 percent human observer coverage in order 
to document all catch and/or discard. Since the program's 
implementation there has been a dramatic reduction in bycatch and 
discards and individual flexibility and accountability has increased.
    The majority of the cost of observers is funded by the industry. In 
2014 there is a government reimbursement of less than 50 percent of the 
daily cost which can run between $425-$475 per day. This reimbursement 
is set to run out at the end of 2014 and beginning in 2015 the industry 
may be responsible for paying 100 percent of the observer costs. To be 
clear, a fisherman cannot leave the dock without an observer and in the 
future he will be responsible for the entire cost of the observer 
coverage. In addition to the cost of observers, the industry is now 
paying an annual ``cost recovery fee'' to the National Marine Fisheries 
Service of 3 percent of the annual ex-vessel value of the fish they 
land. The cost recovery program was implemented by NMFS in January of 
2014. The industry also pays State ad-valorem taxes (landings taxes) 
and these vary by State. All of these fees plus the annual loan payment 
of 5 percent will equate to approximately 18 percent of a fishing 
business's gross revenue on an annual basis. This is simply not 
sustainable, especially for smaller operations.
    At the same time that we are seeing successes in the fishery under 
the new management regime, there are still several improvements yet to 
be implemented within the program, which will increase the economic 
value of the fishery. In the 3 years since implementation, less than 
one-third of the available total allowable catch (TAC) of non-whiting 
groundfish stocks has been brought to shore. The TACs are what can be 
sustainably harvested from the fishery based on the current biological 
status of each stock. In other words, we are leaving two-thirds of the 
fish that could be sustainably harvested in the water each year. The 
reasons for this vary, but a lot of the fault rests on antiquated 
regulations enacted before the trawl IQ program was implemented. Many 
of these regulations are still on the books and upwards of 30 ``trawl 
trailing amendments'' are in the works to address both these redundant 
and irrelevant regulations as well as unintended consequences that have 
occurred under the new management system. It will be several years 
before the suite of trawl trailing amendments is completed and 
implemented; in the meantime it is more difficult for harvesters to 
achieve higher catch limits and generate more income from the fishery 
so they can afford the costs noted above.
    We cannot control management costs and we have been unsuccessful in 
accelerating regulatory relief. Thus, there is an urgent need to 
refinance the current buyback loan. The industry is not seeking full 
forgiveness as fisheries in other parts of the country have done 
(successfully in some cases) but is seeking to take advantage of better 
interest rates and loan terms in order to give the industry a fighting 
chance to pay the loan back while keeping their businesses viable in 
light of all the other costs we currently face.
H.R. 2646
    The current legislation seeks to refinance the existing loan. The 
terms of the loan include an extension from 30 years to 45 years, a 
reduction in the interest rate to reflect the current treasury rate 
(currently at 3.60 percent) and a cap on the annual loan payment fee of 
no more than 3 percent (versus the current 5 percent). The legislation 
has bipartisan support in both houses of Congress, as well as support 
from affected permit holders in all three West Coast States. It would 
ensure that the American taxpayers receive a return on the investment 
they have made in our commercial fishing industry and that the buyback 
loan will be repaid. Some measure of economic relief will be provided 
to an industry that provides healthy food to consumers and jobs to our 
coastal communities.
    Let me emphasize that we are not some huge corporation asking for a 
Federal bailout nor are we trying to walk away from a loan that was 
made to get us through difficult times. We undertook an obligation in 
order to increase our productivity and benefit the Nation and we intend 
to live up to that obligation. All that we ask is an opportunity to do 
so under vastly changed economic conditions and more favorable market 
terms for borrowing long-term debt from the Government. We ask that the 
committee move this bill forward as quickly as possible.
    Thank you. I will be happy to answer any questions.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Pettinger.
    Mr. Neva, you are now up for the next statement for 5 
minutes, sir.

   STATEMENT OF JAMES GERALD NEVA, MANAGER, PORT OF ILWACO, 
                       ILWACO, WASHINGTON

    Mr. Neva. Mr. Chairman and members of the subcommittee, I 
thank you for the opportunity to speak on behalf of fishing 
ports and fishing communities along the Pacific Coast.
    My name is Jim Neva. I have 20 years of experience as 
manager of different small ports in rural communities of 
southwest Washington State.
    The economies of these rural communities are heavily 
dependent upon a healthy fishing industry. It is our history 
and it is who we are as a community. These were once thriving 
industries providing robust economies that generation after 
generation of the local population accepted as a way of life. 
It is a hard life, but it was in their blood.
    A White Paper produced by the Pacific County Economic 
Development Council last summer reported that, and I quote, 
``The marine industry sector is an integral part of Pacific 
County's economic engine and community well-being.''
    According to a recent regional industry cluster study 
completed for the Pacific Mountain Workforce Development 
Council, marine industries account for more than 20 percent of 
the county's 5,885 jobs and an estimated direct annual payroll 
in excess of $41.2 million. The tax revenue from these sales 
helps to fund country services and the operation of special 
districts, such as libraries, ports, water, and emergency 
medical services.
    Washington State's commercial fishing industry is 
structured around a multispecies fishery. Groundfish, halibut, 
albacore tuna, salmon and shellfish are all major species 
groups important to the industry. Important species within the 
groundfish category include whiting, flatfish, rockfish, 
lingcod and sablefish.
    In 2006, non-tribal commercial fish landings from 
Washington fisheries total nearly 109.4 million pounds, 
generating $65.1 million in ex-vessel value, which is the price 
received by commercial fishers for fish landing at the dock.
    Groundfish produced the greatest share of landings, about 
54 percent. In terms of regional catch, the coastal area is by 
far the largest contributor to commercial fish harvesting in 
Washington, accounting for 85 percent of the total pounds 
landed and 63 percent of total ex-vessel value.
    Seafood processing also contributes significantly to the 
value of Washington's commercial fisheries. Including in-State 
processing, the wholesale value of fishery products caught in 
Washington waters was estimated at $101 million in 2006. 
Groundfish accounted for almost 61 percent of that value.
    The aggregate number of vessels landing at U.S. West Coast 
ports has decreased almost 67 percent since 1981. There was a 
large drop in a count of vessels delivering in the adverse 
oceanic condition years of 1984 and early 1990s. There were 
strategic buyout programs for vessels participating in the 
salmon fisheries in the 1990s, and groundfish fishery in 2003. 
Vessel counts continued to drop until the late 1990s and have 
remained somewhat stable since then.
    This bill will help alleviate some of the overwhelming 
burdens that have been placed upon the shore-based groundfish 
fleet in the last few years. This is largely a question of 
fairness.
    Buyback payments, observer costs, new vessel safety 
requirements, and other government mandates have crippled the 
groundfish fleet forcing a level of consolidation that has left 
Washington State with only five non-whiting trawl boats. The 
existence of these fleets is critical to the coastal 
communities that rely on the fishermen for their raw material 
and the jobs that shore-based processing create. The coastal 
communities of Washington need all the help we can get.
    Our ports and communities have been disproportionately 
impacted by these Federal management programs, such as the 
Buyback and the Trawl IFQ Program. This program permanently 
removed 91 vessels and 239 fishing permits from the groundfish 
trawl fishery. We have reached a tipping point where without 
some financial assistance from the government further decline 
in the fleet will result in further erosion of the coastal 
fishing infrastructure and corresponding loss of shore-side 
jobs and facilities.
    The REFI Pacific Act is critically important and its 
passage will have an immediate positive impact, economic effect 
on our fishing businesses and our rural Washington coast 
communities who rely on these fishermen.
    Thank you very much.
    [The prepared statement of Mr. Neva follows:]
   Prepared Statement of James Gerald Neva, Manager, Port of Ilwaco, 
                           Ilwaco, Washington
    My name is Jim Neva. I have 20 years of experience as Manager of 
different small ports in rural communities of southwest Washington 
State. The economies of these rural communities is heavily dependent 
upon a healthy fishing industry. It is our history and it is who we are 
as a community. These were once thriving industries, providing robust 
economies that generation after generation of the local population 
accepted as a way of life. It is a hard life, but it was in their 
blood.
    A ``White Paper'' produced by the Pacific County Economic 
Development Council last summer reported that, ``The marine industries 
sector is an integral part of Pacific County's economic engine and 
community well-being. According to a recent Regional Industry Cluster 
Study completed for the Pacific Mountain Workforce Development Council, 
marine industries account for more than 20 percent of the County's 
5,885 jobs and an estimated direct annual payroll in excess of $41.2 
million. The tax revenue from these sales helps to fund County services 
and the operation of special districts, such as libraries, ports, water 
and emergency medical services.''
    Washington State's commercial fishing industry is structured around 
a multi-species fishery. Groundfish, halibut, albacore tuna, salmon and 
shellfish are all major species groups important to the industry. 
Important species within the groundfish category include whiting, 
flatfish, rockfish, lingcod and sablefish. In 2006, non-tribal 
commercial fish landings from Washington fisheries totaled nearly 109.4 
million pounds, generating $65.1 million in ex-vessel value, which is 
the price received by commercial fishers for fish landed at the dock. 
Groundfish produced the greatest share of landings (about 54 percent). 
In terms of regional catch, the Coastal area is by far the largest 
contributor to commercial fish harvesting in Washington, accounting for 
85 percent of total pounds landed and 63 percent of total ex-vessel 
value. Seafood processing also contributes significantly to the value 
of Washington's commercial fisheries. Including in-State processing, 
the wholesale value of fishery products caught in Washington waters was 
an estimated $101 million in 2006. Groundfish accounted for about 61 
percent of this value.
    The aggregate number of vessels landing at U.S. West Coast ports 
has decreased almost 67 percent since 1981. There was a large drop in 
the count of vessels delivering in the adverse oceanic conditions years 
of 1984 and the early 1990s. There were strategic buyout programs for 
vessels participating in the salmon fisheries in the 1990s and 
groundfish fishery in 2003. Vessel counts continued to drop until the 
late 1990s and have remained somewhat stable since then.
    This bill will help alleviate some of the overwhelming burdens that 
have been placed upon the shore-based groundfish fleet in the last few 
years. This is largely a question of fairness. Buy-back payments, 
observer costs, new vessel safety requirements and other government 
mandates have crippled the groundfish fleet, forcing a level of 
consolidation that has left Washington State with only five non-whiting 
trawl boats.
    The existence of these fleets is critical to the coastal 
communities that rely on the fishermen for their raw material and the 
jobs that shore-based processing create. The coastal communities of 
Washington need all the help we can get. Our ports and communities have 
been disproportionally impacted by these Federal management programs, 
such as the buyback and the Trawl IFQ (Individual Fishing Quota) 
program. This program permanently removed 91 vessels and 239 fishing 
permits from the groundfish trawl fishery. We have reached a tipping 
point where, without some financial assistance from the Government, 
further decline in the fleet will result in further erosion of the 
coastal fishing infrastructure and corresponding losses of shore-side 
jobs and facilities. The REFI Pacific Act is critically important and 
its passage will have an immediate positive economic effect on our 
fishing businesses and our rural Washington coastal communities, who 
rely on these fishermen.

                                 ______
                                 

    Dr. Fleming. Thank you, sir.
    And next, Mr. Lagon, you are recognized for 5 minutes.

    STATEMENT OF MARK P. LAGON, CHAIR OF THE INTERNATIONAL 
 RELATIONS AND SECURITY, MSFS PROGRAM, AND PROFESSOR, PRACTICE 
        OF INTERNATIONAL AFFAIRS, GEORGETOWN UNIVERSITY

    Dr. Lagon. Thank you, Mr. Chairman, Ranking Member Sablan, 
members of the committee.
    Dr. Fleming. I believe your mike is not on.
    Dr. Lagon. Thank you.
    Dr. Fleming. There we go.
    Dr. Lagon. Mr. Chairman, Ranking Member Sablan, members of 
the committee, it is a privilege to testify today on the 
intersection of human trafficking and illicit fishing.
    My experience working on combating human trafficking 
includes as a Senate Foreign Relations Committee staffer 
helping finalize the Trafficking Victims Protection Act, as 
Ambassador-at-large to combat trafficking in persons as a Bush 
political appointee, and CEO of the leading anti-trafficking 
nonprofit.
    And I am also a founding board member, uncompensated I 
should say, of the Global Business Coalition Against Human 
Trafficking that includes Coca-Cola, Delta, Ford, Hilton, and 
Microsoft as members. And that coalition seeks to shut windows 
of vulnerability to human trafficking, tainting vital, 
legitimate business through means I am going to talk about 
here.
    Increasingly evidence indicates that labor and even sexual 
exploitation are occurring at sea, and particularly on fishing 
vessels that exist largely unnoticed. In 2013, the Maritime 
Labor Convention came into force to protect the rights of 
seafarers on merchant vessels and passenger ships, but 
unfortunately, no comparable legal measures exist for workers' 
rights aboard fishing vessels worldwide.
    Fishing vessels are generally exempt from the vessel safety 
standards and monitoring requirements of the International 
Maritime Organization. Fishing vessels of all sizes are 
regulated solely by the country from which the vessel is 
registered or the so-called flag State rather than the port 
States where they bring their cargo to shore and where they are 
more likely to get caught doing something illegal.
    In my view, this amounts to a governance black hole, and I 
found, for instance, the advice of the Pew Charitable Trust a 
useful resource, to see the problems with this weak enforcement 
environment. That environment allows increasing demand for 
seafood and conditions alternatively creating opportunity for 
human traffickers to seize maximum gain with little risk.
    A 2011 U.N. Office on Drugs and Crime report concluded 
perhaps the most disturbing finding of our study was the 
severity of abuse of fishers' traffic for the purpose of forced 
labor onboard fishing vessels. These practices can only be 
described as cruel, inhuman treatment in the extreme.
    As an example, Thailand has a large fishing fleet, but it 
is chronically short on fishermen, short by up to 60,000 a 
year, and foreign labor makes up 40 percent of the men working 
at sea. Human traffickers travel inland to remote villages in 
Cambodia and Myanmar and recruit men, and they move them with 
the complicity of corrupt border police to be sold into bondage 
at sea.
    I will give you an example. NPR had an exposee of a man 
named Vannak Prum. He looked for a short-term fishing job to 
pay for his pregnant wife's hospital bills, but was sold to a 
Thai fishing vessel subject to 20-hour work days in dangerous 
and unsanitary conditions and held without pay for 3 years at 
sea, and his account indicates that that vessel was involved in 
illegal fishing inside Indonesian waters.
    In 2013, the Environmental Justice Foundation interviewed 
four Myanmar men rescued from Thai fishing vessels who reported 
beatings and seeing a fellow crew member tortured and executed 
for trying to escape, as well as the murder of five others.
    The State Department's trafficking persons report documents 
numerous examples involving victims, including women and 
children traffic for prostitution from developing countries 
across the Pacific, Asia and Africa.
    Within national fishing fleets, the U.S. fleet is, of 
course, generally considered highly compliant with domestic and 
international laws, but illegal fishing by foreign vessels 
poses problems for the United States, particularly along the 
United States and Mexico border. There has been a drastic 
increase in recent years in the number of incursions of illegal 
Mexican fishing vessels into U.S. waters, vessels that are also 
used to smuggle drugs and humans from Northeast Mexico into 
Texas.
    The Illegal, Unreported, and Unregulated Fishing 
Enforcement Act, H.R. 69, and the Pirate Fishing Elimination 
Act would markedly enhance the U.S. ability to combat IUU 
fishing. H.R. 69 would improve our domestic abilities related 
to tracking, apprehending, sanctioning foreign vessels and 
nations that engage in IUU fishing. It provides practical steps 
the United States can take unilaterally to discourage foreign 
illegal fishing.
    While H.R. 69 focuses on refining existing law, the Pirate 
Fishing Elimination Act would implement a new fisheries 
agreement, the Port State Measures Agreement. The PSMA will 
strengthen port inspections, enhance communications, and deny 
port entry to suspected illegal fishing vessels. It will change 
the incentive structure to the bad guys, to human traffickers 
and other criminals who will not have the incentive to try and 
break the rules.
    Both bills will increase the sense of other countries that 
they should live by international obligations based on the U.S. 
example. I strongly urge the U.S. House of Representatives to 
pass both of these bills which would regularize and shed 
sunshine on illegal fishing. They would not only prove more 
stewardly for maritime ecosystems, but more fair to businesses 
playing by the rules and helpful to prevent vulnerable people 
from being utterly dehumanized, violated and even killed in 
illicit fishing.
    Thank you very much.
    [The prepared statement of Dr. Lagon follows:]
   Prepared Statement of Mark P. Lagon, Professor in the Practice of 
 International Affairs, and Global Politics and Security Chair, Master 
 of Science in Foreign Service Program, Georgetown University; Adjunct 
      Senior Fellow for Human Rights, Council on Foreign Relations
    Chairman Fleming, Ranking Member Sablan, members of the committee, 
it is a privilege to testify today on the legislation before the 
committee and to share insights on the intersection of human 
trafficking and illegal fishing. My experience working on combating 
human trafficking spans a decade and a half, including serving the 
Senate Foreign Relations Committee as a staffer, assisting then Senator 
Sam Brownback and the late Senator Paul Wellstone in finalizing the 
Trafficking Victims Protection Act of 2000. I later had the privilege 
to serve as Ambassador at Large directing the Office to Monitor and 
Combat Trafficking in Persons that Act created at the State Department.
    Thereafter, I became CEO of the leading U.S. anti-trafficking non-
profit, Polaris Project, and in 2012 Founding Board Member 
(uncompensated, to be clear) of the Global Business Coalition Against 
Human Trafficking (gbcat.org), which includes Carlson, Coca Cola, Delta 
Airlines, Ford Motor Company, Hilton Hotels, Microsoft, and NXP 
Semiconductor among its members. This coalition of thought leaders 
promotes best practices to shut the windows of vulnerability to human 
trafficking tainting vital, legitimate business--through means like 
those I will recommend today.
    My tenure from 2007 to 2009 as Ambassador at Large involved 
rebalancing the focus on human trafficking toward that based on 
exploitation for labor--in addition to that horrifically based on 
commoditized sex. Labor trafficking is a broader phenomenon, yet still 
prosecuted today globally less than one-sixth as often as sex 
trafficking, according to the 2013 Department of State Trafficking in 
Persons Report.\1\ That tenure also witnessed the revelation of how 
often human trafficking occurs in the seafood sector--from the victims 
of forced labor in seafood processing I met in Thailand in 2007, to 
boys fishing in Ghana's Lake Volta so vividly depicted in the 
documentary film on child trafficking, Not My Life,\2\ which we at the 
State Department Office lent advice to get made.
---------------------------------------------------------------------------
    \1\ U.S. Department of State. (2013). Trafficking in Persons 
Report--June 2013. See http://www.state.gov/j/tip/rls/tiprpt/2013/.
    \2\ See http://notmylife.org/fishing-boys-lake-volta.
---------------------------------------------------------------------------
    Today, this committee considers two bills that would combat 
illegal, unreported and unregulated (IUU) fishing: H.R. 69, The 
Illegal, Unreported and Unregulated Fishing Enforcement Act, introduced 
by Congresswoman Bordallo, and The Pirate Fishing Elimination Act, 
introduced by Committee Ranking Member DeFazio. My testimony will 
center on human trafficking as it relates to fishing vessels and 
illegal fishing worldwide.
    It is important to state from the outset that there is limited 
information available on the relationship between illegal fishing, 
human trafficking, and other criminal activities. These activities can 
occur independently. Obviously only some fishing vessels are engaged in 
illegal fishing and human trafficking. However, the available data 
suggests that the confluence of these activities at sea does occur all 
too often, requiring a strong response from the United States. These 
illicit activities impact economically disadvantaged and vulnerable 
people, global commerce, and the health of our ocean environment, and 
merits your action. I strongly urge this committee to support and 
advance The Illegal, Unreported and Unregulated Fishing Enforcement Act 
(H.R. 69), and The Pirate Fishing Elimination Act as soon as possible.
    Human trafficking is not limited to activities on land, and 
increasingly evidence indicates that labor and even sexual exploitation 
are occurring at sea, and particularly on fishing vessels that exist 
largely unnoticed by the rest of the world. In 2013, the Maritime Labor 
Convention (MLC) came into force to protect the rights of seafarers on 
merchant vessels and passenger ships, but unfortunately, no comparable 
legal measures exist for workers rights aboard fishing vessels 
worldwide. Further, fishing vessels are generally exempt from the 
vessel safety standards and monitoring requirements of the 
International Maritime Organization (IMO). As a result, a range of 
fishing vessels of all sizes and seaworthiness are regulated solely by 
the country from which the vessel is registered, the vessel's ``flag'' 
State, and they can operate across wide swaths of the ocean for months 
or years at a time with relative autonomy. Enforcement actions have 
traditionally been left to the States where the boats are registered, 
or ``flagged,'' rather than the ``port'' States where they bring their 
cargo to shore, where they would be more likely to be caught doing 
something illegal.
    Moreover, fishing boats are much less carefully regulated than 
other ships. Because fishing vessels are not required to have 
identification numbers, enormous ships are known to change names and 
flags of registration to stay a step ahead of authorities. Interpol 
issued two worldwide alerts last year for vessels that had done just 
that.\3\ Fishing vessels are not required to carry satellite 
transponders, which makes it easy for them to evade surveillance. This 
all amounts to a governance ``black hole.'' Let me say that I have 
found the Pew Charitable Trusts, as a nonprofit with expertise on IUU, 
working to address international enforcement challenges, a particularly 
useful resource for policymaking.
---------------------------------------------------------------------------
    \3\ See http://news.msn.co.nz/nationalnews/8767033/nz-goes-to-
interpol-over-rogue-trawler.
---------------------------------------------------------------------------
    This weak regulatory environment impacts a global fishing industry 
with annual revenues of $80-85 billion that seeks to meet the 
increasing demand for seafood.\4\ These financial and regulatory 
conditions create an opportunity for traffickers to seize maximum gain 
with little risk, at the expense of fellow human beings who they in 
effect enslave. A 2011 report of the United Nations Office on Drugs and 
Crime (UNODC), Transnational Organized Crime in the Fishing Industry, 
concluded:
---------------------------------------------------------------------------
    \4\ Dyck, A.J. and Sumaila, U.R. (2010). ``Economic Impact of Ocean 
Fish Populations in the Global Fishery.'' Journal of Bioeconomics, DOI: 
10.1007/s10818-010-9088-3.

        Perhaps the most disturbing finding of the study was the 
        severity of the abuse of fishers trafficked for the purpose of 
        forced labour on board fishing vessels. These practices can 
        only be described as cruel and inhumane treatment in the 
        extreme. . . A particularly disturbing facet of this form of 
        exploitation is the frequency of trafficking in children in the 
        fishing industry.\5\
---------------------------------------------------------------------------
    \5\ United Nations Office on Drugs and Crime (UNODC). Transnational 
Organized Crime in the Fishing Industry--Focus on: Trafficking in 
Persons, Smuggling of Migrants, and Illicit Drugs Trafficking. (2011). 
See http://www.unodc.org/documents/human-trafficking/Issue_Paper-
TOC_in_the_Fishing_Industry.pdf.

    We lack robust statistics of the full extent of human trafficking 
abuses associated with the global fishing industry, but a growing list 
of examples highlights the severity of the problem. Bloomberg 
Businessweek conducted a 6-month investigation into debt bondage 
schemes in Indonesia where men, desperate for work, were exploited on 
Korean-flagged fishing vessels operating off the coast of New Zealand. 
Fishing company agents rushed men into signing misleading contracts 
that allowed the fishing company to withhold salaries, and they 
collected collateral assets from workers' families. Further, 
crewmembers were required to work to the company's loosely defined 
``satisfaction,'' or be sent home without pay and charged $1,000 for 
airfare.\6\ Though the crew lived in cramped, unsanitary conditions 
with the daily threat of physical violence and rape, the contract terms 
assessed fines for any worker who ran away from the job. Workers were 
forced to work, knowing their families would ultimately be held 
responsible.
---------------------------------------------------------------------------
    \6\ Skinner, E. Benjamin. (February 23, 2012). ``The Fishing 
Industry's Cruelest Catch,'' Bloomberg Businessweek. See http://
www.businessweek.com/printer/articles/22538-the-fishing-industrys-
cruelest-catch.
---------------------------------------------------------------------------
    A 2011 report from the International Organization for Migration 
(IOM) entitled Trafficking of Fishermen in Thailand provides detailed 
information on the scale and scope of the human trafficking in the Thai 
fishing industry.\7\ Citizens of Southeast Asian countries are 
subjected to human trafficking on Thai vessels that fish on longer 
voyages in foreign waters far from enforcement (as compared to vessels 
that fish in their Exclusive Economic Zone, or EEZ, waters and return 
to port frequently). Workers are vulnerable due to their limited 
potential to leave the ship. In 2012, National Public Radio (NPR) 
produced a special report \8\ exposing significant human trafficking of 
men from Cambodia and Myanmar on Thai fishing vessels. Thailand has a 
large fishing fleet but is chronically short on fishermen--short by up 
to 60,000 per year--and foreign labor makes up 40 percent of the men 
working at sea. The report indicates that human traffickers travel 
inland to remote villages in Cambodia and Myanmar and recruit men who 
they move with the complicity of corrupt border police to be sold into 
bondage at sea.
---------------------------------------------------------------------------
    \7\ International Organization for Migration (IOM). (2011). 
Trafficking of Fishermen in Thailand. See https://www.iom.int/jahia/
webdav/shared/shared/mainsite/activities/countries/docs/thailand/
Trafficking-of-Fishermen-Thailand.pdf.
    \8\ Service, Shannon, and Palmstrom, Becky. (June 19, 2012). 
``Confined to a Thai Fishing Boat, For Three Years.'' NPR. See http://
www.npr.org/2012/06/19/155045295/confined-to-a-thai-fishing-boat-
forthree-years.
---------------------------------------------------------------------------
    The NPR story follows a man named Vannak Prum as he looked for a 
short-term fishing job to pay for his pregnant wife's hospital bills, 
but was sold to a Thai fishing vessel, subject to 20-hour work days in 
dangerous and unsanitary conditions, and held without pay for 3 years 
at sea. Prum's account documents illegal fishing inside of Indonesian 
waters and his vessel evading gunfire before slipping into Malaysian 
waters. Prum eventually escaped by jumping overboard while fishing near 
an island off Malaysia, but once ashore, he was sold into indentured 
servitude on a palm oil plantation by a local police officer. This case 
reflects archetypical human trafficking: vulnerable groups of people 
robbed of their autonomy because they lack any access to justice.
    Fishermen trapped at sea are subjected to violent, and sometimes 
deadly, abuse while aboard Thai vessels. A 2009 survey by the United 
Nations Inter-Agency Project on Human Trafficking (UNIAP) found that 59 
percent of interviewed migrants trafficked aboard Thai fishing boats 
reported witnessing the murder of a fellow worker.\9\ Accidents, 
dangerous working conditions and the fear of being physically abused 
are common, but reports suggest that most vessels had little to no 
medical supplies and would not stop work to seek medical attention for 
the crew.\10\ In 2013, the Environmental Justice Foundation (EJF) 
interviewed 14 Myanmar men rescued from Thai fishing vessels who 
reported beatings by the senior crew, and in two cases, the victims 
reported seeing a fellow crewmember tortured and executed for trying to 
escape, as well as the murder of five others.\11\ Further, EJF 
interviews with rescued victims confirmed that the vessels often fished 
illegally in foreign waters.\12\ In 2013, 150 Cambodian and Burmese 
victims were rescued from Thai fishing vessels in ports around the 
world, but the U.S. State Department reports that this is likely only a 
fraction of the total number of Asian men victimized by trafficking on 
fishing boats.\13\
---------------------------------------------------------------------------
    \9\ United Nations Inter-Agency Project on Human Trafficking 
(UNIAP). (2009). ``Exploitation of Cambodian Men at Sea.'' See http://
www.no-trafficking.org/reports_docs/siren/siren_cb3.pdf.
    \10\ International Organization for Migration (IOM). (2011). 
``Trafficking of Fishermen in Thailand.'' See https://www.iom.int/
jahia/webdav/shared/shared/mainsite/activities/countries/docs/thailand/
Trafficking-of-Fishermen-Thailand.pdf.
    \11\ Environmental Justice Foundation. (2013). ``Sold to the Sea--
Human Trafficking in Thailand's Fishing Industry.'' See http://
ejfoundation.org/sites/default/files/public/Sold_to_the_Sea_report_lo-
res-v2.pdf.
    \12\ Ibid.
    \13\ U.S. Department of State. (2013). Trafficking in Persons 
Report--June 2013. See http://www.state.gov/j/tip/rls/tiprpt/2013/.
---------------------------------------------------------------------------
    The State Department's Trafficking in Persons Report for 2013 
suggests that the connection between human trafficking and the fishing 
industry is not limited to Thailand, and there are numerous examples 
involving victims--including women and children trafficked for 
prostitution--from poor and developing countries across the Pacific, 
Asia, and Africa.\14\ In July 2013, a humanitarian organization 
reported that a foreign fishing firm based in Sierra Leone trafficked 
girls for purposes of sex, leaving port with the girls onboard before 
they were rescued by the local authorities.\15\ Many other women and 
children are not as fortunate.
---------------------------------------------------------------------------
    \14\ Ibid.
    \15\ Voice of America. (July 19, 2013). ``Sierra Leone: Government 
Targets Human Trafficking.'' Voice of America. See http://
allafrica.com/stories/201307200024.html.
---------------------------------------------------------------------------
    The same circumstances that make fishing vessels opportune for 
human trafficking also make them susceptible to other forms of 
transnational organized crime, including drug trafficking. For 
instance, a State Department report notes that drug smuggling is often 
aided by fishing boats moving drugs through the Bahamas, Jamaica and 
Florida.\16\ The 2011 UNODC report Transnational Organized Crime in the 
Fishing Industry that I previously mentioned addressed the extent to 
which criminal activities within the fishing industry were a threat to 
the law-abiding and legitimate fishing industry, local fishing 
communities, and the public at large. The study confirmed labor abuses 
aboard fishing vessels, as well as the links between illegal fishing, 
and transnational organized crime, and drug trafficking. Specifically, 
it found that fishing vessels are used for smuggling migrants, drugs 
(primarily cocaine), and weapons, and committing acts of terrorism. 
Fishing vessels are used as ``mother ships'' serving as base stations 
from which criminal activities are coordinated, as supply vessels for 
other vessels engaged in criminal activities, or simply as cover for 
clandestine activities at sea and in port. The study also found that 
some transnational fishing operators are engaged in marine living 
resource crime. These fishing operations are highly sophisticated and 
employ complex incorporation and vessel registration strategies to 
avoid tracking. They coordinate at-sea vessel support services to aid 
in moving illegally caught fish to market, often supported by 
fraudulent catch documentation.\17\
---------------------------------------------------------------------------
    \16\ U.S. Department of State. (2012). International Narcotics 
Control Strategy Report (INCSR). See http://www.state.gov/j/inl/rls/
nrcrpt/2012/vol1/184098.htm.
    \17\ United Nations Office on Drugs and Crime (UNODC). (2011). 
Transnational Organized Crime in the Fishing Industry--Focus on: 
Trafficking in Persons, Smuggling of Migrants, and Illicit Drugs 
Trafficking. See http://www.unodc.org/documents/human-trafficking/
Issue_Paper-TOC_in_the_Fishing_Industry.pdf.
---------------------------------------------------------------------------
    As stated at the outset, the data that explicitly connects illegal 
fishing, human trafficking, and other criminal activities is limited, 
but mounting evidence suggests that fishing vessels engaged in one of 
these illicit activities are likely to also engage in the others. There 
is evidence of widespread IUU fishing occurring in the Asia-Pacific 
region, estimated at 3.4-8.1 million tons per year,\18\ costing 
countries in that region significant annual revenue losses (losses 
estimated, for instance, at $2.5 billion in 2007 \19\) and resulting in 
overexploited fisheries. The presence of IUU activity overlaps with 
human trafficking abuses aboard fishing vessels and also within 
communities that service the fishing vessels in port. The coincidence 
of these activities indicates that these problems are related, and are 
being driven by the global demand for fish and fish products.
---------------------------------------------------------------------------
    \18\ Asian-Pacific Economic Cooperation Fisheries Working Group. 
(2008). ``Assessment of Impacts of Illegal, Unreported and Unregulated 
(IUU) Fishing in the Asia-Pacific,'' APEC Singapore. See http://
www.imcsnet.org/imcs/docs/apec_2008_iuu_fishing_assessmt_se_asia.pdf.
    \19\ United Nations Food and Agriculture Organization (FAO). (2007) 
``Fishing Capacity Management and IUU Fishing in Asia.'' Bangkok.
---------------------------------------------------------------------------
    There is a significant variation of compliance and enforcement, as 
with many issues, within national fishing fleets, with the U.S. fleet 
generally considered highly compliant with domestic and international 
laws, while others, such as Thailand have a poor record, implicated in 
cases of illegal fishing, human trafficking abuses, and human 
smuggling. Despite the high compliance rates within the U.S. fleet, 
illegal fishing by foreign vessels poses problems for the United 
States, particularly in Alaska and along the U.S.-Mexico border. In 
Alaska, U.S. crab fishermen have been undercut by illegal Russian crab 
fishing operations, impacting global supply and prices, and costing the 
U.S. economy hundreds of millions of dollars. In the Gulf of Mexico, 
there has been a drastic increase in recent years in the number of 
incursions of illegal Mexican fishing vessels called ``lanchas'' into 
U.S. waters. Local U.S. Coast Guard officials describe these illegal 
Mexican fishing vessels as a ``persistent challenge to U.S. 
sovereignty,'' \20\ and recent reports suggest that these same vessels 
are also used to smuggle drugs and humans from northeast Mexico into 
Texas.\21\ Small boats that would typically be used for fishing are a 
common mode of transport for undocumented migrants attempting to enter 
the United States, using California beaches as a landing point. 
Smugglers are paid up to $9,000 per person for these dangerous voyages 
that often end in deaths.\22\
---------------------------------------------------------------------------
    \20\ Mendoza, Jesse. (September 6, 2013). ``U.S. Coast Guard Seizes 
1,000 Pounds of Illegally Caught Fish.'' Valley Morning Star. See 
http://www.valleymorningstar.com/news/local_news/article_a1a39b6a-1772-
11e3-a961-001a4bcf6878.html.
    \21\ Tompkins, Shannon. (June 11, 2013). ``Gulf Poachers Threaten 
to deplete Fisheries.'' Houston Chronicle. See http://
www.houstonchronicle.com/sports/outdoors/article/Gulf-poachers-
threaten-to-deplete-fisheries-4589290.php.
    \22\ Carcamo, Cindy. (September 14, 2012). ``For Illegal 
Immigrants, Ocean is the New Desert.'' Orange County Register. See 
http://www.ocregister.com/articles/san-371399-people-smuggling.html.
---------------------------------------------------------------------------
    Human trafficking in particular is a complex, international problem 
that must be addressed through a variety of legal and diplomatic 
channels. To that end, The Illegal, Unreported and Unregulated Fishing 
Enforcement Act (H.R. 69), and The Pirate Fishing Elimination Act would 
enhance the ability of the United States to combat IUU fishing by 
strengthening and streamlining U.S. enforcement within existing 
fisheries statutes, and through the implementation of a new 
international agreement to fight IUU fishing, the Port State Measures 
Agreement.
    H.R. 69 takes a number of common-sense steps to improve our 
domestic capabilities related to tracking, apprehending and sanctioning 
foreign vessels (and nations) that engage in IUU fishing. Specifically, 
H.R. 69 would make the prohibitions, penalties, and enforcement 
protocols for nine international fisheries statutes consistent with 
each other and with our domestic fisheries law, the Magnuson-Stevens 
Fishery Conservation and Management Act. The result would be to 
streamline enforcement by the relevant Federal and State enforcement 
agents. In addition, the legislation facilitates efficiencies including 
interagency collaboration, data exchange, and the creation of an IUU 
vessel list to allow faster, more coordinated monitoring and 
enforcement actions against foreign vessels, and nations, suspected of 
illegal fishing. Finally, H.R. 69 makes technical amendments to the 
High Seas Driftnet Fishing Moratorium Protection Act, to allow the 
United States to more effectively identify nations that are non-
compliant with their international obligations under the various 
Regional Fisheries Management Organizations. The concepts in H.R. 69 
are practical steps that the United States can take unilaterally to 
discourage foreign illegal fishing, facilitate information exchange 
between Federal Government entities, and propel other nations' 
compliance.
    While H.R. 69 focuses primarily on refining existing law, The 
Pirate Fishing Elimination Act, would implement a new international 
fisheries agreement--the Port State Measures Agreement (PSMA)--that was 
created to combat illegal fishing worldwide. I testified this past 
February before the Senate Foreign Relations Committee in support of 
the PSMA, and am glad that committee subsequently voted unanimously in 
favor of its ratification. Once entered into force, the PSMA will 
strengthen port inspections, enhance communications, and deny port 
entry--including port services and supplies--to suspected illegal 
fishing vessels. The PSMA is a cost-effective enforcement mechanism 
that will begin to change the economic incentives--increasing the cost 
associated with illegal fishing because it will be more difficult for 
illegal vessels to access global markets. Once a suspected illegal 
fishing vessel is identified, countries will coordinate enforcement 
efforts to ensure that the suspected vessel is refused entry at other 
ports until the vessel agrees to be inspected or is prosecuted. The 
Pirate Fishing Elimination Act puts these concepts into statute by 
establishing the responsibilities of the Secretary of Commerce and the 
U.S. Coast Guard, inspection and enforcement protocols, and steps to 
refuse entry or deny port services to vessels suspected of IUU fishing. 
The provisions in this legislation are rightly considered to be non-
controversial and the companion legislation, S. 267, passed the Senate 
Commerce Committee unanimously in July 2013.
    Together, these two bills make important improvements to our 
domestic enforcement capabilities against foreign illegal fishing 
operations, while also creating a strong incentive to foreign vessels 
and nations to comply with international obligations. The increased 
accountability and economic incentives in these bills could help to 
erode other criminal activities that are often associated with illegal 
fishing, including human trafficking.
    In 2000, Congress enacted the Trafficking Victims Protection Act 
which defined trafficking for the purposes of labor or sex and provided 
critical measures to protect human trafficking victims. This law was 
reauthorized for the fourth time in March 2013 with bipartisan support. 
The Illegal, Unreported and Unregulated Fishing Enforcement Act (H.R. 
69), and The Pirate Fishing Elimination Act would complement this 
widely supported law, institute standards that are consistent with 
existing U.S. practice, and could pay big dividends globally through 
enhanced accountability, monitoring, communication, and enforcement of 
suspect fishing vessels that may be engaged in human trafficking or 
other criminal activities. These two bills, combined with ratification 
and the entry into force of the Port States Measures Agreement, provide 
a pathway to beginning to address the complicated problem of human 
trafficking on the high seas. I strongly urge the U.S. House of 
Representatives to offer its leadership and quickly pass these two 
bills, sending a message to the world that we will not tolerate illegal 
fishing and its associated human rights violations.
    In conclusion, a 2009 peer-reviewed scientific study estimated that 
the worldwide annual value of losses from illegal and unreported 
fishing could reach $23.5 billion.\23\ Yet, vessels engaged in illegal, 
unregulated fishing not only steal precious food resources off the 
coasts of poor countries and damage marine ecosystems. They engage in 
drug smuggling. Most serious, they also prey on human beings. Illicit 
fishing worldwide appears to be rife with human trafficking. The 
legislation under consideration at this hearing would regularize and 
shed sunshine on that fishing. As a result they would not only prove 
more stewardly for marine ecosystems, and more fair to businesses 
playing by the rules, but helpful to prevent vulnerable people from 
being utterly dehumanized, violated, and even killed in that illicit 
fishing.
---------------------------------------------------------------------------
    \23\ Agnew, David J., et al. (February 25, 2009), ``Estimating the 
Worldwide Extent of Illegal Fishing,'' PLOS ONE. See www.plosone.org/
article/info:doi/10.1371/journal.pone.0004570.
---------------------------------------------------------------------------
    Thank you for inviting me to testify.

                                 ______
                                 

    Dr. Fleming. Thank you. Thank you, Ambassador Lagon, and 
thank you for your testimony.
    Mr. Kraft, you are now recognized, sir, for 5 minutes.

   STATEMENT OF MIKE KRAFT, VICE PRESIDENT, CORPORATE SOCIAL 
                RESPONSIBILITY, BUMBLE BEE FOODS

    Mr. Kraft. Good afternoon, Mr. Chairman, and thank you for 
the invitation to testify today.
    I am Mike Kraft. I am with Bumble Bee Foods, and I would 
like to present our company's views on H.R. 69, the IUU 
Fisheries Enforcement Act, as well as the H.R. draft bill that 
would implement the Port State Measures Agreement.
    Very briefly, Bumble Bee Foods is a privately held company 
headquartered in San Diego. We are North America's largest 
branded shelf-stable seafood company, and we offer canned and 
pouched products for sale in the United States and Canada.
    As a seafood company that relies upon our oceans for supply 
of natural resources critical to our business, it is inherent 
to our mission that we support practices and policies that 
ensure long-term sustainability of our fisheries' resources.
    At Bumble Bee we have an active sustainability program 
participating in a number of U.S. and international fisheries 
management organizations. We also were a founder of the 
International Seafood Sustainability Foundation, which is a 
partnership between scientists, the World Wildlife Fund and 
global tuna processors.
    Bumble Bee is also a founding member and supporter of the 
Congressional Oceans Caucus Foundation.
    I will not reiterate the number of points we have heard on 
the figures of IUU fishing. It is safe to say that we also view 
it as an economic and environmental risk that needs to be 
continually addressed.
    Now, the United States has been a global leader in 
effectively fighting IUU fishing. Domestically we have some of 
the strongest laws aimed at curtailing IUU fishing as well as 
ensuring IUU fish does not enter our markets. The U.S. Coast 
Guard, NMFS and NOAA do an excellent job in enforcing our 
domestic laws.
    Also, internationally the United States has taken a 
leadership role at various RFMOs pushing for stronger measures 
to detect and deter IUU fishing. Unfortunately, as is the case 
with international fisheries organizations which rely on the 
members for the enforcement, the application and enforcement of 
the measures remain mixed at best.
    H.R. 69 is a bipartisan bill that amends various existing 
international fishery statutes to simplify, streamline and 
strengthen existing enforcement protocols. The overall goal of 
the bill is to improve the capabilities of U.S. law enforcement 
to detect, track and prosecute foreign IUU fishing activity.
    Today we enforce international fishery agreements to which 
we are a party under 11 or more separate fishery statutes. 
These laws were developed over a period of time, took divergent 
approaches in establishing enforcement protocols and penalties 
and are not always consistent with Magnuson-Stevens. As a 
result, the U.S. fisheries enforcement efforts are carried out 
under a patchwork of different standards and authorities. H.R. 
69 will harmonize and strengthen the enforcement authorities.
    Title 2 of H.R. 69 amends the Tuna Conventions Act of 1950 
to implement the Antigua Convention. As we have heard, the 
convention was entered into force in 2010, but the United 
States must still conform its domestic statutes before we can 
deposit the instrument of ratification and accede to the 
convention.
    The provisions in H.R. 69 accomplish this and the U.S. tuna 
industry strongly supports the convention.
    The Port State Measures Agreement adopted by the UNFAO in 
2009 establishes the first global agreement focused on IUU 
fishing. The United States was one of the principal architects 
of the agreement, which is modeled after our own domestic IUU 
fishing laws. Port State measures is built on the simple 
premise that IUU fishing can be reduced and possibly eliminated 
if IUU fish can be prevented from entering global commerce.
    The most effective way of accomplishing this is to make it 
extremely difficult for IUU fish to be offloaded in port. The 
Port State Measures Agreement establishes the first global 
standards to control port access from foreign fishing vessels 
that engage in IUU.
    A critical component of the port State measures is that it 
creates an obligation of the signatory nations to apply and 
implement these measures so that these measures to combat IUU 
become more than just aspirational. The sad truth is that in 
many other coastal nations, they are just simply not as 
rigorous in enforcing the rules as we are in the United States.
    The draft bill includes many of the revisions to the U.S. 
law necessary to implement the port State measures. We do have 
some concerns regarding the proposed enforcement and penalty 
regime and would like to work with the committee to ensure that 
the bill is consistent with the Magnuson-Stevens Act.
    The Senate companion bill, S. 267 has already been approved 
unanimously by the Senate Committee on Commerce, Science and 
Transportation, and now are awaiting Floor actions.
    In closing, IUU is a multi-billion dollar industry that 
threatens the health and sustainability of our global fisheries 
resources. Bumble Bee encourages this committee to approve 
these two pieces of legislation designed to prevent, deter and 
eliminate IUU.
    Thank you.
    [The prepared statement of Mr. Kraft follows:]
Prepared Statement of Michael Kraft, Vice President of Sustainability, 
                         Bumble Bee Foods, LLC
    Thank you for the courtesy of your invitation to testify. I am 
Michael Kraft, Vice President of Sustainability for Bumble Bee Foods, 
LLC. Today, I will present our company's views on the need for this 
committee to approve H.R.____, a bill to prevent, deter, and eliminate 
illegal, unreported, and unregulated fishing through the Port State 
Measures Agreement (PSMA); and H.R. 69, the Illegal, Unreported and 
Unregulated Fishing Enforcement Act of 2013. H.R. 69 also contains 
provisions implementing the Antigua Convention which is of particular 
importance to the U.S. tuna industry.
    Bumble Bee Foods, LLC was founded in 1899 by a handful of dedicated 
fishermen. Today, privately held and headquartered in San Diego, Bumble 
Bee Foods is North America's largest branded shelf-stable seafood 
company, offering a full line of canned and pouched tuna, salmon, 
sardines, and specialty seafood products marketed in the United States 
under leading brands including Bumble Bee<SUP>'</SUP>, 
Brunswick<SUP>'</SUP>, Sweet Sue<SUP>'</SUP>, Snow's<SUP>'</SUP>, Beach 
Cliff<SUP>'</SUP>, Wild Selections<SUP>'</SUP>, Bumble Bee 
SuperFresh<SUP>'</SUP>, and in Canada under the Clover Leaf<SUP>'</SUP> 
brand.
    The healthy profile of Bumble Bee's product portfolio affords us a 
strong basis from which to support and encourage healthy consumer 
lifestyles. The health benefits of seafood are widely known and, at a 
time when the USDA is urging Americans to include more seafood in their 
diets, we are proud to offer millions of Americans healthy, nutritious 
sources of lean protein at an affordable price, while also encouraging 
them to take simple steps to live a healthier lifestyle through such 
programs as our signature Bee Well for Life<SUP>TM</SUP> program, 
designed to encourage a more holistic approach to active living and 
good nutrition, and through our participation as a founding member of 
the Healthy Weight Commitment Foundation--a first-of-kind initiative in 
the United States involving a coalition of over 140 retailers, non-
profit organizations, and food and beverage manufacturers aimed at 
reducing obesity, particularly among children, by encouraging behavior 
change and providing consumer tools in the marketplace, at work and in 
schools.
Sustainability
    As a seafood company that relies upon our oceans for a supply of 
natural resources critical to our business, it is imperative, and in 
fact inherent to our mission, that we adhere to practices and policies 
that ensure long-term sustainability of our fisheries resources that 
enable us to provide an affordable, nutritious lean source of protein 
for people today and help feed a future population expected to grow to 
9 billion by 2050.
    No single aspect is more important, or more central, to Bumble 
Bee's sustainability program than ensuring the responsible harvesting 
and management of fisheries from which we source--this is not only 
important to the environment and our consumers, but for our business as 
well. Our corporate sustainability platform, adopted in 2005, has 
become a key focal point driving internal behavior and how we conduct 
business across the globe.
    Science is at the core of our approach to fisheries management; 
independent, science-based stock assessments are a key component in 
ensuring the sourcing of sustainable seafood. We have engaged third 
party experts to assess our various fisheries to determine if they are 
being managed in a sustainable manner. Our assessments are based on the 
scientific stock assessments completed by various national and 
international research bodies. In addition to our internal efforts, 
Bumble Bee actively participates in a broad range of fishery management 
organizations. These organizations include the four Regional Fishing 
Management Organizations (RFMOs) for tuna, the New England and Mid-
Atlantic Fishery Management Councils, the National Fisheries Institute, 
and the Fishery Council of Canada. Bumble Bee is also a Food Marketing 
Institute Sustainable Seafood Working Group supplier advisor.
    In 2009, Bumble Bee became a proud founder of the International 
Seafood Sustainability Foundation (ISSF). ISSF is a global partnership 
among scientists, the World Wildlife Fund (WWF), and tuna processors 
who represent more than 75 percent of the world's shelf stable tuna 
production. This unique combination of industry, science, and 
environmental community is committed to driving positive change in tuna 
fisheries through direct action of its participants.
    The ISSF mission includes undertaking science-based initiatives for 
the long-term sustainability of tuna stocks, reducing by-catch and 
promoting ecosystem health. The strategy and focus of ISSF addresses 
the major sustainability challenges facing the global fishery through 
applied science, advocacy and direct action. Since its 2009 inception, 
ISSF and its participants have committed to a number of actions aimed 
at ensuring long-term sustainability of tuna including: agreement to 
traceability standards from capture to plate; not sourcing tuna caught 
with large scale drift nets or from IUU fishing; sourcing from boats 
with unique vessel identifiers; funding and supporting a multitude of 
sea turtle conservation projects; funding at-sea research programs to 
mitigate by-catch in purse seine fishing.
    Last, Bumble Bee became a founding member and supporter of the 
Congressional Oceans Caucus Foundation. Our purpose in joining was to 
help ensure that responsible oceans conservation and fisheries 
sustainability legislation was enacted by the U.S. Congress on issues 
that should enjoy bipartisan support.
IUU Threat to Sustainability
    IUU fishing is the greatest single threat to both our industry's 
and our Nation's efforts to promote sustainable harvest of the world's 
marine resources. Make no mistake about it, IUU fishing is a multi-
billion dollar industry fueled by the overall increase in fish prices 
and dwindling global fish stocks. The exact extent of IUU fishing 
remains unknown, but it has been estimated in recent years that 
worldwide IUU fish harvests are worth between $10 billion and $23.5 
billion annually, and represents between 11 million and 26 million 
tons.\1\ It's worth noting that the upper limit of 26 million tons of 
IUU fish is six times more fish than the entire annual catch of the 
U.S. commercial fishing industry. Some of the biggest culprits involve 
fishing vessels flagged from Asian and developing nations including 
Korea, Taiwan, China and Belize.
---------------------------------------------------------------------------
    \1\ David J. Agnew, et al., Estimating Worldwide Extent of Illegal 
Fishing, PLoS ONE, Feb. 2009 at 4.
---------------------------------------------------------------------------
    So what exactly is ``IUU fishing'' ? The term describes a range of 
fishing activities, including the failure to report or the misreporting 
of catches; fishing without the permission of a coastal nation; the 
reflagging of vessels to countries that are unable or unwilling to 
adequately control their fishing activity; and noncompliance with 
fishing gear and fishing area rules. Worldwide, the amount of IUU 
fishing has been increasing as fishermen attempt to avoid stricter 
fishing rules created to address declining fish stocks. Preventing IUU 
fishing on the high seas is extremely difficult due to the vast areas 
of ocean to monitor, enforcement resource limitations, and a high 
volume of operating fishing vessels.
    The United States has long been a global leader in effectively 
fighting IUU fishing. Domestically, we have some of the strongest laws 
aimed at curtailing IUU fishing and ensuring IUU fish do not enter our 
markets. Under the High Seas Driftnet Fishing Moratorium Protection 
Act, as amended, the United States lists nations identified as having 
vessels engaged in IUU fishing and can both deny port privileges to IUU 
vessels and prohibit the import of fish products from IUU nations. 
Additionally, the Magnuson-Stevens Act includes some of the strictest 
enforcement measures and penalties to deter U.S. fishermen from 
engaging in IUU fishing.
    At this point I would like to commend the U.S. Coast Guard, the 
National Marine Fisheries Service and their parent agency NOAA for 
doing an excellent job in enforcing our domestic laws. Through their 
diligence, they have ensured IUU fishing is not an issue within the 
United States and have done the best they can with the tools they have 
to prevent IUU fish from coming into our markets.
    Internationally, the United States has also taken a leadership 
role. Through the various RFMOs, the United States has pushed for 
stronger measures to detect and deter IUU fishing, including adoption 
of IUU vessel lists, market-related measures, vessel monitoring and 
surveillance programs and prohibiting the transfer of catch at sea. 
Unfortunately, as is the case with most international fishery 
organizations--which rely on the member nations to enforce the rules on 
their own fishermen--application and enforcement of these measures 
remains mixed at best.
H.R. 69--Title I: IUU Fishing Enforcement Act of 2013
    H.R. 69 is a bipartisan bill that amends various existing 
international fisheries statutes to simplify, streamline and strengthen 
existing enforcement protocols. The overall goal of the bill is to 
improve the capabilities of U.S. law enforcement to detect, track and 
prosecute foreign IUU fishing activity.
    Today, the United States enforces international fishery agreements 
to which we are a party under 11 or more separate fisheries statutes. 
These laws were developed over time and took divergent approaches in 
establishing enforcement protocols and penalties. Additionally, these 
statutes are not always consistent with the Magnuson-Stevens Act, the 
centerpiece of our Nation's fishery conservation and management laws. 
As a result, U.S. international fisheries enforcement efforts are 
carried out under a patchwork of different standards and authorities. 
H.R. 69 will harmonize and strengthen U.S. fisheries enforcement 
authorities and capabilities across various fisheries statutes in order 
to better combat and deter foreign IUU fishing activities. Doing this 
will also likely increase the ease and improve the efficiency with 
which the Coast Guard executes its' at-sea fisheries enforcement 
activities. This is a particularly important aspect considering the 
Coast Guard's difficult budget situation and the many missions to which 
they are tasked.
    The Senate Committee on Commerce, Science, and Transportation has 
already approved S. 269, the companion bill to H.R. 69. Our company 
actively participated in suggesting some practical changes to that bill 
to avoid potential budget scoring issues and to ensure that penalties 
were consistent with the Magnuson-Stevens Act.
    We encourage this committee to work closely with the Senate 
committee to develop a text that can pass both chambers and be signed 
into law. For the many reasons mentioned above, it's imperative that 
this legislation be enacted this year!
Title II: Implementation of the Antigua Convention
    Title II of H.R. 69 amends the Tuna Conventions Act of 1950 to 
implement the Antigua Convention. The Antigua Convention strengthens 
and replaces the 1949 Convention establishing the first ever RFMO, the 
Inter-American Tropical Tuna Commission (IATTC). The IATTC has 
competence over highly migratory species of tuna and tuna-like species 
in the Eastern Tropical Pacific Ocean. The United States and the U.S. 
tuna industry have long been a leader in the IATTC. The United States 
signed the Antigua Convention in November 2003 and the Senate gave its 
advice and consent to enter into the Convention in 2005. Although the 
Convention entered into force in 2010, the United States must still 
conform its domestic statutes before we can deposit the instrument of 
ratification and accede to the Convention. The provisions in H.R. 69 do 
this; they make the necessary changes to our domestic laws that will 
allow the United States to finally accede to this important fishery 
conservation Convention. The entire U.S. tuna industry strongly 
supports the Convention, and we encourage the committee to approve this 
legislation expeditiously.
H.R.____: A Bill to Implement the Port State Measures Agreement to 
        Prevent, Deter and Eliminate IUU Fishing
    The Port State Measures Agreement (PSMA), adopted by the United 
Nations Food and Agriculture Organization in November 2009, establishes 
the first global agreement focused on IUU fishing. The United States 
was one of the principal architects of the Agreement which is modeled 
after our own domestic IUU fishing laws. The PSMA is built on the 
simple premise that IUU fishing can be reduced and possibly eliminated 
if IUU fish can be prevented from entering global commerce, and the 
most effective way of accomplishing this is to make it extremely 
difficult for IUU fish to be offloaded in a port. In this regard, the 
PSMA establishes the first global standards to control port access from 
foreign fishing vessels that illegally engage in IUU fishing. These 
standards include mandating parties (port States) to require prior 
notice of a foreign fishing vessel's arrival in their port, restricting 
port entry and port services to foreign vessels known or suspected of 
IUU fishing, adopting minimum dockside inspection and training 
standards, and the sharing of information about IUU vessels with the 
appropriate RFMOs. Perhaps what is most critical about the PSMA is that 
it creates an obligation of the signatory nations to apply and 
implement these measures; in other words, these anti-IUU measures are 
to be enforceable, not merely aspirational. The sad truth is many 
coastal nations are simply not as rigorous in enforcing the rules as 
the United States.
    H.R.____ includes the necessary revisions to U.S. law to implement 
the PSMA. The Senate companion bill S. 267 has already been approved 
unanimously by the Senate Committee on Commerce, Science and 
Transportation and is now awaiting Floor action. Because the PSMA is 
viewed as a fisheries treaty, it requires Senate Advice and Consent. 
Encouragingly, on March 11, 2014 the Senate Committee on Foreign 
Relations passed a favorable resolution of Advice and Consent to the 
ratification of the Agreement by the President. We've been advised that 
full Senate will soon consider the Agreement and that a favorable 
outcome is expected.
    As mentioned earlier, IUU fishing is a multi-billion dollar 
industry that threatens the health and sustainability of our global 
fishery resources. Unfortunately, the IUU epidemic is spreading and 
action must be taken now before it's too late. Bumble Bee encourages 
this committee to quickly approve these two critical pieces of 
legislation, designed to prevent, deter and eliminate IUU fishing.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Kraft.
    Mr. Walsh, you are now recognized, sir, for 5 minutes.

STATEMENT OF JAMES P. ``BUD'' WALSH, DAVIS WRIGHT TREMAINE, LLP

    Mr. Walsh. Thank you, Mr. Chairman.
    My name is James Walsh, better known as ``Bud.'' I am a 
partner in the law firm of Davis Wright Tremaine, and I am a 
trial lawyer. I am a reformed Senate staffer. I came to Capitol 
Hill to work for Senator Warren Magnuson and, in fact, am 
reputed to have drafted the Magnuson Act, although the House 
members certainly do not agree with that.
    Recently my practice has involved the working end of this 
legislation, of this kind of legislation. I defend companies, 
and I am not here to speak on behalf of any client, but I have 
defended companies here in the United States charged with civil 
penalty violations, with criminal violations, and I have 
represented American companies in foreign countries.
    I have experience, and it was not a good one, in Russia, 
and so I am here to say that I think this legislation clearly 
is needed because the problem of IUU fishing is far greater 
than I think has even been stated here today because we are 
really at the limit of what we can take naturally out of the 
ocean, about 80 to 90 million metric tons.
    We are not going to get more than that, and of course, that 
is only the fish that have been accurately reported. My concern 
is that while we have tried to lead the world in making 
sustainability work, and I do not care what anybody tells you, 
it is working here very well and it has taken 40 years to get 
it going properly. Not everybody else does that, and there is 
an alignment between IUU fishing and bad government around the 
world.
    Somebody asked the question of where. West Africa, East 
Africa, Somalia, they really were fishermen before they were 
pirates, which brings me to the point about the name of the 
bill. Piracy is a universal crime. It is the equivalent of 
terrorism. Anybody can enforce it. You do not need a port State 
measure. You just need a pirate.
    And most fishery violations under customary international 
law are considered civil violations. They are not to be treated 
criminally, and we happen to be one of the reasons that that is 
in the U.N. law, the sea treaty and customary international law 
because for many years our vessels were routinely seized and 
charged criminally in situations where it was not pirate 
fishing. It was simply a disagreement over jurisdiction, and it 
was a civil violation.
    In addition, we are supposed to let any vessel leave port 
with its crew when a bond is placed, and the sad thing is even 
in some of the countries that we currently operate, they do not 
follow the same civil rules. They do not have the same 
constitutional protections of due process and of excessive 
penalties. It is no question that the provisions in both of 
these bills with regard to what powers are given to the 
government, nobody in the fishing industry is going to object 
to it because we already have it. It is already there, 
observers on every boat in many situations.
    We file reports every day. Everything that we do is looked 
at closely, but not everybody is, and the danger is that if one 
of my clients happens to go into a port State that does not 
follow the rules and is more interested in acquiring a big fine 
as opposed to really prosecuting a clear violation in order to 
get income, I am going to be concerned and we all should be 
concerned because we do follow the rules.
    And when people follow the rules, they should not be 
subjected to the kind of procedures you see in Russia where you 
can be held for 3 years without being charged with a crime. 
People do not follow the rules. So if you are going to have an 
IUU fishing bill, you should have a clear statement that people 
who engage in IUU enforcement in port States against your 
vessels or anybody else's will follow the highest standards of 
due process and the principles of international law intended to 
prevent wrongful deprivation of life, liberty and property.
    Thank you.
    [The prepared statement of M. Walsh follows:]
 Prepared Statement of James P. Walsh, Partner, Davis Wright Tremaine 
                                  LLP
    Thank you for the invitation to testify today on a subject of 
growing importance--international enforcement of regional agreements to 
conserve and manage the world's fishery resources, including those 
found outside the 200-mile jurisdiction of coastal nations and on the 
high seas. Since enactment of the Magnuson-Stevens Act in 1976, world 
trade value in fish products has increased from $8 billion per year to 
$102 billion in 2011. Despite the fact that overall world marine fish 
harvests have now leveled off at around 80 million tons per year,\1\ 
competition for those limited resources is increasing as the world 
population continues to grow and the health benefits of fish 
consumption are more generally known.
---------------------------------------------------------------------------
    \1\ 2012 U.N. World Fisheries Report, U.N. Food and Agriculture 
Organization, Rome, Italy, The vast majority of this fish is used for 
human consumption. Per capita consumption of fish is increasing most in 
developing regions and in low-income food-deficit countries, although 
consumption in developed countries is greater. Most of the fish 
consumed in developed countries (such as the United States), however, 
consists of imports, in particular from developing countries. Fish is 
one of the largest food product categories traded globally today.
---------------------------------------------------------------------------
    The United States has long pioneered creation of international 
organizations to deal collectively with the scientific management of 
international fisheries resources, which are now referred to as 
Regional Fisheries Management Organizations (RFMOs). For example, 
United States leadership led to the creation of the Inter-American 
Tropical Tuna Commission (IATTC) in 1949, one of the most successful 
RFMOs. The Senate is now considering ratification of four international 
agreements to broaden the coverage of RFMOs and strengthen enforcement 
of RFMO conservation measures, including the Port State Treaty. 
Reaffirming the importance of worldwide enforcement of RFMO 
conservation and management measures is consistent with our Nation's 
leadership in achieving science-based management, fishery 
sustainability and fair trade.\2\ But we must also be wary of 
unintended consequences of well-meaning measures.
---------------------------------------------------------------------------
    \2\ Agnew, et al., ``Estimating the Worldwide Extent of Illegal 
Fishing,'' PLoS ONE, Vol. 4, Issue 2 (February 2009). Agnew estimated 
total losses due to IUU fishing at between $10-24 billion annually.
---------------------------------------------------------------------------
    I am a partner in the law firm of Davis Wright Tremaine LLP and my 
practice focuses on advice, counseling, and litigation for commercial 
harvest and processing companies based in the United States with 
operations in the United States and other countries and on the high 
seas. However, I appear here today on my own behalf and not on behalf 
of the firm or any of its clients. I have been practicing law since 
1970, with extensive recent experience in fisheries enforcement matters 
in contested proceedings. From 1972 to 1981, I was engaged in public 
service, as Staff Counsel and later General Counsel of the U.S. Senate 
Committee on Commerce (Senator Warren Magnuson, Chairman) and then as 
Deputy Administrator of the National Oceanic and Atmospheric 
Administration (NOAA) under President Jimmy Carter.
    In summary, I believe that S. 69 should be enacted after 
modifications as suggested below are made to insure consistency, 
symmetry, and fair process. I do not see the need to enact the bill to 
implement the Port State Treaty, which has yet to be introduced. The 
United States already has sufficient legal authority with its existing 
pattern of fishery enforcement statutes to meet, and even exceed, its 
obligations under that Treaty. And the Port State Measures would not 
only be redundant and confusing, because of its broad breadth, but 
would have the effect of overriding some of the provisions in S. 69. If 
there is a gap to be filled in our current pattern of enforcement 
authorities to satisfy our obligations under the Treaty, it should be 
identified and filled with the necessary well-framed additional 
authority,
Overview Comments
    While I urge support for the basic concepts set forth in H.R. 69, 
improvements in its text before final enactment would help avoid 
unintended consequences and possible conflicts in real-life 
implementation of the concepts contained in any new law. In addition, 
we must all recognize certain realities of the global problem of what 
is called Illegal, Unregulated and Unreported (IUU) fishing activities, 
The greatest problems in IUU fishing are beyond the reach of the United 
States, particularly if we go it alone, It is estimated that, off 
Africa, illegal fishing may be 40 percent higher than reported catches. 
It has gotten so bad that the International Tribunal for Law of the Sea 
is considering a request for an advisory opinion on whether a flag 
nation should he held financially liable for IUU fishing by its vessels 
in exclusive economic zones off West Africa.
    Moreover, we must remember that we have American fishing fleets 
that are subject to enforcement by other countries which may not always 
pursue enforcement in a manner consistent with what we consider due 
process.
    It would also be a mistake to carry out a national program against 
IUU fishing that focuses on the trivial and not on the most significant 
unacceptable practices. For example, in NOAA's January 2013 Report to 
Congress on Improving International Fisheries Management, the agency 
identified Colombia as an ``IUU Fishing Nation'' on the basis of shark 
finning cases (illegal under Colombian law) for three Colombian vessels 
and three cases of discarding salt bags or trash at sea, each occurring 
in 2011 or 2012.\3\ NOAA said that ``Colombia had not yet resolved 
these cases'' so it was being identified, based on NOAA's very broad 
characterization of IUU fishing. Suffice it to say, NOAA does not 
resolve its own civil penalty cases in such a short period of time and 
it would be difficult for those not involved in such cases to determine 
their status.\4\
---------------------------------------------------------------------------
    \3\ The alleged violations were based on measures adopted in 2011 
and 2012 by the IATTC. However, the vessels in question had not been 
listed (and are still not listed) by the IATTC as IUU vessels.
    \4\ In Etheridge v. Pritzker, No. 2:12-CV-79-BO (E.D. North 
Carolina ) (decided Nov. 22, 2013), a NOAA civil penalty shark finning 
case begun in 2007 was decided by a Federal judge, who ruled that NOAA 
and an administrative law judge got the law completely wrong in 
applying the ban on shark finning and threw out the entire case after 6 
years in the NOAA enforcement system.
---------------------------------------------------------------------------
    One of the biggest problems with IUU fishing is simply defining 
what it is and what should be actionable by enforcement authorities. 
Some RFMOs have adopted resolutions to be more precise about vessels to 
be listed as IUU. See IATTC Resolution C-05-07, Resolution to Establish 
a List of Vessels Presumed to Have Carried Out IUU Fishing Activities 
in the Eastern Pacific Ocean. Yet these actions lack uniformity. There 
is no universally agreed upon definition, only broadly stated 
descriptions quite sweeping in scope.\5\ That vagueness creates the 
threat of inappropriate enforcement.
---------------------------------------------------------------------------
    \5\ Illegal fishing means harvests in violation of coastal nation 
law and measures adopted by RFMOs. Unreported fishing means harvest 
that have not been reported, or are misreported, to management 
authorities. Unregulated fishing means activity by stateless vessels or 
vessels operating under flags of convenience where the flag country 
ignores what is going on. ``Closing the Net: Stopping Illegal Fishing 
on the High Seas,'' Final Report of the Ministerally-led Task Force on 
IUU Fishing on the High Seas (2006), at 14-15.
---------------------------------------------------------------------------
    Here are a few considerations that should be kept in mind when 
considering this new legislation:
    First, the United States currently has sufficient laws on the books 
to deal with IUU fishing as it relates to our own fisheries, imports 
into the United States, and exports from the United States. In fact, it 
can be said that the U.S. commercial fisheries business is the most 
highly regulated in the world and the U.S. laws the most strict. The 
Nicholson Act, 46 U.S.C. Sec. 55114, enacted in 1950, prohibits a 
foreign-flag vessel from landing any fish caught on the high seas, or 
any product made from that fish, in a port of the United States, unless 
authorized by treaty. Any such fish or product is subject to forfeiture 
by the Department of Homeland Security and any trader in the United 
States is liable for a $1,000 fine.
    So fish from any high seas fishing activity by a foreign-flag 
vessel cannot now enter the United States at all, unless there is a 
treaty in place that allows landings.\6\ The only exceptions are ports 
in American Samoa, Guam, and the Virgin Islands. Thus, foreign fishing 
vessels may enter only a few American ports. A National Plan of Action 
with respect to IUU fishing, prepared by the State Department, NOAA, 
the Coast Guard, the Fish and Wildlife Service, and the U.S. Customs 
Service nearly 10 years ago concluded that, because of that fact, ``it 
may not be necessary for the United States to establish a `national' 
strategy and procedures for Port State Control in this context.'' 
National Plan, at 24.\7\
---------------------------------------------------------------------------
    \6\ The U.S.-Canada Albacore Treaty allowed such landings, but it 
is being terminated.
    \7\ The Appendix listing the existing U.S. laws that could be 
applied to the identified problem of IUU fishing is attached for your 
reference.
---------------------------------------------------------------------------
    The most important statute is the Lacey Act, 16 U.S.C. Sec. 3371 et 
seq., which other countries believe should be emulated in their 
domestic laws to address IUU fishing.\8\ Among other things, the Lacey 
Act makes it illegal to import fish or fish products into the United 
States that were caught or produced in violation of any foreign law. 
Perhaps the best example of its use to prevent IUU fishing is the case 
of U.S. v. Bengis, 631 F.3d 33 (2nd Cir. 2011). Mr. Bengis, a U.S. 
citizen, and his colleagues operated for years an illicit harvest and 
export operation from South Africa taking rock lobsters in violation of 
that country's laws, as well as Chilean sea bass caught elsewhere, and 
exporting them to the United States. In 2004, Mr. Bengis pleaded guilty 
to a criminal conspiracy to import nearly $90 million in IUU fish into 
the United States and forfeited $13 million to the United States. The 
Second Circuit Court of Appeals also ordered Mr. Bengis to pay 
restitution to the South African Government for loss of the 
lobsters.\9\ The government was seeking nearly $40 million in 
restitution. The Lacey Act has been used to interdict salmon unlawfully 
harvested in the high seas, illicit king crab from Russia, and spiny 
lobsters from Honduras.
---------------------------------------------------------------------------
    \8\ Congress, however, has specified that the Lacey Act does not 
apply to fishery activities regulated under the Magnuson-Stevens Act or 
certain tuna conventions. 16 U.S.C. Sec. 3377.
    \9\ See Meyer, ``Restitution and the Lacey Act: New Solutions, Old 
Remedies,'' 93 Cornell L.R. 849 (2008).
---------------------------------------------------------------------------
    Second, responsible U.S. fishing industry participants are moving 
to address IUU fishing through the marketplace, given the limits and 
inefficiencies of command-and-control government regulatory systems in 
many countries around the world. A good example is the International 
Seafood Sustainability Foundation (ISSF), a non-governmental 
organization that focuses on the sustainability of the global tuna 
market. ISSF, comprised of scientists, tuna company officials, and 
representatives of environmental groups, develops best practices and 
policies to address a wide range of sustainability issues, including 
IUU fishing. Recently, ISSF published a paper outlining the steps 
needed to improve compliance in tuna RFMOs, a challenging subject.\10\ 
As of the first of this year, ISSF member companies will not engage in 
transactions with purse seine vessels unless their flag nation is in 
substantial compliance with RFMO obligations. In effect, the industry 
is in the front line carrying out tuna RFMO conservation measures.
---------------------------------------------------------------------------
    \10\ Koehler, Promoting Compliance in Tuna RFMOs: A Comprehensive 
Baseline Survey of Current Mechanics of Reviewing, Assessing, and 
Addressing Compliance with RFMO Obligations and Measures, ISSF 
Technical Report 2013-2.
---------------------------------------------------------------------------
    The National Fisheries Institute has developed an implementation 
guide for applying traceability standards in the U.S. seafood supply 
chain, beginning with the catching vessel to the table. Finally, 
labeling standards, such as ``Dolphin-Safe'' and those provided by the 
Marine Stewardship Council and others, also create incentives to 
conduct responsible fishing operations or else the product may not be 
allowed into the marketplace.
    The private Sector has a very key role to play here and steps are 
being taken to address a problem that impacts the entire market, given 
the problem of governance capacity in many countries with fishery 
resources that are exported to world markets.
    Third, addressing and eliminating IUU fishing requires a 
sophisticated management and regulatory system, with strong scientific 
support. It also requires an enforcement system that respects due 
process and civil rights. Unfortunately, the capacity to create and 
maintain the kind of regulatory system that exists here in the United 
States is limited by the political will and wealth of a particular 
country and is not currently prevalent in many developing countries. 
Some countries do not even maintain a searchable online library of 
their fishing laws and regulations. A July 2005 Report on IUU Fishing 
and Developing Countries by the Marine Resources Assessment Group Ltd. 
concluded that its ``analysis uncovered a striking relationship between 
the level of governance of a country and its vulnerability to IUU.'' 
Consequently, there is a danger that a country with weak governance, 
once given the authority set forth in the Port State Treaty, will use 
that authority to inspect and fine vessels for its own narrow purposes, 
i.e. to increase income or protect home-base competitors.
    Fourth, H.R. 69, if enacted, would add a new general enforcement 
provision to the Magnuson-Stevens Act \11\ that, in effect, 
incorporates the civil penalties, permit sanctions, criminal offenses, 
civil forfeitures, and enforcement provisions of that law (16 U.S.C. 
Sec. Sec. 308-311) into nine other resource management statutes, 
presumably as a substitute for the comparable provisions of those 
statutes. If this is the intent, this would have the effect, among 
other things of setting the maximum civil penalty that can be assessed 
under those nine statutes at the current maximum in the Magnuson-
Stevens Act of $140,000 per violation. As a result, the enforcement 
provisions and penalty amount would be similar across all statutes, a 
welcome development given the patch-work nature of the enforcement 
provisions in those statutes. This would mean that similar 
transgressions under each law would be treated similarly, an important 
improvement in fairness.
---------------------------------------------------------------------------
    \11\ Technically, the amendments are to the High Seas Driftnet 
Fishing Moratorium Protection Act, which has been codified as part of 
the Magnuson-Stevens Act at 16 U.S.C. Sec. 1826a-k. Perhaps the 
committee might examine a more straight-forward drafting approach, 
rather than using the High Seas Act, to create a single enforcement 
regime for all fishery conservation statutes, based on the provisions 
in the Magnuson-Stevens Act.
---------------------------------------------------------------------------
    Finally, given that the Magnuson-Stevens Act would become the 
central mechanism to enforce alleged violations of all these statutes, 
now may also be a good time to amend the Magnuson-Stevens Act 
enforcement and penalty provisions to incorporate into law the recent 
program changes instituted by NOAA in its enforcement program and to 
improve the fairness of its civil penalty, permit sanction, and civil 
forfeiture programs. H.R. 69 gives the United States the opportunity to 
reinforce its commitment to fair and equitable law enforcement and to 
provide leadership to other countries for improving their enforcement 
programs, particularly given the new authority in the Port State Treaty 
to inspect foreign-flag vessels, including vessels flying the U.S. 
flag. The suggested changes deal with the statute of limitations, 
hearing procedure and application of rules of evidence, and setting 
forth the factors to be considered in settling a penalty amount, and 
are discussed below.
H.R.____, the Pirate Fishing Elimination Act
    This bill would implement the Port State Treaty and create a new, 
separate regulatory and enforcement regime to address IUU fishing of 
almost any kind, trivial or destructive, accidental or intentional 
through authorities in ``Port'' States to enforce fishing laws in much 
the same as the Lacey Act operates, with a whole new set of enforcement 
tools and penalty amounts. It is clear, however, that the drafting of 
this bill was not undertaken in a manner that considers the Lacey Act 
and the Nicholson Act, or even the provisions in H.R. 69. For example, 
even though H.R. 69 can be read to limit civil penalties to no more 
than $140,000 per violation, the Port State bill has a separate section 
on civil penalties, which are increased to $250,000 for each violation, 
even for acts in violation of one of the statutes implementing RFMO 
measures (which may be limited to no more than $140,000 per 
violation).\12\ The Port State Measure is drafted to apply to any 
person subject to the jurisdiction of the United States (Sec. 4(a)(3)) 
and covers any activity considered IUU fishing under the sweeping 
definition if it is in violation of any law or regulation in Sec. 
3(10). As a consequence, if enacted, this bill will cause confusion and 
duplication and will trump the enforcement provisions in all other 
fishery regulatory statutes.
---------------------------------------------------------------------------
    \12\ The existing suite of U.S. enforcement laws, and existing 
penalties, has worked in bringing U.S. fisheries to sustainability. See 
Daniel Pauly, Op. Ed., New York Times, March 26, 2014 (Fishing grounds 
off the United States are being replenished, owing to the passage in 
1976 of the Magnuson-Stevens Act). It is hard to understand, therefore, 
why increasing the amount of civil penalties with respect to domestic 
U.S. fishing operations will do anything to address IUU fishing off 
West Africa in where our vessels do not fish.
---------------------------------------------------------------------------
    Here are some further particular concerns:

    Title: The title, though catchy in our Internet world, is not 
accurate with respect to the international legal definition of what 
constitutes piracy. Given the broad sweep of the bill, some Members of 
Congress might be surprised to learn that the definition of pirate 
fishing would apply to their fishing industry constituents who 
misreported their catch to the National Marine Fisheries Service by 
even 1 percent, even if in error, given the strict liability nature of 
civil penalties under the Magnuson-Stevens Act. Such a transgression 
would be fishing activity in contravention of the laws of a nation in 
waters subject to that nation's jurisdiction, within the meaning of the 
IUU definition in the Port State Measure, and therefore are covered 
under the Pirate Fishing Elimination Act.
    Calling every fishing transgression piracy is unnecessarily over 
the top, to say the least, and also legally inaccurate. The definition 
of piracy is carefully drafted in Article 101 of U.N. Convention on the 
Law of the Sea and that provision is considered binding international 
law by the United States. It does not cover ordinary fishing 
violations. In addition, the Law of the Sea Convention states, in 
Article 73.2, that coastal State penalties for violations of fisheries 
laws and regulations in the exclusive economic zone may not include 
imprisonment, in the absence of agreements to the contrary. So calling 
all fishing violations piracy simply does not comport with customary 
international law and is needless hyperbole.

    Definition of IUU Fishing: What is most troubling is the definition 
of IUU fishing, to include anything and everything in the kitchen sink, 
not just the more severe, repetitive or criminal behavior. The bill 
would make a U.S. fishing vessel subject to inspection and sanction for 
any alleged violation of law of any kind, even exclusive U.S. rules of 
the most trivial nature, if it offloads in a foreign port. All that is 
needed is an allegation that enforcement officials in that country have 
``reasonable grounds'' to believe a violation covered by the Port State 
Treaty and the broad definition of IUU fishing has occurred.\13\ I am 
familiar with many of the countries in the Pacific where U.S. vessels 
occasionally land their fish, and their legal procedures are not always 
conducive to easy resolution of allegations of fishing violations, even 
if the allegations are clearly false,
---------------------------------------------------------------------------
    \13\ The Port State Treaty does not contain an internal definition 
of IUU fishing, but instead refers to ``activities set out in paragraph 
3 of the 2001 FAO International Plan of Action to Prevent, Deter and 
Eliminate IUU Fishing.'' That definition is as broad as in the Port 
State Measure, but goes on with an even more expansive gloss on this 
broad intent and includes activities which are not even illicit.

    Enforcement of RFMO Conservation Measures: The United States 
generally has existing legal authority to enforce conservation and 
management measures adopted by RFMOs and agreed to by the United 
States. For instance, H.R. 69, at Sec. 101, references the domestic 
statute implementing the Western and Central Pacific Fisheries 
Convention (16 U.S.C. Sec. 6901 et seq.). That statute authorizes 
rulemaking, enforcement, and penalty assessment for the tuna RFMO in 
that region with respect to U.S. vessels. Should any non-U.S. fishing 
vessels participating in that fishery call at American Samoa or Guam, 
the Lacey Act could be applied to sanction a clearly established 
violation of an RFMO conservation measure. Yet the Port State Measure 
would create an entirely new set of measures that are mostly 
duplicative and/or contradictory in comparison to our existing laws and 
---------------------------------------------------------------------------
the terms of H.R. 69.

    The Enforcement Provisions: It makes no sense to create a whole new 
set of enforcement provisions (with higher limits on penalties) in a 
new statute when the comprehensive enforcement provisions of the 
Magnuson-Stevens Act could be referenced, as in H.R. 69. The 
enforcement provisions of the Magnuson-Stevens Act can very easily form 
the basis for enforcing restrictions on IUU fishing as well.
H.R. 69, the Illegal, Unreported and Unregulated Fishing Enforcement 
        Act
    In General: This bill would be a welcome addition, because it makes 
enforcement provisions in several marine resource management statutes, 
some of which implement RFMO conservation measures, closely comparable. 
U.S. fisheries industry is highly regulated and understands the need 
for inspections, subpoenas, and enforcement generally (see the new 
section 606(d) on SPECIAL RULES), so long as it is fair. The expanded 
authorities provided in H.R. 69 are features of law enforcement which 
the U.S. industry has come to understand and accept, again if applied 
fairly. Using the enforcement provisions of the Magnuson-Stevens Act 
(see the new section 606(d) on ADMINISTRATION AND ENFORCEMENT) as the 
basis for enforcement actions under all referenced statutes is a good 
development from earlier drafts of this bill. And all penalties to be 
issued should be set at the same maximum as in the Magnuson-Stevens 
Act. Having a single set of comprehensive enforcement provisions that 
apply across all relevant fishery management statutes will be an 
improvement from the hodge-podge nature of the existing collection of 
statutes.
    With respect to the Antigua Convention Implementation Act, I am not 
aware of any opposition to the Antigua provisions in H.R. 69, as many 
of them are already being implemented with respect to the IATTC.

    IUU Lists: It is not difficult to find lists of vessels that are 
considered IUU by certain RFMOs, which mostly focus on State-less 
vessels or really bad actors. In some countries, issuing documentation 
to fishing vessels is a source of income and that is all, 
unfortunately. These vessels then compete with more highly regulated 
vessels from responsible nations. One hopes that global awareness will 
stop this kind of activity. U.S. vessels need support from our 
government in light of competition from less regulated vessels from 
less responsible nations.
    With regard to such lists and to our own country's listing of IUU 
countries, I would recommend that the focus not be on the trivial but 
on the most egregious violations. Creating a program of hounding 
countries over minor transgressions, or slow procedures, is not likely 
to create much respect. Worse, this practice could end up harming U.S. 
vessels given that turnabout is fair play with regard to U.S. vessels 
fishing in other countries' waters.

    Disclosure of Enforcement Information: One provision in H.R. 69 
addresses the question of sharing enforcement information obtained by 
the Secretary of Commerce with international organizations, including 
RFMOs. In this regard, I had assumed that that authority already 
existed but if not, so long as proper protections are in place similar 
to our Freedom of Information Act or the confidentiality provisions of 
the Magnuson-Stevens Act, such new statutory authority might be needed. 
But it should be also aimed at obtaining enforcement information from 
other countries, i.e. the Secretary of Commerce should be seeking 
enforcement information from other countries to determine if any 
enforcement of RFMO conservation measures is occurring. In addition, 
this raises the question of whether observer reports should be made 
available to U.S. fishing vessels captains and vessel owners for 
comment at the end of a fishing trip. Although certain RFMOs allow this 
practice, such as the IATTC (with U.S. consent), NOAA is resisting such 
disclosures in the western Pacific, until years later in an enforcement 
proceeding. Perhaps this issue can be clarified in H.R. 69.

    Improvement of NOAA's Civil Penalty Procedures: Finally, it may be 
appropriate for the committee, as part of H.R. 69, to include 
amendments to the Magnuson-Stevens Act enforcement provisions to 
provide greater balance to the NOAA enforcement program, which has been 
recently criticized by a Federal judge for over-enforcement in New 
England. Including the agency changes in legislation, along with other 
changes to make the NOAA process more like the penalty process followed 
by the Environmental Protection Agency, would be a useful way of 
confirming the U.S. leadership in pursuing fishing sanctions in a fair 
and even-handed manner, based on the rule of law. Therefore, I refer 
the committee to my letter of January 31, 2014 which discussed in 
greater depth than appropriate here the legislative changes I have 
suggested, based on my years of experience in defending civil penalty 
cases. More can be done to make the NOAA penalty process fair, such as 
by requiring the use of the Federal Rules of Evidence and reducing the 
statute of limitations from 5 to 3 years, among other changes,
    In summary, Mr. Chairman, I support enactment of H.R. 69, with the 
modifications I have discussed above. I do not think a case has been 
made for enacting the Port State Measure, as it is duplicative of what 
this Nation already has on the statute books and would conflict with 
existing law in numerous respects, in addition to being inconsistent in 
several respects with H.R. 69. If additional authority is needed, 
precise provisions could be drafted to target any gaps in the law.
    Thank you for the opportunity to testify here today.

                                 ______
                                 

    Letter Submitted for the Record by James P. Walsh, Davis Wright 
                              Tremaine LLP
                         Davis Wright Tremaine LLP,
                                         San Francisco, CA,
                                                  January 31, 2014.
Hon. Doc Hastings, Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

Hon. Mark Begich, Chairman,
Senate Subcommittee on Oceans, Atmosphere, Fisheries and Coast Guard,
Washington, DC 20510.

Re: Magnuson-Stevens Fishery Conservation and Management Act 
        Reauthorization: Enforcement Issues

    Dear Chairman Hastings and Begich:

    Your committees are now deep in the process of examining the 
current status of implementation of this Nation's primary law for the 
management and conservation of marine fisheries resources, the 
Magnuson-Stevens Fishery Conservation and Management Act (the 
``Magnuson-Stevens Act''), and possible amendments to that law. One of 
the subjects that does not always get in-depth consideration in the 
periodic congressional examination of the Magnuson-Stevens Act is the 
issue of enforcement. In this letter, I wish to offer some suggestions 
for amendments to the Magnuson-Stevens Act that will improve its 
functioning, rebalance the relationship between the regulated community 
and National Oceanic and Atmospheric Administration (NOAA or agency) 
enforcers more appropriately, strengthen procedural protections 
consistent with current practices, encourage greater accountability, 
and create greater consistency during enforcement hearing proceedings. 
These views are mine alone and do not necessarily reflect the views of 
any client or the firm.
    Those who follow these issues closely are aware of the unfortunate 
recent experiences in the enforcement of the Magnuson-Stevens Act in 
New England that led to the unprecedented refund of large civil 
penalties.\1\ Administrator reforms in NOAA's enforcement program, 
termination of the contract for use of Administrative Law Judges (ALJs) 
from the U.S. Coast Guard and hiring of ALJs from the Environmental 
Protection Agency (EPA), greater national oversight and guidance with 
regard to enforcement decisions, and (hopefully) a much better 
accounting and use of the funds recovered from penalties have recently 
been instituted by the agency. While these changes have improved the 
enforcement program to some degree, they come as the result of 
discretionary actions by the agency and have not been institutionalized 
through clear legislative guidance. A return to the old ways is always 
possible and other legislative improvements could strengthen and codify 
the reforms already begun by the agency. Therefore, I recommend some 
modest changes to the Magnuson-Stevens Act civil penalty, permit 
sanctions, and civil forfeiture provisions to affirm by statute needed 
reforms in the enforcement program. It is critically important that the 
enforcement system be focused not just on results but the integrity of 
those results as well as the process that produces those results. This 
letter and the attached set of suggested amendments explains those 
recommendations.
---------------------------------------------------------------------------
    \1\ See Hon. Charles B. Swartwood, III (ret.), Special Master, 
Report and Recommendation of the Special Master Concerning NOAA 
Enforcement Action of Certain Designated Cases, April 2011.
---------------------------------------------------------------------------
    In addition, there are other bills before Congress that should be 
reviewed in the context of the Magnuson-Stevens Act enforcement 
provisions and other U.S. laws, such as the Lacey Act (18 U.S.C. 
Sec. Sec. 3371-3378) and the Nicholson Act (46 U.S.C. Sec. 55114), to 
ensure consistency of congressional guidance and policy and to avoid 
unintended consequences for U.S. fishing fleets and processors who 
operate through the world and in the global marketplace. These bills 
were drafted by the Executive Branch and sent to Congress for enactment 
and include: (1) H.R. 69, the ``Illegal, Unreported and Unregulated 
Fishing Enforcement Act of 2013'' (pending in the committee); (2) S. 
267, the ``Pirate Fishing Elimination Act'' (pending on the Senate 
Floor); and (3) S. 269, the ``International Fisheries Stewardship and 
Enforcement Act'' (also pending on the Senate Floor). The latter bill 
is significant in that it expands enforcement authority generally for a 
wide range of U.S. fisheries laws and essentially would graft the 
enforcement provisions of the Magnuson-Stevens Act (16 U.S.C. 
Sec. Sec. 1858-1861) into those laws as the primary enforcement 
mechanism. The other two bills address the issue of ``Illegal, 
Unreported and Unregulated Fishing'' (so-called IUU Fishing) in the 
international context. It may make sense for the various enforcement 
provisions of U.S. marine resource statutes to reflect commonality and 
symmetry because, without those features, unnecessary confusion and 
litigation will result for the government and for the regulated 
industry because of the law of unintended consequences.
                      magnuson-stevens act changes
    It is essential that a successful regulatory regime for achieving 
and maintaining sustainable fisheries under the Magnuson-Stevens Act 
and other laws include a credible and even-handed enforcement system 
that commands respect. Given the extent and complexity of marine 
resource activities in the United States, enforcement will primarily 
rely upon voluntary compliance, with active enforcement efforts 
directed at the clear outliers in the system. As was learned in New 
England, over-enforcement (including overcharging and excessive 
penalties) will lead to widespread disrespect for the government's 
enforcement efforts generally. Moreover, the appearance of favoritism 
for the agency in administrative proceedings, such as procedures that 
give the agency more power in the dispute process (i.e. thereby forcing 
settlements favorable to the agency) or an ALJ decision that favors the 
agency because the evidence was not weighed properly or fairly,\2\ will 
breed cynicism and anger. Although law enforcement, and the assessment 
of penalties and other sanctions generally, is inherently an executive 
function, the conduct of the enforcement system is, and must be, 
subject to legislative and constitutional guidance and restraint. 
Legislative and constitutional guidance is essential to assure that the 
enforcement program results in neither under-enforcement nor over-
enforcement and is perceived as fair and impartial with respect to 
charged parties. The source of some of this guidance can be found in 
the Administrative Procedure Act (APA), 5 U.S.C. Sec. Sec. 554-556, and 
the due process and excessive fines provisions of the U.S. 
Constitution. But provisions in particular statutes, such as the 
Magnuson-Stevens Act, can sharpen this general guidance, particularly 
where, as here, improper enforcement practices have not always been 
restrained by the broad legal concepts found in the APA and the 
Constitution. The devil's always in the details. Our Federal Court 
system is constantly changing and improving rules of evidence and 
procedure. The administrative civil penalty process, in contrast, gets 
very little oversight and is rarely subject to much change. As Supreme 
Court Justice Stephen Breyer has said: ``Who is going to regulate the 
regulators?'' \3\
---------------------------------------------------------------------------
    \2\ The most recent example can be found in Willie Etheridge, III 
v. Penny Pritzker, Case No. 2:12-CV-79-BO, (E.D. North Carolina) (Judge 
Terrence W. Boyle) (decided November 22, 2013), where a Federal 
District Court judge ruled that an ALJ and agency penalty decision with 
respect to shark finning was not consistent with applicable law and 
arbitrary and capricious. This case also highlights another problem 
with the NOAA civil penalty system: inordinate delay in resolving 
charges. In that case, the Notice of Violation and Assessment (NOVA) 
was first sent in April 2006 and the Federal Court decision on review 
was issued over 7 years later in 2013.
    \3\ A law review article by Howard A. Shelanski, ``Justice Breyer, 
Professor Kahn, and Antitrust Enforcement in Regulated Industries,'' 
100 Cal. L. R. 487-517 (2013), summarizes a ``number of challenges'' in 
using regulations, including high cost, ineffectiveness and waste, 
procedural unfairness, complexity, delay, unresponsiveness to 
democratic control, and the inherent unpredictability of the end result 
(at 487).
---------------------------------------------------------------------------
1. Changes to the Civil Penalty/Permit Sanctions Provisions (16 U.S.C. 
        Sec. 1858)
    The primary, or most used, mechanism of fisheries enforcement is 
the civil penalty, a civil (not a criminal) fine not to exceed $140,000 
\4\ for a particular act in violation of a statute or regulation, such 
as a limit on the amount of catch or a ban on fishing in a particular 
area. In fact, the type of potential violations is seemingly endless as 
extensive and complex regulations have been issued throughout the 
country by NOAA since enactment of the Magnuson-Stevens Act in 1976. 
The extent and complexity of fishery management regulations (which 
sometimes change every year or even every few months) is without doubt 
a major problem for regulated parties and this complexity (and poor 
drafting) can result in unexpected and unintended violations.
---------------------------------------------------------------------------
    \4\ The current statutory language lists the maximum penalty as 
$100,000, However, a general inflation penalty statute (the Federal 
Civil Penalties Inflation Adjustment Act of 1990) allows the agency to 
increase this maximum by regulation. Currently, the maximum penalty 
under the Magnuson-Stevens Act is $140,000. 15 C.F.R. Sec. 6.4 (77 Fed. 
Reg. 72915-72917; Dec. 7, 2012).
---------------------------------------------------------------------------
    Civil penalties are considered strict liability offenses, meaning a 
violation can occur regardless of whether the charged party was 
negligent or intentional in carrying out a particular act, or failure 
to act, or knew that a potential violation was possible. If an alleged 
violator wishes to challenge a penalty assessed by NOAA in a Notice of 
Violation and Assessment (NOVA) and it cannot otherwise be settled, a 
formal trial-type hearing must be requested before an ALJ. Such 
hearings, particularly in larger, more complex cases, can be expensive 
and lengthy.
    To address some of the issues raised by various regulated parties 
with respect to the fairness (or perceived fairness) of the 
administrative process for determining liability for and amount of a 
civil penalty, the following changes to the Magnuson-Stevens Act should 
be considered:

    Statute of Limitations: There is a general statute of limitations 
for the filing of civil penalty charges by the Federal Government in 28 
U.S.C. Sec. 2462. Under this law, unless otherwise provided in a 
particular statute (such as the Magnuson-Stevens Act), an action to 
enforce a civil penalty must be undertaken no later than 5 years after 
the alleged violation ``accrued'' or occurred, Congress can and often 
does adopt a different statute of limitations, which is purely a policy 
choice for the legislature. For example, the Internal Revenue Service 
generally has 3 years from the filing of a return to act against a 
taxpayer with respect to audit and payment of additional tax, with 
certain exceptions (such as fraud). 26 U.S.C. Sec. 6501. Given the 
considerable ability of NOAA to collect information through documents 
easily managed in modern computer systems and to require reports and 
observers, it would be more appropriate to have a 3-year statute of 
limitation for Magnuson-Stevens Act civil penalty enforcement actions. 
In addition, fishery management laws continuously change and an alleged 
violation 5 years ago may not reflect the current regulatory system. 
Moreover, a longer statute of limitations favors the government because 
evidence becomes stale and memories fade. Finally, if NOAA has a solid 
case to make, it should do so with greater diligence rather than 
waiting 5 years. A shorter statute of limitations will focus NOAA on 
the most important or egregious cases, the ones critical to 
establishing a culture of cooperation and compliance with currently 
applicable regulations. A similar statute of limitations should also 
apply to permit sanctions under subsection (g) of 16 U.S.C. Sec. 1858 
and to forfeiture actions under 16 U.S.C. Sec. 1860.

    Participation of Management; Establishment of Policy: The decision 
to bring a civil penalty action is as much a judgment call as it is a 
question of law or fact. Why bring this particular case? How does it 
send a signal about the importance of an aspect of fishery management 
and conservation to those being regulated? What message is there in the 
size of the penalty? At the moment, these questions are answered 
exclusively by attorneys within the enforcement section of NOAA's 
Office of General Counsel and no affirmation of their unilateral 
conclusions is sought from the management side of the agency--for 
example, from those who actually approved and implemented the fishery 
management regulations in the first place. In effect, NOAA enforcement 
attorneys are acting without a real client. A lifetime of prosecuting 
perceived ``bad guys'' can create tunnel vision that leads to poor 
enforcement decisions, as appears to have happened in New England 
according to Judge Swartwood.
    To address this issue, changes to the Magnuson-Stevens Act 
applicable to civil penalty, permits sanction and forfeiture actions 
can be inserted to require that the client (NOAA fishery management 
program officials) approve an enforcement action before it is filed. 
The process of explaining why a particular case needs to be brought to 
the ``client'' will serve as a check and balance on narrow individual 
judgment calls. In addition, it should state in the law that the 
primary purpose of any enforcement action is to achieve compliance with 
fishery management goals and that enforcement should not be used solely 
to generate income to NOAA.

    Procedural Issues: In any legal proceeding, procedural rules, or 
the rules of the game, are critical to a fair and balanced outcome. 
NOAA civil penalty procedural rules are largely the product of the 
lawyers who prosecute the cases, not the wide range of viewpoints that 
helped develop and implement the Federal Rules of Civil Procedure. NOAA 
enforcement lawyers, once a NOVA is filed, are primarily interested in 
winning for career reasons and have a lesser interest in making sure 
that the outcome is balanced and fair. A good example is the manner in 
which the agency for years presented its ``evidence'' as to the amount 
of the penalty that is assessed. The ALJ had to accept the amount of 
the recommended penalty by the prosecuting NOAA attorney and could not 
order discovery of the basis for the amount recommended, a practice 
inconsistent with the APA and the U.S. Constitution. NOAA jettisoned 
this unfair procedure by regulation only in 2010, after following the 
practice for years. 75 Fed. Reg. 35631-35632; June 23, 2010.
    Other important issues in the NOAA procedural regulations require 
similar attention. First, outcomes will be unpredictable where the 
well-understood Federal Rules of Evidence do not apply to the 
proceeding as with NOAA's procedural rules. The general statement as to 
what evidence is admissible--relevant, reliable, and probative, but not 
unduly repetitious or cumulative--is quite broad. But NOAA's rules also 
state that ``formal rules of evidence do not necessarily apply'' and 
that ``hearsay evidence is not inadmissible as such,'' 15 C.F.R. 
Sec. 904.251. This language, of course begs the question: what rules of 
evidence do apply to a particular issue, for example, the presentation 
of an expert witness or whether a fact witness must have personal 
knowledge before being allow to testify? Another example: should 
someone be allowed to testify on the issue of the value of a catch who 
simply does an Internet search and makes a few phone calls but has no 
knowledge of actual current prices paid in a fishery? In short, the 
current rules leave it up to the ALJ to decide how to handle such 
evidentiary issues without any firm guidance on how to make these 
critical evidentiary decisions. As a result, the chance of an arbitrary 
ruling is greatly increased. In contrast, other agencies have addressed 
the issue by also making the Federal Rules of Evidence applicable, 
unless there is some definitive reason for not using them. In my view, 
this formulation brings better structure and predictability to the 
hearing process. Thus, an amendment to the Magnuson-Stevens Act should 
state the proper evidentiary standard and require the use of the 
Federal Rules of Evidence unless there is a clear reason for not doing 
so. These Rules work very well in Federal Courts throughout the 
country.
    Second, NOAA's current procedural rules would benefit from 
reformulation through notice and comment and I recommend that Congress 
direct the agency to begin a new rulemaking. The existing procedural 
rules could use a clear restatement of the generally applicable 
principles, such as burden of proof and the requirement that the ALJ be 
fair and impartial, not simply act as an adjunct to the enforcement 
program. A Federal Appeals Court has ruled that, where an ALJ undertook 
the agency's prosecutorial function and developed evidence against a 
defendant, he overstepped the permissible scope of his duties. N.L.R.B. 
v. Tamper, Inc., 522 F.2d 781, 790 (4th Cir. 1975). If the respondent 
in a NOAA civil penalty hearing is represented by counsel, as the 
agency also is, the ALJ's job is always to act as a neutral trier of 
fact and not help the government meet its burden of proof by 
unilaterally building a ``complete'' record for review. See also, 
Goldberg v. Kelly, 397 U.S. 254, 271 (1970) (an impartial decisionmaker 
is essential to due process in administrative adjudicatory 
proceedings); Butz v. Economu, 438 U.S. 478, 513-517 (1978) 
(contrasting the role of an independent, impartial ALJ with that of 
agency counsel, who function like prosecutors). Incorporating these 
concepts into NOAA's procedural regulations is timely and appropriate. 
Thus, I recommend a new statutory provision that directs NOAA to begin 
a new civil procedure rulemaking within 6 months of any new amendments 
to the Magnuson-Stevens Act. NOAA would do well to look to the 
administrative penalty rules followed by the EPA, 40 C.F.R. Part 22, 
particularly now that EPA ALJs serve NOAA as well. Those rules 
repetitively emphasize the obligation of an ALJ to provide an 
efficient, fair and impartial adjudication. No comparable language is 
found in the NOAA procedural rules.

    Legal Constraints: One of the constraints on ALJ authority in the 
NOAA procedural regulations is the inability to rule on important legal 
questions that may come up regarding whether a particular regulation is 
constitutional or otherwise legally valid. 15 C.F.R. Sec. 904.200(b). 
It seems logical and efficient that an ALJ consider these kinds of 
seminal legal issues when reviewing the facts of the case under 
applicable law. I could find no basis for this rule in the APA for such 
a limitation of power, although NOAA probably has the power to create 
the limitation. But this limitation forces a charged party to go to 
hearing even where it may be legally obvious that the regulation has no 
basis in the law, then to challenge the issue in an appeal to the NOAA 
Administrator or a Federal Court after an Initial Decision by an ALJ. 
An ALJ should be able to rule that the agency's regulations, as drafted 
or as applied, are unlawful. Providing this authority could lead to 
early settlements where the agency has made a mistake of law. Giving 
such authority to the ALJ also enables the charged party to develop a 
record for possible NOAA Administrator and/or court review. I recommend 
that Congress request that NOAA amend its procedural regulations to 
eliminate this restriction. No such restriction can be found in the 
list of powers of an ALJ under the EPA administrative penalty rules. 
See, 40 C.F.R. Sec. 22.4(c). Under those rules, an ALJ may ``adjudicate 
all issues.''

    Penalty Considerations: The Magnuson-Stevens Act contains a list of 
factors to be considered when determining the amount of a penalty. One 
of the factors that should be added is the complexity and clarity of 
the application regulations, which can be a real-life problem as was 
evident in the New England cases and others.
2. Changes to the Civil Forfeiture Provision (16 U.S.C. Sec. 1858)
    The United States substantially reformed all civil forfeiture laws 
by enactment of the Civil Asset Forfeiture Reform Act of 2000, amending 
various provisions of titles 18 and 28, United States Code, among 
others. One major reason for reform was the extensive misuse of civil 
forfeiture laws to raise money for enforcement agencies. This law has 
both procedural and substantive restraints on civil forfeiture actions, 
including providing for an innocent owner defense, legal fees against 
the government for wrongful seizure, and a bar on any forfeiture that 
is grossly disproportional to the gravity of the offense. The Magnuson-
Stevens Act has a general civil forfeiture provision--for vessels, 
fishing gear, cargo, and fish--that is presumably subject to this law 
to some extent, although NOAA's civil procedures rules do not make this 
clear. The Magnuson-Stevens Act forfeiture provision authorizes seizure 
by the Attorney General in a Federal District Court and states that the 
``customs laws'' apply to these judicial forfeitures after a judgment 
in court. NOAA's rules also provide for administrative forfeiture of 
property worth $500,000 or less, although it is unclear from where the 
authority is derived.
    The Magnuson-Stevens Act should be amended to direct NOAA to 
conform its rules and practices to requirements and restrictions of the 
Civil Asset Forfeiture Reform Act of 2000. In addition, the statute of 
limitations with regard to civil forfeiture under the Magnuson-Stevens 
Act should be 3 years after the time when the involvement of the 
property in the alleged offense occurs. In nearly all cases, this will 
be at the time the agency becomes aware of an alleged fishery 
regulation violation. Frequently, the agency will seize the fish 
immediately involved in a suspected violation on the basis of probable 
cause and sell it. The value of the catch can also play a role in the 
setting of a civil penalty amount. The concern is that the agency will 
seek to forfeit the fish but the value of the fish (or the vessel) may 
far exceed the civil penalty that might reasonably apply to the 
violation. How does the agency determine the relationship between the 
civil penalty and the value of any property that is or might be seized 
for forfeiture? No doubt the days of seeking forfeiture of a fishing 
vessel, its catch, and its nets while also seeking a hefty civil 
penalty, plus permit sanctions, are gone. But it is not entirely clear. 
All these forfeiture issues require further clarity in the agency's 
regulations at a minimum and in the Magnuson-Stevens Act as well. It is 
time to update the law in this regard, in particular by incorporating 
the provisions of the Civil Asset Forfeiture Reform Act of 2000.
                       other pending legislation
Pirate Fishing?
    Who can be against the Pirate Fishing Elimination Act? No one, of 
course, would sensibly take that position given the tag word ``pirate'' 
in the title. However, the pending proposed legislation (S. 267) 
requires a closer look to see if there are any unintended consequences 
if we simply adopt that legislation as written into law. Anyone who 
follows fishery management closely knows that there is a significant 
problem in the world with regard to extensive illegal, unreported and 
unregulated (IUU) fishing activities outside the rules of Regional 
Fishery Management Organizations (RFMOs) or the rules of any nation. In 
addition, in some international fisheries, other countries do not 
enforce the rules of RFMOs against their vessels but U.S. flag vessels 
are subject to extensive regulation and scrutiny and occasional fines 
and sanctions for transgressions. Then there is the truly unregulated 
fishing activity by vessels that have no meaningful connection to the 
country whose flag they fly or that operate without a flag. See 
generally, NOAA Report to Congress, ``Improving International Fisheries 
Management,'' January 2013.
    The concerns about S. 267 are at least three. First, does the 
legislation sweep too broadly in its terms to cover even a fix-it 
ticket that has been unpaid, thereby giving other countries unnecessary 
authority to cite or seize U.S. flag vessels in their ports and demand 
payment of fines merely for income? Use of the inflammatory words 
``pirate fishing'' is, unfortunately, not legally accurate in this 
context. An act of piracy on the high seas was recently adjudicated by 
the Ninth Circuit Court of Appeals, ironically during fishing activity 
for whales. Institute of Cetacean Research v. Sea Shepherd Conservation 
Society, 708 F.3d 1099 (2013).\5\ In that case, the Court applied the 
definition of piracy contained in Article 101 of the U.N. Convention on 
Law of the Sea: ``illegal acts of violence or detention, or any act of 
deprivation, committed for private ends by the crew or passengers of a 
private ship . . . and directed on the high seas, against another ship 
. . . or against persons or property on board such ship.'' The 
defendant group aggressively interfered with a fishing operation that 
was considered legal under international law.
---------------------------------------------------------------------------
    \5\ Chief Judge Alex Kozinski: ``You don't need a peg leg or an eye 
patch. When you ram ships; hurl glass containers of acid; drag metal-
reinforced ropes in the water to damage propellers and rudders; launch 
smoke bombs and flares with hooks; and point high-powered lasers at 
other ships, you are, without a doubt, a pirate, no matter how high-
minded you believe your purpose to be.'' 708 F.3d at 1101.
---------------------------------------------------------------------------
    But S. 267 defines IUU broadly to include any activity (1) within 
200 nautical miles by a U.S. or foreign vessel that contravenes any law 
or regulation of another nation or (2) anywhere in contravention of the 
conservation and management measures of an RFMO. Contravention of any 
law or regulation? Should a vessel that mistakenly fished in the wrong 
area and paid a fine be considered an ``IUU Vessel?'' Once again, the 
devil is in the details. S. 267 condones an action by any signatory 
coastal nation to seize a U.S. vessel if there is reason to believe 
that the fish on board was taken in violation of any foreign law or any 
conservation or management measure. Sec. 7(a). And the title of the 
bill (even though it has no legal effect) provides color to the 
argument that that U.S. vessel is engaged in piracy. These are real-
life issues for U.S. fishing vessels operating in the Pacific Ocean. 
Should the definition of IUU fishing be so broadly drawn as to cover 
any violation, no matter how small? Should the definition omit 
situations where enforcement is underway in the flag nation or where a 
penalty has been paid and the violation resolved? Overkill from this 
legislation is quite possible, in addition to other unintended 
consequences for the U.S. fishing industry.
    Second, S. 267 is inconsistent with and duplicative of other U.S. 
laws, such as the Lacey Act and the Nicholson Act, which already 
address this subject. Currently, the Nicholson Act bars the unloading 
in a U.S. port from a foreign vessel of (1) any fish caught by that 
vessel on the high seas or any fish product therefrom; or (2) any fish 
or fish products taken on board that vessel on the high seas from a 
vessel engaged in fishing operations or the processing of fish or fish 
products (e.g. transshipping). Unless a treaty is in place allowing 
landing by a foreign vessel, it does not matter if the fish was taken 
legally or illegally--it cannot come into the country. This law is 
enforced by the Secretary of Commerce and the U.S. Customs and Border 
Protection. Therefore, the Nicholson Act already addresses IUU fishing 
on the high seas. For any other IUU situation, the Lacey Act already 
provides a ``port'' remedy in the United States. That law, used 
frequently in fish product cases, prohibits trade (including imports) 
in any fish taken in violation of any U.S. tribal or foreign law. U.S. 
v. 594,464 Pounds of Salmon, 687 F. Supp. 525 (W.D. Wash. 1987), 
affirmed, 871 F.2d 824 (1989). Thus, there is no gap in U.S. law that 
needs filing by enactment of S. 267 or its House counterpart, H.R. 69.
    Finally, is this really a U.S. problem and do we really need more 
domestic laws on this issue? A more complete list of U.S. laws and 
regulations applicable to IUU fishing is found in Annex 2 to NOAA's 
January 2013 Report on this subject. There is no question but that the 
ball lies in the court of nations other than the United States, not 
only coastal nations that need to increase their capacity to regulate 
and enforce laws in their own 200 mile fishing zones, but also other 
fishing nations that do not in any way hold their vessels to the same 
enforcement accountability as the United States applies to its vessels. 
Many RFMOs are moving to specify clear rules as to the proper oversight 
of fishing vessels by member nations. Lists of vessels that have been 
found to engage in IUU fishing can be found on their Web sites. In 
addition, there are organizations such as the International Seafood 
Sustainability Foundation consisting of industry and environmental 
groups that are addressing the issue in the marketplace, outside 
traditional command and control regulatory systems. This entire issue 
needs closer examination by the Congress before a new law on IUU 
fishing is enacted, to include examination of real need and possible 
unintended consequences.
    Some will argue that we must show leadership in preventing 
overfishing throughout the world and that approval of this 
international agreement on IUU fishing will demonstrate that 
leadership. We already address the issue of IUU fishing as it may touch 
the United States through existing laws, a comprehensive regulatory 
system, and an enforcement program that far exceeds what other 
countries do. Why isn't that kind of leadership enough? Symbolic 
adoption of legislation that only adds to the uncertainty and 
complexity for U.S. fisheries participants but fails to get others to 
change their practices is simply idealistic rather than realistic and 
could well be counterproductive. We must also be mindful of the cost of 
more implementation and regulatory activity in these times of 
constraint on the government's budget and personnel. See generally, 
Statement of Arnold Palacios, Chairman, Western Pacific Fishery 
Management Council before the U.S. Senate Committee on Oceans, 
Atmosphere, Fisheries and Coast Guard; January 30, 2014.
International Stewardship Act
    While the recent version of this bill is an improvement over past 
drafts, this piece of legislation also deserves greater scrutiny as to 
the need for more regulatory authority against U.S. industry in light 
of existing laws and regulations and the question, again, of unintended 
consequences. Perhaps further hearings should be held to inquire into 
these issues.
                                summary
    The United States leads the world in fishery management efforts to 
manage its own fisheries sustainably and in support of RFMOs and other 
international management entities. It is unlikely that we can make the 
big difference in IUU fishing as it requires far more effort by other 
countries. One of the major differences in the fisheries business since 
enactment of the Magnuson-Stevens Act is the growth of a very active, 
globalized market for fish and fish products. Nearly every country has 
embraced, to some considerable degree, an open market trading system. 
In 1976 the world was broken down into the market economies, the 
communist system, and the Third World (now called emerging markets). 
All that has now changed, particularly with the growth of markets all 
over the world (particularly for fish products), in large part because 
of the trade and foreign policy leadership of the United States. Given 
this global system we fostered, the United States cannot now go it 
alone on any aspect of this global trade and certainly cannot create 
new trade restrictions on fish and fish products that are, in effect, a 
substitute for inadequate fishery management and enforcement measures 
by other coastal countries or fishing vessel flag nations.
    The idea, held by some, is that we must regulate American 
businesses first and often in order to lead the way to fisheries 
sustainability throughout the world. Considerable progress has been 
made on the sustainability front domestically, U.S. fishing fleets have 
contracted since 1976 in many of our fisheries, and U.S. companies must 
struggle constantly against considerable and growing foreign 
competition. Perhaps now the Magnuson-Stevens Act should be amended to 
shift more focus to helping American businesses compete in the world 
marketplace by adopting only those regulations as are absolutely 
essential to achieve core goals and by ensuring that over-regulation 
and over-enforcement do not prevent our participation on the ``playing 
field.'' It is hard to argue for a level playing field if you are not 
in the game.

            Very truly yours,
                                            James P. Walsh.

                                 ______
                                 

    Amendments to Enforcement Provisions of the Magnuson-Stevens Act
Section 308 (16 U.S.C. Sec. 1858) (Civil Penalties and Permit 
        Sanctions):

  1.  Amend subsection (a) to read as follows:

          (a)   ASSESSMENT OF PENALTY--Any person who is found by the 
        Secretary to have committed an act prohibited by section 307 
        shall be liable to the United States for a civil penalty. The 
        amount of the penalty shall not exceed $100,000.

  2.  Amend subsection (b) by substituting the language in subsection 
            (g) and by deleting subparagraphs (g)(2) and (g)(5) thereof 
            and renumbering the remaining subparagraphs appropriately.

  3.  Amend subsection (c) by inserting the following new language:

          (c)   PROCEDURE AND POLICY--(1) Any person who is charged 
        with a violation of law under this section for which a civil 
        penalty or a permit sanction may be imposed by the Secretary 
        shall be provided (a) notice of the basis of the alleged 
        violation and the civil penalty or permit sanction that may be 
        imposed; and (b) an opportunity for a hearing on the record 
        before a fair, impartial and qualified administrative law 
        judge, in accordance with section 554 of title 5, United States 
        Code. Notice of a violation shall be sent after review and 
        approval by a program management official with delegated 
        authority over the statute or regulation that is alleged to 
        have been violated. In any hearing that is requested, the 
        Secretary shall have the burden of proving any such violation 
        and the reasonableness of any civil penalty or permit sanction 
        that may be imposed. Any final determination of liability for 
        and the amount of any civil penalty shall be based on a 
        preponderance of the evidence. In any such hearing, all 
        evidence that is relevant, material, reliable, and probative 
        and is not unduly repetitious or cumulative shall be admitted. 
        Unless inconsistent with the Administrative Procedure Act, the 
        Federal Rules of Evidence shall also be applicable. The 
        administrative law judge assigned to the hearing may rule on 
        all factual and legal issues.

          (2)   The purpose of any enforcement action under this 
        section shall be to achieve compliance with marine resource 
        management plans and objectives and shall not be solely for 
        generation of income to the government.

          (3)   In determining the amount of any civil penalty or 
        extent of any permit sanction under this section, the Secretary 
        shall take into account the nature, circumstances, and gravity 
        of the prohibited acts committed, as well as the complexity and 
        clarity of any applicable regulation or statutory provision 
        that applies and the applicability of other penalties, such as 
        criminal penalties, permit sanctions, or asset forfeitures, to 
        the same prohibited acts. In addition, the Secretary, with 
        respect to the violator, shall take into account the degree of 
        culpability (if proven by substantial evidence), any history of 
        prior offenses, and such others matters as a just and fair 
        resolution of the matter may require. In assessing such 
        penalty, the Secretary may also consider any information 
        provided by the violator relating to the ability of the 
        violator to pay if such information is provided at least thirty 
        (30) days prior to any administrative hearing. Any penalty 
        amount or permit sanction imposed shall be reasonably related 
        to the offense that was committed and shall not be excessive.

  4.  Amend subsection (d) by substituting the language in section (b) 
            and substituting ``(b)'' for ``(g)'' in the second line 
            thereof.

  5.  Renumber the remaining subsections appropriately (Failure to Pay; 
            In Rem Jurisdiction; Compromise or Other Action.

  6.  Add the following new subsections at the end of the section:

          ( )   Within six (6) months of [enactment of this amendment], 
        the Secretary shall initiate a rulemaking to revise the civil 
        procedures rules in Part 904 of title 15, Code of Federal 
        Regulations, to make them consistent with this section and 
        Section 308. In addition, any such revised rules shall provide 
        for the availability of alternative means of dispute resolution 
        in accordance with sections 571-583 of title 5, United States 
        Code, and for summary adjudication in favor of any party where 
        there is no genuine issue of material fact and the moving party 
        is entitled to judgment as a matter of law.
Section 310 (16 U.S.C. Sec. 1860) (Civil Forfeitures)
  1.  Amend subsection (a) by adding the following new subparagraph (2) 
            and (3):

          (2)   Any forfeiture action under this section shall be 
        governed by the provisions of the Civil Asset Forfeiture Reform 
        Act of 2000 (Pub. L. 106-185; Apr. 25, 2000).

          (3)   No forfeiture action may be instituted more than three 
        (3) years after the time when the property was used in the 
        alleged offense.

  2.  Amend subsection (c) by deleting the second and third sentences 
            thereof.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Walsh for your testimony as 
well.
    At this point we will begin member questioning of the 
witnesses. To allow all members to participate and to ensure we 
can hear from all witnesses today, members are limited to 5 
minutes for their questions. However, if members have 
additional questions, we can have more than one round of 
questioning. In some cases we may submit them to you verbally 
or in writing and ask for a written response.
    Therefore, I recognize myself.
    Mr. Pettinger, let me see if I understand what happened 
here. You started off and I think your original loan was $35.7 
million.
    Mr. Pettinger. Yes.
    Dr. Fleming. And after how many years now?
    Mr. Pettinger. Actually that was a total loan for all of 
the groundfish fishery and the shrimp and crab fisheries, but 
we start off with the groundfish portion and that was $28.7 
million, I believe.
    Dr. Fleming. But you owe $27 million now. Is that on the 
totality of the loan or just the----
    Mr. Pettinger. Just the groundfish portion. We owe $700,000 
less than we started with.
    Dr. Fleming. And that is after how many years?
    Mr. Pettinger. Eight and a half years of payments.
    Dr. Fleming. That does sound like a payday loan proposition 
there. That is not much progress, is it?
    Mr. Pettinger. You know, the good news is that we are into 
the black or the bad news is it took us 8\1/2\ years and $20 
million to get there.
    Dr. Fleming. Right. Well, you know, it is interesting. In 
this one case the government seems to be getting a better deal 
than it should, and you do not find that very often, but it 
looks like it is that way here.
    And, of course, I think you mentioned that there was some 
delay before you could actually begin collecting revenue, which 
you were already up to something like three million-something 
before you could actually collect the first dime.
    Mr. Pettinger. Well, the total loan amount was $4.23 
million tacked onto the overall loan amount.
    Dr. Fleming. I see, yes. OK.
    Let's see now. This really is not an issue addressed in 
H.R. 2646, but I understand that while the Catch Share Program 
has been successful, there are some species that are managed 
under the plan that are not being harvested. Maybe as much as 
two-thirds of the total allowable catch remains in the water.
    You note that this may be the result of antiquated 
regulations. What is being done to update these regulations?
    Mr. Pettinger. Well, we are in the process of trying to 
move some trilling amendments through the council process, and 
it has been going very slow. We did manage to get the 3 percent 
cost recovery fee through, but there are a lot of things that 
we need to do to make this fishery more efficient.
    A couple of things is since we have 100 percent 
accountability, to open up the gear as far as the different 
type of nets that we can use to be more efficient to catching 
certain species that are very healthy. Yellowtail rockfish, for 
instance, the quota is like six million pounds. I think our 
best year we have done so far is maybe two million pounds. That 
is because through a loophole the whiting fishery opens up on 
June 15. People can declare themselves in the whiting fishery 
and use a mid-water net to catch yellowtail rockfish because it 
is up in the mid-water.
    That quota is going to triple, I think, maybe in June for 
the 2015-16 season, but that is the kind of regulatory 
adjustment we need. It may be a rationalized fishery, but it 
truly is not rationalized as far as all of the tools available 
to us.
    And that is what we need. We need some relief in the 
meantime until we get there. We are just not there yet.
    Dr. Fleming. Sure. Mr. Walsh, you note that any violation 
of the Magnuson-Stevens Act by a U.S. vessel could lead to that 
vessel being identified as an IUU vessel. If that vessel never 
left U.S. waters, would there be any effect of being labeled as 
an IUU vessel?
    Mr. Walsh. I would think so because the concern I have 
about Mr. DeFazio's draft bill, with all due respect--I am from 
Coos Bay, Oregon, and I have to be careful--I think it is so 
broadly drafted that it includes almost anything, even the most 
trivial thing.
    And as I identified in my testimony, the United States 
identified Colombia as an IUU nation, and we have a different 
system than EU, but we identified it as an IUU nation on the 
basis of three shark finning cases and two cases of throwing 
salt bags into the water, and they said we were not sure how 
they had been resolved. So we think it is an IUU nation.
    In my mind that is trivial, and if you have a broad 
definition that says port States can enforce violations of any 
nation's laws in any location, then you open yourself up to 
having U.S. vessels show up in a foreign port, and they are 
going to say, ``Well, by the way, you know, you did not pay 
your bill for your observer you had last month and we found out 
about it from the U.S. Government. So we are going to hold your 
vessel while you pay us a fine.''
    I mean these things, I have actually had real experiences 
like this.
    Dr. Fleming. Well, and not really on this same subject, but 
kind of similar situations perhaps under the Lacey Act and 
other things, we have seen examples where the law can be overly 
interpreted or over harshly enforced.
    Mr. Walsh. You are thinking of the McNabb case.
    Dr. Fleming. Yes. So we want this to be properly balanced, 
and we want to make sure that the protections are in there, 
especially for Americans in American vessels.
    Mr. Walsh. People should not be prosecuted if the law on 
which you are being prosecuted has been repealed by that 
government. That was the McNabb case.
    Dr. Fleming. I completely agree with you. Thank you.
    My time is up. I yield to Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    And let me go back, Mr. Walsh, because you mentioned in 
your testimony, sir, the importance of the Lacey Act in holding 
people accountable when they trade in illegal fish. So could 
you please elaborate on why a strong Lacey Act is important for 
conserving natural resources and limiting criminal activity?
    Mr. Walsh. On the Lacey Act, if you look at the literature 
on the development of the IUU measure, the port State measure 
that is before you today, you will see a routine discussion by 
everybody around the world that they all want to emulate the 
Lacey Act. And the Lacey Act basically says if you import a 
fish into the United States or a fish product that has been 
caught in violation of some other country's laws, you are 
subject to criminal prosecution. The product can be seized and 
forfeited to the U.S. Government.
    And very uniquely, recently a decision was made involving 
South African lobsters whereby the United States is able to 
seek restitution for South Africa for that traffic. It is a 
tremendously powerful law, and it is one of the reasons why I 
have said in my testimony I do not know that we need many more 
laws in this country to deal with IUU fishing as it affects us.
    Mr. Sablan. Well, thank you, but you know, I just wanted 
for you to repeat why a strong Lacey Act is important, sir.
    Ambassador Lagon, sir, thank you. Ambassador, in your 
testimony you discuss the fact that there are no international 
labor standards for fishing vessels, and that as a result some 
IUU vessels are able to operate for months or years using 
forced labor, 3 years, as an example, for a guy who just had to 
pay for a baby.
    So can you please discuss how the legislation before us 
today can help American consumers be sure that their swordfish 
does not come from a sign of slavery?
    Dr. Lagon. Thank you for the question.
    The legislation would help reinforce the robust bipartisan 
reauthorization of the Trafficking Victims Protection Act here 
in Congress last year. The International Labor Organization 
found that a minimum of 21 million people in the world are 
human trafficking victims. Three-quarters of them are for 
labor.
    I found when I headed the State Department Human 
Trafficking Office a large number of them were in the elicit 
fishing sector. The main way that this legislation would assist 
would have communication between port States and between flag 
and port States about suspected illicit fishing vessels.
    I do not quite understand the premises of Mr. Walsh in that 
I think it should be the interest of the business community to 
protect those who are legitimately living by the rules and stop 
those who are trying to undercut their profits by illicit 
fishing. If the United States wants to promote due process and 
international law, then it should do so by example, by----
    Mr. Sablan. Right, right.
    Dr. Lagon [continuing]. Getting the ratification of the 
Port State Measures Act and the legislation.
    Mr. Sablan. Exactly, Ambassador. You know, I am also 
confused because Mr. Walsh in his testimony speculates that 
U.S. vessels and crews might be subject to enforcement abuses 
in foreign ports under the Port State Measures Agreement, PSMA, 
and I am confused because it seems that the agreement is 
designed to standardize treatment of foreign fishing vessels, 
and that it is treated with safeguards to prevent abuse. So I 
am glad that the two of us are absolutely puzzled. I am 
confused. You may be puzzled.
    But would you just elaborate?
    Dr. Lagon. Sure. Look. I understand skepticism about 
multilateral arrangements. I worked for Senator Helms of the 
Senate Foreign Relations Committee. I am a free marketeer. I am 
skeptical about a regulation, but in my view the best thing we 
can do to raise up the standards of implementation of due 
process in other countries is for the United States to embrace 
the Port State Measures Act for better communication between 
States and have implementation legislation.
    The Administration says on the part of the executive branch 
they need implementation legislation. I agree.
    Mr. Sablan. All right. And so my last question, Ambassador, 
is how do we get more data on human trafficking in the fishing 
sector and help in IUU fishing and associated human bondage? 
Would the ability to trace seafood throughout the supply chain 
be helpful?
    Dr. Lagon. Look. I am very glad you asked that question. 
Data on human trafficking is soft. One must admit that. I am 
not here to advocate anything else besides that. But 
communication between countries will allow greater tracking and 
we will have a better sense of the extent of the problem, and 
then as a baseline what success we are having reducing the 
problem.
    Not only are fish being netted illicitly, but it appears 
human beings as well.
    Mr. Sablan. Well, thank you.
    My time is up, Mr. Chairman. Thank you.
    Dr. Fleming. The gentleman yields back.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    To Mr. Pettinger, on the terms of the loan and the other 
costs, let us just go over a couple of the other costs. There 
is a 3 percent fee for management of the Catch Share Program?
    Mr. Pettinger. There is a cost recovery fee to the National 
Marine Fishery Service.
    Mr. DeFazio. Right. Has National Marine Fisheries 
documented the number as matched, that that 3 percent is their 
actual administrative cost?
    Mr. Pettinger. Not yet. It has been asked for. My 
understanding is they are being sued by the catcher-processors 
of the whiting sector, what they are charging them. So I would 
assume those will be forthcoming.
    Mr. DeFazio. OK. So we have the 3 percent there. Observers, 
they are not paying 100 percent of the cost of the observers 
anymore, are they?
    Mr. Pettinger. It would vary by the size of vessel and the 
capacity, and I think that is one of the big fears here, is the 
smaller vessels which would catch less, it would be a bigger 
part of their gross. That is why we are moving forward on 
electronic monitoring as an alternative to lessen the cost to 
the fleet.
    Mr. DeFazio. And we are a little bit slow on the electronic 
monitor; is that correct? Because they want to be able to deal 
with every contingency and with 100 percent certainty as 
opposed to being able to identify things 99 percent of the 
time?
    Mr. Pettinger. We are moving forward at a steady, slow 
pace, yes.
    Mr. DeFazio. Right. But that would remove a burden.
    Mr. Pettinger. Right.
    Mr. DeFazio. As I understand, there are like three 
companies that provide observers.
    Mr. Pettinger. I think there are two main ones, I believe.
    Mr. DeFazio. Yes.
    Mr. Pettinger. But it is getting pretty hard to get 
observers in some of these small ports.
    Mr. DeFazio. Right. And so, I mean, electronic monitoring 
is problematic not only in terms of cost, but sometimes in 
terms of who is sent or who is not sent to be dispatched as an 
observer.
    Mr. Pettinger. Yes, true.
    Mr. DeFazio. So that is another burden.
    And then, finally, we have the payday loan on top of that.
    Mr. Pettinger. Right.
    Mr. DeFazio. OK. So how well are people doing? What percent 
of folks are having real trouble making these obligations and 
making a living and being able to put food on the table, other 
than the fish they catch at home?
    Mr. Pettinger. Well, you know, I do not know everybody's 
business, but I was in Newport just for the day, and I had a 
fisherman come up to me and say, ``Hey, we have to do something 
about this.''
    It is only 2 percent, which is not that much of the gross, 
but that comes off the top, and so if the boat, say, is netting 
10 percent, that actual 2 percent that we are going to gain 
back is 20 percent extra that they would be receiving. So it is 
kind of a culmination of effects.
    So we are just trying to chip away where we can. We are not 
going to solve the world on all of these issues, but this is 
one component of the things we need to work on, and we are 
doing all of these amendments and everything to make this 
fishery better and more efficient while keeping the 
accountability in place because that is really key to this 
program.
    Mr. DeFazio. And then I asked you a question because we 
were puzzling; staff was puzzling; I have been puzzling for 
years on how this interest rate was reached since it was two 
points above prime at the time. You opined that it was because 
of risk, but you also went on to say, I mean, it is not against 
someone's individual boat or an individual person not being 
able to sustain the business anymore. It is against all of the 
landings of the fleet.
    Mr. Pettinger. Right.
    Mr. DeFazio. So where is the risk? I guess if there are no 
more fish there would be a risk.
    Mr. Pettinger. That would be the risk. My understanding is 
the 2 percent is just a standard insurance that they put on top 
of every loan they ever do, and so if the vessel was 
depreciable, it makes a difference.
    Mr. DeFazio. I am not sure that is true, but we will check 
into that.
    Thank you, Mr. Chairman. I appreciate the time. Thank you.
    Dr. Fleming. The gentleman yields back.
    We have no further questions. I want to thank Panel II 
today for your testimony. It was very interesting, and 
certainly if members think of questions afterwards, we may want 
to send them to you.
    The record will remain open for 10 days to receive 
responses from the questions submitted to you.
    Before I adjourn, I would like to ask unanimous consent to 
include in the record a letter from Mr. Peter Flournoy 
concerning the Antigua Convention provisions of H.R. 69.

    Hearing no objections, so ordered.

    [The letter from Peter Flournoy submitted for the record by 
Dr. Fleming follows:]
 Letter Submitted for the Record from the International Law Offices of 
                               San Diego

            International Law Offices of San Diego,
                                              San Diego, CA
                                                     April 1, 2014.

Hon. John Fleming, Chairman,
Subcommittee on Fisheries, Wildlife, Oceans, and Insular Affairs,
Washington, DC 20515.

Re: H.R. 69

    Dear Chairman Fleming:

    I am writing you on behalf of approximately 800 West Coast troll 
and pole and line harvesters of albacore tuna. Most of the harvesters 
are small family owned businesses, many with a history of several 
generations. House Bill 69, which includes implementing legislation for 
the Antigua Convention (the revised Inter-American Tropical Tuna 
Convention--IATTC), is extremely important to these constituents. The 
albacore harvesters fishery off the West Coast falls almost entirely 
within this organization's international jurisdiction. The provisions 
which currently ``level the playing field'' for U.S. fishermen are 
being inadvertently omitted by H.R. 69.

    Section 206 of House Bill 69, which amends Section 6 (16 U.S.C. 
955) of the Tuna Conventions Act of 1950, unnecessarily deletes by 
omission very important language in the current Section 6. That 
language in the current Section 6 which must be retained is:

     The Secretary of Commerce shall suspend at any time the 
application of any such regulation when, after consultation with the 
Secretary of State and the United States Commissioners, he determines 
that foreign fishing operations in the regulatory area are such as to 
constitute a serious threat to the achievement of the objectives of the 
commission's recommendations.

    Section 405 of S. 269 does not have this omission and makes only 
minor amendments to the section. It amends this part of Section 6 (16 
U.S.C. 955) as follows, retaining the important provision:

     The Secretary of Commerce shall suspend at any time the 
application of regulations promulgated to carry out the recommendations 
of the Commission. when, after consultation with the Secretary of State 
and the United States Commissioners, Secretary of Commerce determines 
that foreign fishing operations in the regulatory area are such as to 
constitute a serious threat to the achievement of the objectives of the 
commission's recommendations.

    Thank you very much for your attention to this matter as you 
proceed with this legislation.

            Sincerely,
                                         Peter H. Flournoy.

                                 ______
                                 
    Dr. Fleming. I want to thank members and staff for their 
contributions to this hearing. If there is no further business, 
without objection the subcommittee stands adjourned.

    [Whereupon, at 4:16 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

 Prepared Statement of Anthony Long, Director, Ending Illegal Fishing 
                   Project, The Pew Charitable Trusts
    The Pew Charitable Trusts (Pew) appreciates the opportunity to 
provide a statement in strong support of two bills that would reduce 
illegal, unreported and unregulated (IUU) fishing worldwide: H.R. 69, 
the Illegal, Unreported, and Unregulated Fishing Enforcement Act of 
2013, and H.R.____, the Pirate Fishing Elimination Act (PFEA).
    Pew has been working on a global scale for several years to support 
efforts to combat IUU fishing and to ensure a sustainable future for 
our oceans. Our research and work has led us to conclude that effective 
monitoring and control of fishing activities requires several essential 
and complementary elements: the ability to clearly identify IUU fishing 
vessels; information-sharing across national borders and national 
rulemaking; and the need for globally coordinated measures to combat 
IUU fishing. As a result, Pew has focused efforts on improving 
cooperation and information sharing among authorities; the adoption and 
effective implementation of policy measures that enable authorities to 
identify and locate fishing vessels; the development of technical 
capacity to sanction vessels found to be in violation of the law; and 
establishing robust and harmonized port controls.
    IUU fishing is a global problem that threatens ocean ecosystems and 
sustainable fisheries. It is responsible for up to 26 million metric 
tons of fish, valued at $23.5 billion,\1\ being landed every year. This 
is equivalent to catching approximately 108,000 pounds of illegal fish 
per minute. Scientists estimate that one in five fish on the global 
market has been caught using IUU methods,\2\ and in some parts of the 
world, such as West Africa, illegal fishing accounts for up to 40 
percent of all wild caught fish.\3\
---------------------------------------------------------------------------
    \1\ David J. Agnew et al., ``Estimating the Worldwide Extent of 
Illegal Fishing,'' PLOS ONE 4(2): e4560, http://www.plosone.org/
article/info%3Adoi%2F10.1371%2Fjournal.pone.0004570.
    \2\ Ibid.
    \3\ National Oceanic Atmospheric Administration, ``Illegal Fishing: 
Not in Our Ports'', http://www.nmfs.noaa.gov/ia/iuu/
portstate_factsheet.pdf.
---------------------------------------------------------------------------
    IUU fishing includes all fishing that occurs in violation of a 
coastal State or international fishery body management regulation, 
including fishing without a required license, fishing in closed areas, 
exceeding quotas, and under-reporting or not reporting catch. With 87 
percent of the world's wild-caught fish stocks fully exploited, over-
exploited or depleted,\4\ IUU fishing is a serious environmental and 
economic threat. It contributes to overfishing, harms rebuilding 
efforts, damages sensitive fish habitat, and skews scientific 
assessments, undermining international efforts to manage stocks 
sustainably. In addition, IUU vessels often have lower operating costs 
that could depress fish prices on the global market, putting legitimate 
fishing operations at an economic disadvantage.
---------------------------------------------------------------------------
    \4\ United Nations Food and Agriculture Organization, ``Review of 
the state of world marine fisheries resources'', http://www.fao.org/
docrep/015/i2389e/i2389e.pdf.
---------------------------------------------------------------------------
    While there has been a recent increase in the number of illegal 
incursions by foreign fishing vessels into U.S. waters, particularly 
along the Texas-Mexico border in the Gulf of Mexico, a majority of IUU 
fishing occurs on the high seas or in the Exclusive Economic Zones 
(EEZs) of developing States, where monitoring and surveillance is 
limited. Monitoring and enforcement of illegal fishing, particularly on 
the high seas, is prohibitively expensive for all but the wealthiest of 
nations, due to the vast size of the ocean and the sheer number of 
vessels. For these reasons, the risk of illegal vessels being caught at 
sea is very low; however, all vessels must eventually bring their fish 
to port. Ports with lax controls and inspection requirements, also 
known as ``ports of convenience,'' have been exploited by IUU fishing 
fleets to land and sell their catch.
    Two bills under consideration today would begin to address the 
challenges of IUU fishing by improving domestic enforcement 
capabilities and through the implementation of an international 
agreement, the Port State Measures Agreement (PSMA). H.R. 69 would make 
important improvements to existing U.S. statutes that ensure compliance 
with international fisheries obligations negotiated through Regional 
Fisheries Management Organizations. Currently, international fisheries 
enforcement is regulated through nine separate, and sometimes 
overlapping, statutes, and is carried out by a number of Federal 
agencies, including the National Oceanic and Atmospheric Administration 
(NOAA), the United States Coast Guard (USCG), the United States Navy 
and State enforcement agents. H.R. 69 would simplify, streamline and 
strengthen the enforcement provisions of these statutes and make them 
consistent with our domestic fisheries law, the Magnuson-Stevens 
Fishery Conservation and Management Act. In addition, H.R. 69 would 
make technical amendments to the High Seas Driftnet Fishing Moratorium 
Protection Act that would encourage stronger compliance by other 
nations with international fisheries obligations, establish an IUU 
vessel list to enhance monitoring of suspected and confirmed foreign 
offenders, and encourage information exchange amongst Federal 
enforcement agencies and appropriate international authorities.
    The Pirate Fishing Elimination Act would address illegal fishing by 
implementing the Port State Measures Agreement. The PSMA, for the first 
time, sets an internationally agreed-upon definition of IUU fishing and 
establishes minimum port inspection standards for foreign fishing 
vessels. Nations that ratify the Agreement agree to designate the ports 
where foreign fishing vessels may enter, conduct dockside inspections 
of foreign vessels, deny port access and services to vessels when there 
is clear evidence of IUU fishing, and share information with other 
coastal States when a vessel is determined to have engaged in IUU 
fishing. By denying illegal vessels a place to offload illegal 
landings, the economic incentives for engaging in illegal fishing are 
reversed. Broad ratification will help close off ports around the world 
to illegal fishing vessels and eliminate the pathways that operators 
use to get illegal catch into the stream of commerce.
    The PFEA would operationalize the concepts set forth in the PSMA, 
including clarifying the responsibilities of the Secretary of Commerce 
(NOAA) and the USCG; establishing procedures related to foreign fishing 
vessel entry, inspections and enforcement; and the denial of port and 
port service access if the vessel is suspected of illegal fishing. The 
United States already has robust port controls that meet the standards 
of the PSMA, and foreign fishing vessels are generally prohibited from 
offloading their catch in U.S. ports, with the exception of American 
Samoa, Guam, and some of the other Territories. As a result, enacting 
PFEA will require little change in the way U.S. law enforcement 
officers conduct foreign fishing vessel inspections in domestic ports. 
However, U.S. ratification of the PSMA and passage of PFEA is 
critically important to encourage other nations to ratify and implement 
the agreement. Thus far, the PSMA has been ratified by the European 
Union and 9 other countries; 25 countries must ratify the agreement in 
order for it to come into force.
    These bills are widely supported by the Administration, including 
the Department of State, NOAA, and the USCG, as well as a number of 
domestic fishing interests and conservation organizations because they 
will bring countries around the globe up to the current standards of 
the United States. The Senate Commerce Committee has moved in a 
bipartisan fashion to unanimously advance the companion legislation for 
H.R. 69, The International Fisheries Stewardship and Enforcement Act 
(S. 269), and the Pirate Fishing Elimination Act (S. 267) last July. 
Similarly, the Senate Foreign Relations Committee unanimously approved 
the Port State Measures Agreement last month. Now is the time for the 
U.S. House of Representatives to act to improve domestic and 
international capabilities to monitor, track and enforce against 
illegal fishing activities that threaten U.S. interests and the global 
sustainability of our oceans.
    The Pew Charitable Trusts respectfully requests that the U.S. House 
of Representatives move expeditiously to pass H.R. 69 and the Pirate 
Fishing Elimination Act as soon as possible, and looks forward to 
working with Members to ensure the strongest U.S. response to combat 
illegal fishing worldwide.

                                 ______
                                 

                    Letter Submitted for the Record

      Federal Law Enforcement Officers Association,
                                            Washington, DC,
                                                  February 5, 2014.
Hon. Harry Reid, Senate Majority Leader,
U.S. Senate,
Washington, DC 20510.

    On behalf of the Federal Law Enforcement Officers Association 
(FLEOA), the largest nonprofit professional association representing 
26,000 current and retired Federal law enforcement officers across the 
Nation, including member NOAA special agents and uniformed officers, we 
write to express our strong support for the International Fisheries 
Stewardship and Enforcement Act (SB 269/H.R. 69), the Pirate Fishing 
Elimination Act (SB 267), and the Port State Measures Agreement. We 
urge you to immediately pass these important bills to enhance domestic 
and international enforcement efforts to protect our valuable fisheries 
resources for law-abiding U.S. fishermen and our coastal communities.
    The U.S. Coast Guard (USCG) and the National Oceanic Atmospheric 
Administration's, Office for Fisheries Law Enforcement (NOAA OLE) are 
responsible for protecting living marine resources within the U.S. 
Exclusive Economic Zone (EEZ), including preventing foreign illegal 
fishing and supporting international efforts to eliminate fisheries-
related crime on the high seas. In addition, enforcement activities 
often transcend fisheries crime, as foreign illegal fishing vessels are 
known to engage in other types of transnational crimes, including drug 
and human trafficking, posing a persistent challenge to U.S. 
sovereignty.
    Immediate passage of SB 269/H.R. 69; SB 267 and the Port State 
Measures Agreement would simplify enforcement protocols and provide the 
U.S. Coast Guard and the NOAA Fisheries service, Office for Law 
Enforcement additional tools to improve enforcement, enhance port 
security, protect our law enforcement officers, and take stronger 
action against foreign illegal fishing operators.
    Specifically, the International Fisheries Stewardship and 
Enforcement Act (IFSEA) would harmonize existing enforcement protocols 
and establish streamlined standards for taking action against foreign 
illegal fishing vessels. The legislation also increases officer safety 
by making it an explicit violation to assault or otherwise oppose law 
enforcement officers in the enforcement of existing international 
fisheries laws. Finally, SB 269/H.R. 69 would enhance cooperation 
between the U.S. Coast Guard, NOAA OLE, other law enforcement partners, 
the Department of Defense and increase the resources available to 
enforcement officers to detect, track and prosecute foreign illegal 
fishing activity.
    The Pirate Fishing Elimination Act would implement the Port State 
Measures Agreement, an international treaty that would close ports 
around the globe to foreign vessels engaged in illegal fishing, 
eliminating pathways for illegal product to enter the global fish 
market and reducing the economic incentive for foreign illegal fishing 
operators. Passage of this bill would encourage other nations to meet 
U.S. Standards by implementing common-sense port inspection and control 
requirements resulting in a broad increase in overall maritime 
security.
    Passage of SB 269/H.R. 69; SB 267 and ratification of the Port 
State Measures Agreement will enable U.S. law enforcement officers to 
more safely and effectively apprehend foreign illegal fishing operators 
and build on domestic and international efforts to eliminate fisheries-
related crime. Please pass these important measures as soon as 
possible.
    Feel free to contact FLEOA Public Information Officer Jennifer 
Mattingly for further assistance at (202) 293-1550.

            Sincerely,
                                                 Jon Adler,
                                          FLEOA National President.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

    <bullet> Letter of support for H.R. 69 and H.R.____ 
            ``Pirate Fishing Elimination Act'' from Albion 
            Fisheries Ltd. et al., a diverse group of 
            stakeholders.

    <bullet> Letter of support for H.R.____ ``Pirate Fishing 
            Elimination Act'' from a diverse group of New 
            Jersey stakeholders.

    <bullet> Letter of support for H.R. 69 and H.R.____ 
            ``Pirate Fishing Elimination Act'' from a group of 
            elected officials and concerned citizens in States 
            bordering the Gulf of Mexico.

                                 [all]
</pre></body></html>
